<html>
<title> - REAUTHORIZATION OF THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION</title>
<body><pre>[Senate Hearing 108-972]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-972
 
   REAUTHORIZATION OF THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION





                  U.S. GOVERNMENT PRINTING OFFICE
86-220                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2003....................................     1
Statement of Senator Breaux......................................    12
Statement of Senator Brownback...................................    18
    Prepared statement...........................................    18
Statement of Senator Lautenberg..................................    16
Statement of Senator Smith.......................................    95
Statement of Senator Sununu......................................     1

                               Witnesses

Byrd, LaMont, Director, Safety and Health, International 
  Brotherhood of Teamsters.......................................    40
    Prepared statement...........................................    42
Claybrook, Joan B., President, Public Citizen....................    48
    Prepared statement...........................................    51
Duncan, Douglas G., President and CEO, FedEx Freight on behalf of 
  the American Trucking Associations, Inc. (ATA).................    23
    Prepared statement...........................................    25
Harrison, Joseph M., President, American Moving and Storage 
  Association (AMSA).............................................    78
    Prepared statement...........................................    80
Hurst, Peter, President, Commercial Vehicle Safety Alliance; 
  accompanied by Lieutenant Paul Sullivan, Massachusetts State 
  Police.........................................................    70
    Prepared statement...........................................    72
Sandberg, Hon. Annette M., Acting Administrator, Federal Motor 
  Carrier Safety Administration..................................     2
    Prepared statement...........................................     4

                                Appendix

Letter dated June 9, 2003 to Hon. John McCain from Hours of 
  Service Coalition..............................................   107
Letter dated May 27, 2003 to Annette M. Sandberg, Acting 
  Administrator, Federal Motor Carrier Safety Administration from 
  Hours of Service Coalition.....................................   107
Written questions submitted by Hon. John B. Breaux to:
    Hon. Annette M. Sandberg.....................................   109
    Douglas G. Duncan, LaMont Byrd, Joan B. Claybrook, Peter 
      Hurst and Joseph M. Harrison...............................   112
Written questions submitted by Hon. Ernest F. Hollings to Hon. 
  Annette M. Sandberg............................................   111


   REAUTHORIZATION OF THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

                              ----------                              


                         TUESDAY, JUNE 10, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John E. Sununu, 
presiding.

           OPENING STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Good morning. On behalf of Committee 
Chairman John McCain, I'm pleased to call to order today's 
hearing on motor carrier safety and welcome our witnesses, 
beginning with Annette Sandberg. We meet today to consider what 
has been accomplished with respect to truck and bus safety 
since the Federal Motor Carrier Safety Administration was 
created in 1999 and to hear the recommendations of the 
Administration, the trucking industry, and safety advocates for 
the future of the program.
    FMCSA has set a goal of reducing the rate of fatalities in 
truck crashes to 1.65 fatalities per hundred million miles of 
truck travel by 2008. This goal represents a 30 percent 
improvement over the fatality rate in 2001 and obviously will 
require a strong commitment on the part of FMCSA, the states, 
as well as industry.
    A major element of the Federal Government's safety effort 
is the Motor Carrier Safety Assistance Program, a state program 
to fund officers who perform equipment inspections, enforce 
traffic regulations, and conduct compliance reviews of carriers 
with poor safety records. FMCSA and the states also administer 
the Commercial Driver's License Program, which was established 
to prevent truck drivers from obtaining more than one license 
in order to hide bad driving records. Additionally, FMCSA is in 
the process of implementing a New Entrants Program, a very 
important program mandated by the Motor Carrier Safety 
Improvement Act of 1999 and aimed at educating new, 
inexperienced trucking companies about safety requirements.
    Since FMCSA was established, truck safety has been trending 
in the right direction. That is, indeed, good news. In 2002, 
the number of fatalities and accidents involving large trucks 
declined 3.5 percent, to approximately 4,900 fatalities, while 
highway fatalities overall for all vehicles increased slightly 
compared to 2001.
    I hope the witnesses will comment on whether current 
initiatives will be sufficient to continue to lower the 
fatality rate in crashes involving large trucks in order to 
achieve the 30 percent goal of reducing fatalities over the 
next 5 years or whether or not we need to adjust those 
priorities.
    The Committee will also hear testimony this morning about 
consumer fraud in the household goods moving industry. FMCSA, 
while primarily a safety agency, is also responsible for 
enforcing Federal regulations that apply to interstate movers. 
Complaints have been growing about rogue movers, who hold goods 
hostage and demand payments many times higher than the 
estimates originally provided to the customer. Consumers need 
protection against such fraudulent acts.
    The Motor Carrier Safety Program is scheduled to expire on 
September 30, 2003. It's anticipated that both FMCSA and the 
National Highway Traffic Safety Administration Programs will be 
reauthorized as part of comprehensive legislation to 
reauthorize the Transportation Equity Act for the 21st century, 
lovingly known here on Capitol Hill here as TEA-21. It's the 
intent of the Committee to mark up and report legislation to 
reauthorize the Federal Motor Carrier Safety Administration and 
National Highway Traffic Safety Programs as soon as next week. 
It's our goal to be fully prepared for the floor action during 
Senate debate on TEA-21, which is expected to take place later 
this summer.
    Again, thank you to all of our witnesses. And we begin with 
the Honorable Annette Sandberg, who is the Acting Administrator 
for FMCSA. Welcome, Ms. Sandberg, and we're pleased to take 
your testimony.

             STATEMENT OF HON. ANNETTE M. SANDBERG,

          ACTING ADMINISTRATOR, FEDERAL MOTOR CARRIER

                     SAFETY ADMINISTRATION

    Ms. Sandberg. Thank you, sir. Chairman Sununu, it is my 
pleasure to appear before you today to discuss the Motor 
Carrier Safety reauthorization.
    When Secretary Mineta testified before you in May, he 
highlighted highway safety as the centerpiece of SAFETEA. The 
Federal Motor Carrier Safety Administration is committed to 
working with you to reduce fatalities on our nation's highways. 
With your help, we will make important changes to reduce 
unnecessary loss of life.
    Due in large part to your efforts, fatalities involving 
large trucks have declined 4 years in a row, even as travel 
increased. This is significant progress, but much remains to be 
done.
    I commit to build on this success by bringing greater 
efficiency to the Federal Motor Carrier Safety Administration 
programs. To enhance our existing programs, the Motor Carrier 
Safety Assistance Program, the Commercial Driver's License 
Program, border and performance registration and information 
system management, we envision them separately funded, totaling 
$1.4 billion over the reauthorization.
    TEA-21 restructured the MCSAP program to promote 
performance-based activities, providing flexibility to state 
grantees to invest in areas of the greatest crash reduction. 
Reauthorization would expand motor carriers' relationship with 
our state partners into new areas of compliance, allowing us to 
amend traffic enforcement, improve performance incentive 
funding, and fund new-entrant reviews.
    The New Entrant Program will improve safety by requiring 
new motor carriers to undergo safety audits within their first 
18 months of operation. Numbering almost 50,000 annually, these 
new entrants pose a real risk to commercial motor vehicle 
safety. Forty-six states will work with us to conduct these 
audits, a partnership that will yield significant results.
    In the area of commercial driver's license, accurate and 
complete drivers' history records are a key to enhanced safety. 
The CDL grants under this program will allow states to enhance 
technology and upgrade recordkeeping systems and increase our 
ability to identify problem drivers.
    The Performance Registration Information Management System 
Grants links safety fitness to vehicle registration at the 
State level, and identifies high-risk carriers based on their 
over-the-road performance, and actively monitors their safety 
performance. Under this program, carrier identification is made 
at the time of vehicle registration. Currently, just 25 states 
participate. As more states become fully operational and 
suspend vehicle registration in conjunction with Federal out-
of-service orders, fewer vehicles associated with high-risk 
carriers will operate on the road.
    Border safety remains a priority. And currently it is 
funded by the MCSAP program. We propose to create a separate 
grant program to address current and future needs. Congress 
required that the Department of Transportation Inspector 
General verify, to his satisfaction, all the statutory 
conditions prior to opening the border. The Motor Carrier 
Safety Administration has met these requirements. Currently, 
the border remains closed due to a ruling by the Ninth Circuit 
Court of Appeals. The Administration is considering 
appropriation action. Meanwhile, our agency is ready to ensure 
border operation safety and will be ready whenever the border 
opens.
    Another important aspect of our reauthorization proposal is 
the creation of a standing medical review board to provide the 
agency with expert medical advice on driver qualification 
standards and guidelines, medical examiner education, and 
research, enhancing our ability to adapt and update our 
regulations. Establishment of a medical registry would respond 
to the NTSB, which issued eight safety recommendations in 
September 2001. These recommendations asked that the Federal 
Motor Carrier Safety Administration establish comprehensive 
standards for qualifying medical providers and conducting 
qualification exams.
    As enforcement is the centerpiece of motor carrier safety, 
I would like to emphasize improvements in the household goods 
enforcement. I know that the Chairman and Members of this 
Committee have noticed the increase in consumer complaints 
about household goods carriers. Our proposal establishes more 
visible enforcement through increased investigations and 
expanded outreach. Our efforts seek to increase consumer 
awareness, helping them to make better informed decisions when 
moving across state lines. Additionally, we seek authority for 
state attorneys general to enforce Federal household goods 
regulations against interstate carriers. We believe this 
authority will help reduce these abusive practices.
    This reauthorization represents the first opportunity for 
our new agency to step forward and stand on its own and chart 
our course. With your help, we can continue to improve highway 
safety for motor freight and passenger carriers and all highway 
travelers.
    Thank you for this opportunity to testify on the Federal 
Motor Carrier Safety Administration's proposal to achieve this 
goal, and I would be happy to answer any questions that you may 
have.
    [The prepared statement of Ms. Sandberg follows:]

 Prepared Statement of Hon. Annette M. Sandberg, Acting Administrator, 
              Federal Motor Carrier Safety Administration
    Chairman McCain, Senator Hollings, and Senators of the Committee. 
It is my pleasure to appear before you today as this Committee 
considers reauthorization of the motor carrier safety program.
    When Secretary of Transportation Norman Mineta appeared before this 
Committee in May to present the President's reauthorization proposal, 
he outlined the centerpiece of the Administration's bill--highway 
safety. We have worked closely in the Department, joining NHTSA and 
FHWA, to develop our safety proposals. Our collaboration with the other 
safety agencies is essential because highway safety has many facets and 
no single solution. If we are to stem the tide of this terrible loss of 
life on our Nation's highways we all must play a role, combine our 
knowledge and expertise, and coordinate our program delivery. My 
colleagues and I share the belief that our programs are complementary 
rather than competing. We are committed to working together with this 
Committee to reduce fatalities on our Nation's highways. With your 
help, we will make much needed changes over this decade to reduce this 
senseless loss of life.
    This Committee demonstrated great leadership in the passage and 
enactment of the Transportation Efficiency Act for the 21st Century 
(TEA-21) and the Motor Carrier Safety Improvement Act of 1999 (MCSIA). 
The changes you crafted in these Acts have reduced fatalities in 
crashes involving trucks four years in a row, even as travel increased. 
This is clear and unequivocal progress, and justifies the confidence of 
your Committee in the impact that FMCSA would have on commercial motor 
vehicle safety. FMCSA has taken your direction and acted upon it. 
Despite this progress, much remains to be done. I commit to build on 
this success and to improve commercial motor vehicle safety by bringing 
greater efficiency and effectiveness to FMCSA's programs.
Enhancing Our Safety Grant Programs
    Overall, TEA-21 and MCSIA provided a solid foundation for our 
traditional motor carrier safety grant programs--Motor Carrier Safety 
Assistance Program (MCSAP), Commercial Drivers' License Program (CDL), 
Border, and the Performance Registration Information System Management 
(PRISM). In TEA-21, CDL and PRISM were funded from Information System 
funds, while Border was a set-aside from MCSAP. We envision these four 
programs as separate grant programs totaling $1.4 billion over the six-
year authorization.
Motor Carrier Safety Assistance Program Grants
    TEA-21 eliminated most earmarks from MCSAP and restructured it to 
promote performance-based activities. This change provided the needed 
flexibility to State grantees to allow them to invest in areas of the 
greatest crash reduction based on their own circumstances. Our State 
partners conduct roadside inspections, perform compliance reviews, and 
enforce traffic laws on commercial operations. Reauthorization would 
continue to support this vital partnership and expand our relationship 
with states into new areas of compliance. This will enable us to 
address our future challenges by building on our past success.
    While we recommend that most major features of the MCSAP remain 
unchanged, we believe we can improve MCSAP by amending the traffic 
enforcement component, improving the performance incentive funding, and 
providing funding to support new entrant reviews.
    The current MCSAP includes an incentive for states to improve 
safety performance if they demonstrate improvement in any or all of 
five categories related to reduction of large-truck involved fatal 
accidents and fatal accident rates, timely upload of CMV inspection and 
accident data, and verification of CDL information. The Agency proposes 
to provide 100 percent MCSAP funding to states for performance 
incentives.
    To address unsafe operation of passenger vehicles around large 
trucks, we seek discretion to fund traffic enforcement. This provision 
will give participating jurisdictions greater flexibility to use MCSAP 
funding for traffic enforcement when necessary to reduce large-truck 
related crashes. Education of the general public about sharing the road 
with large trucks is important, as well as targeted education to young 
adults on this subject. All State driving license manuals should 
reflect this information.
    As outlined in MCSIA, a new entrant program to bring motor carriers 
into compliance with safety regulations at the onset of operations can 
improve safety. These new entrants, numbering 40,000-50,000 annually, 
will be targeted to improve commercial motor vehicle safety. Through 
MCSAP, a Federal-State partnership will be established to implement the 
New Entrant Program. Overseeing and supporting the conduct of safety 
audits, establishing baseline data, and implementing a program of 
regular data collection to assess the progress of the New Entrant 
Program will enable FMCSA to fulfill its statutory mandate to improve 
new entrant safety performance. This program will meet the requirements 
set out in Section 350 of the FY 2002 DOT Appropriations Act as a 
precondition to opening the Southern border to Mexican commercial 
vehicles.
    Forty-six states have committed to work with us to conduct new 
entrant safety audits, having agreed to provide approximately 195 of 
the estimated 262 State and Federal personnel needed. The State 
personnel will be either new hires or be reassigned from other law 
enforcement duties. In FY 2003, these individuals were supported 
through MCSAP grant funds. Contracted safety auditors were used to make 
up the balance of staff. Over the reauthorization period these 
individuals will be supported through MCSAP grant funds. Approximately 
67 contracted safety auditors will be used to make up the balance of 
staff. We plan to hire 32 full-time Federal staff to cover program 
oversight, including management, review, and approval of the safety 
audits. We believe this Federal-State partnership, like the traditional 
MCSAP, will yield significant results.
Commercial Drivers License Grants
    The CDL grants provided under TEA-21 were a set-aside from the 
agency's information system funds. MCSIA provided additional funding 
when new driver disqualification standards and record-keeping 
requirements were imposed on states. Improving the accuracy and 
completeness of driver history records is key to enhanced safety. The 
driver's license is the main form of personal identification in the 
United States. Ensuring the bearer of the license is in fact who he or 
she claims to be depends on a diverse set of security technologies. 
Particularly in the transportation of hazardous materials, states need 
current driver licensing technology. Grants under this program will 
allow states to enhance this technology and continue to upgrade their 
record-keeping systems. We propose up to a 10 percent set-aside, which 
can be provided to states at 100 percent funding.
    We propose increased CDL grant funding for: (1) improving State 
control and oversight of State licensing agency and third party testing 
facilities; (2) developing management control practices to detect and 
prevent fraudulent testing and licensing activities; (3) supporting 
State efforts to conduct Social Security Number and Bureau for 
Citizenship and Immigration Services (formerly the Immigration and 
Naturalization Service) number verification for CDLs; and (4) 
maintaining the central depository of Mexican and Canadian driver 
convictions in the U.S., the disqualification of unsafe Mexican and 
Canadian drivers, and the notification of Mexican and Canadian 
authorities of convictions and/or disqualifications.
    Together, these activities will add to the variety of driver's 
license technologies for safety and security, and will enhance FMCSA's 
ability to identify problem drivers.
Performance Registration Information Management System Grants
    The PRISM program was pilot-tested in ISTEA and mandated as a new 
program in TEA-21. Linking safety fitness to vehicle registration at 
the State level, it identifies high risk carriers based on their actual 
over the road performance, provides many opportunities for poor 
performing carriers to improve, actively monitors safety progress, and 
applies progressively harsher sanctions to those carriers who fail to 
improve. Under PRISM, identification of the carrier responsible for the 
safe operation of vehicles is made at the time of vehicle registration. 
Through the use of a ``Warning Letter'', thirty percent of the carriers 
improve their safety performance without Federal intervention. PRISM 
provides for immediate, visual identification to law enforcement that 
the carrier should not be on the road by removing the license plates. 
As more states become fully operational and suspend vehicle 
registration in conjunction with Federal out of service orders, 
vehicles associated with high-risk carriers will be prevented from 
operating on the road. With 25 participating States, this program does 
not require long-term Federal maintenance once the state receives its 
development funds.
Border Enforcement Grants
    Border safety activities continue to remain a high priority for 
FMCSA and the states. Under TEA-21, border operations, both northern 
and southern, are funded as a 5 percent set-aside from MCSAP. We 
propose to create a separate grant program to address current and 
future State needs at the border. In the FY 2002 Appropriations Act, 
Congress established requirements for opening the U.S.-Mexico border to 
long-haul commercial traffic. This event alone, when fully realized, 
necessitates a separate grant program to ensure a stable funding source 
for State inspectors and operations.
    One Congressional requirement for opening the border was that the 
DOT Inspector General must verify the satisfaction of all statutory 
conditions. Inspector General Ken Mead concluded that FMCSA has met 
these requirements, including the hiring and training of enforcement 
personnel and the establishment of inspection facilities and safety 
procedures at the southern border. Due to our actions, Secretary Mineta 
certified that the Department had met the Congressional mandates, 
providing a basis for the President to lift the moratorium on granting 
operating authority to Mexican carriers within the interior of the 
United States in November 2002.
    Currently, the border remains closed because of the 9th Circuit 
Court ruling that DOT had not conducted the appropriate, in-depth 
environmental analysis for certain rules designed to satisfy the 
Congressional requirements. The Court held that the environmental 
assessment that the agency prepared was inadequate, and that FMCSA 
should have prepared an Environmental Impact Statement and Clean Air 
Act Conformity Analysis. The Administration filed an en banc appeal of 
the decision to the 9th Circuit on March 10, which was denied. The 
Administration is considering appropriate next steps in responding to 
the ruling. Meanwhile, FMCSA is ready now, and will be ready whenever 
the border is opened, to ensure the safety of border operations.
Information Systems
    Information systems and analysis support all of the agency's safety 
programs and will underlie our future efforts to improve program 
delivery. Data collected across the country by Federal safety 
investigators and State partners from roadside inspections, crashes, 
compliance reviews, and enforcement activities provide a national 
perspective on carrier performance and assist in determining 
enforcement activities and priorities. This allows us to analyze 
program effectiveness and direct resources in the most efficient and 
productive manner to improve motor carrier safety.
    In TEA-21, this Committee provided essential dedicated funding to 
improve Federal and State systems of carrier, vehicle, and driver 
safety records, and enhance State on-line capabilities for roadside 
enforcement. With this funding we greatly improved the accuracy and 
timeliness of our inspection and crash data and made this information 
available on-line to shippers, carriers, and insurance companies. We 
created new systems to allow motor carriers to register for authority 
on-line and file the necessary insurance documentation. With long-term 
funding and authority we can continue our progress and upgrade our 
ability to identify the high-risk carriers through data improvements.
Regulatory Development
    Regulatory development is another fundamental element of FMCSA's 
compliance and enforcement process. This is an area where greater 
attention and resources are needed to address all mandated regulations 
and ensure program performance will not be compromised. Previously, 
funding for this activity has been obtained by borrowing against other 
program activities, such as research and technology, requiring the 
agency to struggle with inconsistent funding streams.
    The absence of a consistent funding source causes starts and stops 
in a process that requires a consistent level of effort for timely 
completion of regulations and their supporting analyses. For this 
reason, we are proposing to dedicate funds to our regulatory 
development program. We will also use our funds to examine alternative 
regulatory programs. In TEA-21, Congress provided FMCSA with authority 
to establish exemption and pilot programs under strict safety controls. 
We now operate a vision exemption program where applications total more 
than 60 per month. We are approached routinely to consider other 
alternative programs to our safety regulations. However, these are 
resource intensive programs with ample Federal oversight 
responsibilities. We need to approach these activities cautiously.
Medical Review Board and Registry
    The authorization for a standing medical review board will provide 
the agency with much needed expert medical advice on driver 
qualification standards and guidelines, medical examiner education, and 
medical research. The members would come from leading medical/academic 
institutions and serve 3 to 5-year terms. In the past, we have 
assembled expert medical specialists on an ad hoc basis to review the 
standards and guidelines for qualifying truck and bus drivers. A 
standing review board will greatly enhance the agency's ability to 
adopt regulations that reflect current medical advances. Many of the 
medical standards currently in effect were originally adopted in the 
1970s, or earlier.
    With over six million commercial drivers under our jurisdiction, we 
must ensure that only drivers physically qualified to operate a 
commercial vehicle are doing so. There are tragic examples where this 
has not been the case. A medical examiner lacking familiarity with our 
medical criteria certified a Louisiana bus driver with heart and kidney 
disease who later crashed, killing 22 passengers. A medical examiner 
registry, as called for in our proposal, will help FMCSA to provide 
more comprehensive information on medical practitioners to drivers and 
carriers. It will help disseminate information to practitioners 
regarding medical policies and requirements relevant to the physical 
qualifications of commercial drivers.
    A medical registry is necessary to upgrade the quality of CDL 
driver medical qualification exams. With the registry, we will better 
monitor the quality and practices of medical examiners. A certification 
process will ensure that medical examiners are qualified to perform 
driver physical exams. Establishment of a medical registry of qualified 
medical examiners would respond to the National Transportation Safety 
Board, which issued eight safety recommendations in September 2001 
recommending that FMCSA establish more comprehensive standards for 
qualifying medical providers and conducting medical qualification 
exams.
Strengthening Enforcement
    Enforcement is the centerpiece of our motor carrier safety program. 
This Committee made much needed improvements to our enforcement program 
under TEA-21. I believe those changes contributed substantially to the 
reduction in fatalities that we see today. We propose to expand the 
toolbox of enforcement techniques, close loopholes that permit unsafe 
practices, and improve our penalty structure. While there are many such 
features included in our legislative proposal, I would like to 
emphasize only a few today, addressing various penalties for motor 
carrier noncompliance with out-of-service violations and safety record-
keeping requirements, improvements to household goods enforcement, and 
new authority over motor carrier management and operations.
Intrastate Violations
    The agency's enforcement reach must extend to the intrastate 
operations of interstate carriers in order to enhance safety and ensure 
uniformity in enforcement and oversight responsibilities. At present, 
our inability to reach intrastate operations represents an artificial 
line from a safety point-of-view. When our investigators examine a 
carrier's operations they must discard intrastate safety violations 
they discover. If an interstate carrier is declared unfit to operate, 
it may continue to operate solely within a state.
    Many interstate motor carriers have substantial intrastate 
operations. For purposes of safety, it is counterproductive to create 
two classes of accidents and safety inspection data--one subject to 
Federal jurisdiction, the other not--when, typically, both involve the 
same vehicles, drivers, dispatchers, mechanics, and safety management 
controls and may have the same safety result. In examining a motor 
carrier's accident and inspection data, it is often difficult, and 
sometimes impossible, to determine whether the vehicle involved was 
making an interstate or intrastate trip. We seek to amend this 
enforcement boundary so that we may take steps to prevent unsafe 
carriers from operating. Under this proposal, a Federal safety 
determination of an interstate motor carrier suspends both interstate 
and intrastate operations. Similarly, a state safety determination that 
an intrastate carrier is unfit halts both its intrastate and any 
interstate operations.
    Congress has recognized this limitation in other motor carrier 
safety programs and has set precedents in eliminating inter/intrastate 
distinctions in the areas of hazardous materials, drug and alcohol 
testing, and CDL regulations. In these cases, Federal regulations apply 
to the full scope of operations. An unfit carrier should not be allowed 
to operate anywhere.
Oversight of Company Officials
    Similarly, we have limited authority over company officials who 
exhibit continual disregard of safety management practices. We find a 
few motor carrier managers that order, encourage, and tolerate 
widespread regulatory violations. When caught, they declare bankruptcy, 
rename the motor carrier and reshuffle the managers' titles, sell its 
assets to a pre-existing shell corporation owned and managed by the 
same people, or otherwise attempt to evade the payment of civil 
penalties or obscure the identity of the motor carrier and, thus, its 
safety record. These individuals perpetuate a casual indifference to 
public safety. Although the total number of such officials is small, 
their actions create a risk disproportionate to their numbers.
    To address this practice we seek authority to suspend, amend, or 
revoke the registration of a for-hire motor carrier if any of its 
officers has engaged in a pattern or practice of avoiding compliance, 
or concealing non-compliance, with Federal motor carrier safety 
standards. This provision is intended to address those few motor 
carrier officers who have shown unusual and repeated disregard for 
safety compliance and would be used only in the most serious cases.
Household Goods Enforcement
    I know that the Chairman and Senators of this Committee have 
noticed an increase in the number of constituent complaints regarding 
unscrupulous household goods carriers. The letters we receive, as well 
as the calls coming into the FMCSA hotline, have been increasing. FMCSA 
receives thousands of consumer complaints annually. Currently, the 
Agency has three full-time commercial investigators devoted to the 
Household Goods Enforcement and Compliance program and has budgeted for 
more for FY 2004.
    While the household goods industry as a whole performs over a 
million successful moves annually, a small group of unscrupulous people 
scattered over a handful of states has used this industry to bilk 
unsuspecting consumers of their hard earned money. The complaints from 
the American moving public have reached significant proportions.
    We need to establish a more visible enforcement program through 
increased investigations, and a more robust outreach effort to reduce 
the number of consumer complaints filed against household goods 
carriers and brokers. Our efforts will also be aimed at increasing 
consumer awareness to allow shippers to make better-informed decisions 
before they move across State lines.
    Household goods carriers operating in interstate commerce are 
required to have or participate in an arbitration program as a 
condition of their registration with FMCSA. The arbitration programs 
must comply with the requirements of 49 U.S.C. 14708, and the carrier 
must submit to binding arbitration upon shipper request for cargo 
damage or loss claims of $5,000 or less. Seventy-five percent of the 
complaints we receive pertain to loss and damage claims.
    FMCSA intends to conduct an extensive study of existing Household 
Goods Dispute Settlement Programs and alternative arbitration programs 
in the household goods moving industry. We need this critical 
information to determine the extent of the problem, to determine 
effective strategies and countermeasures, and to evaluate the 
effectiveness of these programs in resolving loss and damage disputes 
and claims between shippers and carriers.
    We cannot continue to address these consumer issues on our own--
safety is our primary business. Even with additional resources, 
household good disputes will likely increase. As such, we seek 
authority for state attorneys general to enforce Federal household 
goods regulations against interstate household goods carriers. This 
approach has been successful in increasing state enforcement of Federal 
telemarketing regulations. We believe it will help to reduce abusive 
practices among movers of household goods.
Out-of-Service Orders and False Records
    The out-of-service order is one of the tools we have to prevent a 
motor carrier from operating when it is unfit. Once issued, the order 
is designed to stop a carrier from continuing to operate until it comes 
into compliance. In some instances, carriers violate these orders and 
consider the safety fines as a ``cost of doing business.'' This 
mentality shows a flagrant disregard for the safety of the highway 
users. Currently, carriers who knowingly require or authorize drivers 
to violate the order are subject to a maximum civil penalty of only 
$16,000. To be effective, the penalty should be harsh to ensure 
compliance with the order. If a carrier knowingly and willfully 
requires a driver to violate an order, we propose a fine of $100,000, 
up to one-year imprisonment, or both. If a driver violates an order, 
there should be a standard of progressive fines and disqualification 
standards.
    False records or companies that hamper the ability of our safety 
investigators to access safety records can limit the effectiveness of 
our enforcement program. A few carriers will deliberately impede our 
investigators by refusing access to records, buildings, or equipment or 
falsifying records to obscure safety violations. To deter those who 
refuse access to their records, we propose a $500 per day fine, up to a 
maximum of $5,000 for the same violation. Increasing the current fines 
for false records to $1,000 per day, up to a maximum of $10,000 per 
violation, would stem this practice.
Fundamental Building Blocks for Program Delivery
    When this Committee established the FMCSA under the Motor Carrier 
Safety Improvement Act of 1999, you wanted a results-oriented and 
performance-driven safety organization. FMCSA shares that vision and 
wants to build an organization in this reauthorization that maximizes 
program safety benefits while utilizing an efficient delivery system.
Research and Technology
    FMCSA's ability to integrate research and technology into our 
regulatory and enforcement programs has contributed to sound policy-
making. MCSIA did not establish separate authority for a FMCSA research 
and technology program. We believe this authority is fundamental to 
ensuring that our future safety decisions are based on sound research. 
Research and technology supports life-saving and injury-reducing 
projects that create qualified and alert drivers, smart commercial 
vehicles, smart roadside facilities, secure hazardous material 
shipments, and expanded partnerships with states and universities.
    The primary goal of FMCSA research and technology activities is to 
improve commercial vehicle safety and security by promoting studies on 
issues most frequently related to the cause of crashes and loss of 
life. Based on regulatory and enforcement needs and on input from 
stakeholders, industry, government, and academia, we have investigated, 
among others, driver fatigue and health issues, vehicle stability, 
carrier and shipper safety management, and a variety of vehicle-based 
safety technologies. We have actively participated in research 
activities sponsored by the Transportation Research Board and have 
cooperated with numerous transportation research centers and 
laboratories in the U.S. and abroad. FMCSA's role in the transportation 
research community will increase as we expand our partnerships beyond 
traditional roles and participate in and sponsor top-level national 
conferences and workshops. Finding effective solutions and harnessing 
emerging technologies does not happen without a solid research 
foundation.
    Section 1704 of the Department's Reauthorization proposal would 
provide Federal ITS deployment funds each Fiscal Year to support of the 
Commercial Vehicle Information Systems and Networks (CVISN) Deployment 
program. The Department is requesting $25 million in its FY 2004 budget 
request for CVISN deployment. Eligible states would receive grants up 
to $2.5 million each for deployment of CVISN core capabilities in the 
areas of safety information exchange, interstate credentials 
administration, and roadside electronic screening. States that have 
already implemented core capabilities could be eligible to receive up 
to $1 million of Federal ITS funds for deploying enhanced CVISN 
capabilities that improve safety and the productivity of commercial 
vehicle operations, and enhance transportation security.
Conclusion
    TEA-21 and MCSIA provided a solid foundation for the motor carrier 
safety program. This reauthorization represents the first opportunity 
for our new agency to step forward, stand on its own, and chart our 
course for the future. Critical program characteristics--flexibility, a 
strong Federal-State partnership, and essential enforcement tools for 
our Federal programs--should be reinforced.
    I look forward to working with you on this critical endeavor to 
improve highway safety for the motor freight and passenger carrier 
industries and all highway travelers. Thank you for this opportunity to 
testify on FMCSA's proposal to achieve this goal. I would be glad to 
answer any questions you may have.

    Senator Sununu. Thank you very much.
    Let me begin my questions by focusing a little bit on 
safety issues. A 30 percent goal is pretty significant, 
reducing the fatalities by 30 percent over the next 5 years. 
How do you intend to achieve that? What are the principal areas 
of focus that will allow you to meet that tough goal?
    Ms. Sandberg. There are a number of strategies that we 
have. First, I'd like to speak in the global perspective, and 
then narrow it down.
    Right now, Motor Carriers works in conjunction with the 
National Highway Traffic Safety Administration and Federal 
Highways. We all share the same safety goal inside the 
Department of Transportation, and that's to reduce the overall 
fatalities to 1.0 per 100 million vehicle miles traveled, by 
the year 2008. And so we have a number of strategies that cut 
across all of our modes to achieve that goal.
    And one that clearly ties with Motor Carriers and the 
National Highway Safety Administration is to increase seatbelt 
usage. Federal Highways is also working with us on this. We 
know that if we can increase seatbelt usage to 90 percent in 
this country, that by the year 2008 we will have saved 4,000 
lives, and so that's a major goal.
    In addition, it's a specific goal for us, in Motor 
Carriers, because we know that motor carrier--that truck 
drivers and bus drivers, their use is lower then the average 
population. Average seatbelt usage across the country right now 
is about 75 percent. In the motor carrier population, it's 
about 48 percent, and so we have some significant work to do 
with our state partners to increase seatbelt usage of even 
truck drivers.
    Senator Sununu. How do you determine what the belt usage is 
among truck drivers?
    Ms. Sandberg. We do a survey similar to the survey that the 
National Highway Traffic Safety Administration does for all 
belt users. We use the same methodology and the same surveying 
mechanisms, where they actually stand on overpasses and at 
street corners to see if the belts are being used.
    Senator Sununu. You'd think that people that drove for a 
living would be more inclined to take advantage of the safety 
equipment.
    Ms. Sandberg. You would think so, and I think that we need 
to work on some of the message. But, then again, I think that 
most people would be inclined to use the safety belt if they 
knew the impacts, particularly when they're involved in a 
crash. So we are working on some educational components, as 
well as enforcement components, to try to reinforce that 
message.
    Senator Sununu. What share of the accidents that are taking 
place involve--accidents that involve large trucks--are related 
to equipment problems, what share are related to driver 
behavior, and what share would you attribute to other factors?
    Ms. Sandberg. I do not have that specific breakdown, but I 
can get that for you. I do know that a majority of the crashes, 
at least if I'm remembering the data correctly, are due to 
driver--or behavior problems.
    Senator Sununu. Do you feel confident that the allocation 
of funds for motor carrier safety are lining up reasonably with 
the different causes of accidents that I just described?
    Ms. Sandberg. Yes, I do. As you see from specifically the 
four grant programs that I spoke about in my opening statement, 
those four grant programs really provide a substantial amount 
of money to the states, specifically to do inspections, as well 
as look at driver log books and the other types of things that 
we need to ensure that drivers are doing.
    One other specific component, though, that we think is a 
new safety feature here is the New Entrant Program, and that 
really gives us an opportunity to focus on what we know are the 
greatest-risk carriers. The data show that, currently, carriers 
that enter interstate commerce are the most--less likely to be 
safe. And so this New Entrant Program allows us to, one, when 
they register to be an interstate carrier, we give them 
conditional operating authority. And while they have 
conditional operating authority, they're actually flagged in 
our system to be inspected more often so that state roadside 
inspectors will know that they are a new entrant. We also, in 
the audit process, will audit them within the first 18 months 
to make sure that they are meeting all the conditions of 
operating authority. Once they successfully pass that audit, 
then they will be given full operating authority. So this gives 
us an opportunity to look at them early and often to make sure 
that they're operating safely.
    Senator Sununu. The budget request for 2004 raises the cost 
of the federally managed part of the program to just over 200 
million, from 117. What's the key justification for this kind 
of an increase?
    Ms. Sandberg. That's our administrative expenses. When we 
were initially formed under MCSIA in 1999, our administration 
was funded out of a portion of the take-down from Federal 
Highway's grants. And since we've been formed, we've had to 
come back in for supplemental budget increases. And, in 
reality, the Federal Highway Administration has actually been 
floating us along with our IT infrastructure, our human 
resources, our procurement, our payroll, those kinds of 
functions. Federal Highways has advised me that at the end of 
this Fiscal Year, they're going to cutoff that support, and so 
we felt that it was time, one, for us to stand our own and make 
sure that our administration was funded cleanly, without 
Federal Highways supplementing that out of other monies that 
should have been allocated to other things.
    Senator Sununu. Back to the New Entrants Program just for a 
moment, you highlighted in your testimony that this is one of 
the key initiatives consuming your time, your focus right now. 
What are your principal concerns with respect to that program 
and your ability to ensure that it's successful?
    Ms. Sandberg. The principal concerns with the New Entrant 
Program, having 40,000 to 50,000 new entrants a year, is making 
sure that we actually get to all 40,000 to 50,000 of those new 
entrants. We have 46 states that have indicated that they want 
to partner with us on that program; however, we know that some 
of those states cannot fully partner, whether it's through 
statutory requirements that they're not allowed to actually 
participate in the program or whether they can't actually hire 
all the people. So our biggest challenge is going to be to make 
sure that we get as many states onboard as we can, get those 
state people hired, give them the funding to make sure that 
they can start doing new entrants in the states that they're 
responsible for, and then we need to supplement that with 
additional contractors and other employees to help make sure 
that we get to all 40,000 or 50,000 new entrants within that 
first 18 months.
    Senator Sununu. Currently, there are over 20 open 
rulemaking proceedings related to directives that were required 
by the Motor Carrier Safety Improvement Act of 1999, TEA-21, 
and other legislation that we've passed. Could you describe a 
little bit why these rulemakings are still open? I'm sure that 
there are different reasons for different rulemakings, but, in 
general, what is keeping you from completing the work and 
what's your plan for concluding action on these Congressional 
mandates?
    Ms. Sandberg. Yes, thank you. Actually, we had a number of 
significant rulemakings that were outstanding, not just from 
MCSIA in 1999, but from some earlier Congressional mandates, 
some of those dating back 10 years from when the agency was 
inside the Federal Highway Administration. What we have done 
is, we have gone through and made a prioritized listing and 
looked at which of those were mandated under MCSIA, and we're 
working aggressively on those, as well as which ones have the 
biggest safety impact. And so those are getting the highest 
priority right now so that we get those rulemakings done.
    We've established a new procedure inside Motor Carriers. We 
have weekly regulatory meetings so that staff can keep track--
actually, what they do is, they update myself, the deputy 
administrator, and the acting deputy administrator on what 
progress we're making toward getting that backlog finished. And 
we've set a benchmark for each year. There are timelines that 
they have to report on, and if any of those timelines slip, 
then they are required to come in and report why they have 
slipped, how we're going to make up the time, so that we make 
sure that we keep on track. And our goal is to try to get as 
many of the backlog done within the next 2 years as we possibly 
can.
    Senator Sununu. Thank you.
    We're joined by Senator Breaux, and at this time I'd yield 
to the Senator for any comments or questions he cares to ask.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman. I 
apologize for being late.
    I have a statement, which I want to present, and it's not 
directed particularly at you, Ms. Sandberg, because some of the 
problems we have go back through several different 
Administrations.
    I remember that last month Secretary Mineta came before the 
Committee to talk about the Administration's proposed SAFETEA, 
which would authorize all kinds of new transportation 
initiatives, to the tune of about $247 billion, with about only 
1 percent of that money focused on motor carrier safety, of the 
$247 billion.
    Before we move toward authorizing a whole bunch of new bold 
initiatives in this area, I question what has happened to all 
the things that we have initiated in the past that have never 
been finished. And before we start going into new areas and new 
requirements, I would like to see the old areas and the old 
requirements completed.
    Let me just review some of the things that have been 
unfinished and, in some cases, even unstarted.
    With regard to ISTEA, Congress directed the Department to 
issues rules addressing railroad highway grade crossings in 
February 1995. In July 1988, the Department issued a proposed 
rule prohibiting commercial motor vehicle drivers from driving 
onto railroad grade crossings unless there was sufficient space 
to drive completely through the crossing without stopping on 
the tracks. Hardly an innovative idea. But that's the last 
we've heard of that. Almost 5 years after that proposed rule, 
and more than 8 years after the Congress first set the 
Congressional deadline, we are still waiting on a rule that 
arguably could save thousands of lives.
    And in TEA-21, the Secretary was to have initiated a 
rulemaking by January 1999 to determine whether Federal safety 
standards should be applied to interstate school bus 
transportation operations. The agency issued an advance notice 
of proposed rulemaking in October 2001 and then did nothing 
else. I mean, what happened to it?
    The Secretary was supposed to carry out a pilot program 
with one or more states to improve the timely exchange of 
pertinent driver performance and safety records among motor 
carriers. The purpose, obviously, was to determine the extent 
to which driver records, including their fines and penalties 
and failures to appear for court, should be included as part of 
any driver information system. The Federal Motor Carrier Safety 
Administration has yet to propose a pilot program to carry out 
this Congressional directive from 1998. What's happened with 
that?
    The Motor Carrier Safety Improvement Act directed the 
agency to address the safety of commercial van operations that 
transported nine to fifteen passengers. Since that 
congressional directive, the NTSB has stressed that special 
dangers are associated with the operation of these vans, and 
the final rule was supposed to be issued by December 9, 2000, 
but the only action by DOT has been the issuance of the 
proposed rule back in 2001. Where is the regulation?
    On medical certifications, as you may remember, back on 
Mother's Day of 1999, we had this tragic accident in Louisiana 
where 22 of my constituents lost their lives as a result of a 
horrible bus accident involving a motorcoach that they were 
traveling in. The bus driver was found to be fatigued, had 
several serious medical conditions, and was under the influence 
of both sedatives and cocaine at the time of the accident. The 
NTSB recommended that the Department of Transportation take 
steps to strengthen the medical certification process.
    Three years after that, 2002, last year, four Louisiana 
children lost their lives in yet another bus accident in 
Garland, Texas. The bus driver in that accident was also found 
to be under the influence of sedatives and cocaine, exactly the 
situation we had in Louisiana.
    And last July, the Department did issue a final rule, 
disqualifying commercial motor vehicle drivers who have lost 
their driver's licenses after being convicted of a serious 
offense while driving a passenger vessel. The final rule also 
disqualified anyone who has been convicted of committing a 
drug- or alcohol-related offense. Now, this was a good step. I 
congratulate the Department for doing it, but I don't think 
it's nearly enough.
    Almost a year has passed since the accident in Garland, 
Texas, and DOT has yet to issue any rules regarding the medical 
fitness of commercial bus drivers. The medical professionals 
are not required to notify anyone if they see a medical problem 
that could affect the ability of a commercial vehicle driver to 
drive safely. There are no health thresholds or requirements 
tied to a person's ability to get a commercial driver's 
license, or even to renew one.
    Last September, Secretary Mineta wrote me that they had 
drafted a notice of proposed rulemaking proposing a process for 
combining the medical certification process with the issuance 
and renewal of the commercial driver's license and that this 
proposed rule would be published by March of this year. Last 
month, you testified, before our Committee, that it would now 
be December of this year before we saw this rule. Now, here we 
are in mid-June, and we've still not seen a proposed regulation 
in this area, much less the final regulation.
    And last month the Administration presented its proposed 
reauthorization bill that would create a medical review board. 
Good idea. I question how long it's going to take to get a 
medical review board up and running. And why do we have a 
temporary board instead of having permanent staff people to 
oversee the medical issues related to commercial driver's 
license, rather than simply a part-time board?
    And, finally, let me mention something that's ancient 
history, the commercial vehicle driver biometric identifier. 
And this thing was directed by the Secretary under the Truck 
and Bus Safety Regulation Act in 1988 to establish minimum 
uniform standards for a biometric identification system to 
ensure the identify of commercial motor vehicle operators. We 
issued a proposed regulation in 1991, Congress amended the 
mandate to require that commercial drivers had some form of 
this unique identifier, not necessarily as a biometric 
identifier, by January 2001. Yet DOT has not issued anything 
since 1991.
    So, I took a long time, Mr. Chairman, pointing this out, 
but here we are looking at new regulations. We haven't finished 
the old regulations. Time after time, when Congress comes in 
and says--you happen to be there, and you're catching the 
target of this, but, anybody else in the past 10 years could be 
having the same point made to them--is that we write a bill, 
issue instructions, call for rules and regulations, and it's 
just not followed through. I don't know why we'd want to do a 
whole other round of new regulations when we haven't finished 
the old ones. So, that's just a statement of everything we've 
been able to find that has not yet been done that's already 
been required. Your comments?
    Ms. Sandberg. Thank you, Senator.
    Actually, you point out exactly the problem I faced when I 
came in to the Administration in December of last year. And one 
of the things that the Secretary asked me to focus on was to 
look at the backlog in regulations and have a proposal on how 
we're going to reduce that backlog.
    What we've proposed in SAFETEA is not to add new programs, 
but it's actually to shore up the infrastructure that we have 
in place so that we can, exactly, deal with this problem. If 
you look at one of the proposals we have, which is the increase 
in funds for our regulatory program, we're actually asking for 
a $9 million increase. Part of that is, is that we have not had 
the funding to do the necessary staff research and regulatory 
evaluation to get these regulations done.
    And so we are working through that backlog right now. 
What's happened is, the agency will start taking a step 
forward, and then we are given a whole host of new regulations. 
For example, we were given the new regulations that we needed 
to formulate for NAFTA so that we could open the southern 
border. And so we spent a tremendous amount of time last year 
working on those regulations.
    We now have staff shifted. They're focusing on the backlog 
of regulations. And all the ones that you mentioned are on my 
hotlist. I look at those each week, particularly the ones that 
we know are going to be the biggest safety benefit.
    The New Entrant Program that I spoke of earlier in my 
opening statement, that was a mandate by Congress when the 
agency was formed, in 1999, under MCSIA, and so we had to get 
that regulation in place. The funding that we're asking for and 
the authority that we're asking for there is actually what we 
need in order to make that program work so that we can meet the 
Congressional mandate.
    As far as the other regulations, we have a number of 
programs underway. And, as I said at the hearing in May, we 
will have the medical certification tied to the commercial 
driver's license. That notice of proposed rulemaking will be 
out this year. The 15-passenger van or the camionette rule, 
that will be out very shortly.
    We are working aggressively on all of these to deal with 
the backlog. And I know that some of them are 10 and 12 years 
old. And, to me, that's unacceptable, and I've told staff that, 
and we're going to continue to work through that backlog as 
quickly as we can. Some of the funding that we've asked for is 
to do just that.
    Senator Breaux. I thank you for that. I don't want to 
belabor the point. I think that some of the regulations and 
proposals that we required are probably now ancient history and 
outdated. Things that go back 10 years, maybe it was something 
to address the situation 10 years ago; and it may not be 
applicable to today. We need to take a look at some of these 
requirements that we've never been able to do.
    Everybody has always come up here, and say the same thing. 
Your challenge is going to be to actually get it done. No one 
has ever come up and said, ``We're not going to do the 
regulation.'' Everybody who comes before Congress says, ``We're 
going to get right on it. We're going to get it done, I promise 
you.'' And then nothing ever happens.
    These are critical areas, particularly the medical 
certification for driver's licenses. These things have to be 
done. I wish you the best of luck, and get in there and kick 
you know what to get it done.
    Ms. Sandberg. I'll be happy to provide periodic reports on 
our progress, if you would like that, Senator.
    Senator Breaux. I think it would be very helpful, because, 
I mean, we just can't let this thing hang forever, and I----
    Ms. Sandberg. I agree.
    Senator Breaux. Good luck, and our best toward getting this 
thing done.
    Thank you, Mr. Chairman.
    Secretary Sununu. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. I'll take just a 
couple of minutes, if I might, to make a quick statement.
    And I thank you for holding this important hearing on motor 
carrier safety. And I welcome Ms. Sandberg again and wish her 
luck, if I may, in getting on with the job. And we don't want 
to make it more difficult, but I do have a couple of questions.
    And it's obvious that trucks and buses perform critical 
roles in our national transportation system, and we need them. 
But these vehicles share the road with smaller passenger 
vehicles, and those carry our families. And SUVs look miniature 
next to the large trucks. And trucks traveling at high speeds 
on our highways right next to the smaller vehicles can lead to 
disaster. And as more and more trucks and cars clog our 
highways, motor carrier safety becomes an ever increasingly 
important issue.
    And while motor carrier safety is not on the mind of every 
American, anyone who has ever shared the road with a large 
tractor-trailer truck senses the safety risks. And the State of 
New Jersey bears more than its share of the Nation's truck 
traffic. We have over 11,000 heavy trucks registered in our 
state, but countless more travel through New Jersey from north 
to south delivering goods between points and commercial 
destinations.
    We are concerned about these behemoths, some of which are 
53-feet long and weigh as much as 80,000 pounds, and we will 
resist the pressure from some states to increase current weight 
and length limits so that even bigger trucks can barrel through 
our state. Bigger trucks present bigger safety risks, and we 
have to seriously ask ourselves if we're willing to tolerate 
those risks.
    The U.S. Department of Transportation reported that multi-
trailer trucks are likely to be involved in more fatal crashes, 
11 percent more likely, than today's single-trailer trucks.
    In 1991, I authored the freeze on longer combination 
vehicles, including triple-trailer trucks. And these things are 
as long as a 737 jetliner. And yet, in addition to efforts to 
increase size and weight limits, some states skirt restrictions 
by creating loopholes for some carriers. For instance, in Iowa, 
transportation officials created an exception for heavier 
trucks to carry such nondivisible loads as construction 
equipment and livestock. If there's a sheep that can't fit on a 
53-foot trailer, maybe we'll hear about it on Thursday at the 
hearing that Senator Brownback is chairing on cloning.
    [Laughter.]
    Senator Brownback. We'll try to cover that for you, Frank.
    Senator Lautenberg. Sam, if we are looking at sheep longer 
than 53 feet, then we've got a problem. Please don't permit it.
    [Laughter.]
    Senator Lautenberg. We're getting to the point where these 
trucks ought to be on steel wheels and not on rubber tires. Not 
only are bigger trucks more dangerous; their loads cause 
considerably more damage to our highways and bridges.
    So last month, I introduced S. 1140, the Safe Highways and 
Infrastructure Protection Act, and that bill would freeze the 
current state and Federal limitations on truck size and weight, 
putting an end to the pressure to keep raising the limits 
unless Congress, after full debate, decides otherwise. My bill 
also closes decade-old loopholes that the trucking industry is 
exploiting to carry heavier loads and skirt weight limits. And 
I hope that Committee Members will join Senators DeWine and 
Feinstein and I as we push to get this bill passed.
    And I look forward to having a moment for a question of Ms. 
Sandberg. Is your agency considering any changes to the freeze 
on longer combination vehicles?
    Ms. Sandberg. Senator Lautenberg, as I pointed out at my 
confirmation hearing on the 8th, the Department has not taken a 
position on whether to reexamine the 1991 freeze on LCVs. But 
what the Department--the question that we are looking at, which 
is a much broader question, has to do with the increase in 
freight that we're going to see over the next 10 years. We know 
that the projected freight increase is going to be by 43 
percent over the next 10 years, which means that every mode 
inside Department of Transportation has to become part of the 
solution.
    And so what we are examining is how we work with highways--
the National Highway Traffic Safety Administration, Federal 
Railroads, and others--to look at how we're going to 
accommodate that increase in capacity. But we have not taken a 
position on the freeze.
    Senator Lautenberg. OK. But if what you say is where you're 
going, it's all right with me, as long as all modes are 
included. That's the critical issue. Because to overburden our 
highways, really, with that much more traffic without really 
paying attention to it--and there's, you know, a huge 
resistance to pouring more concrete.
    But we go on to say, according to NHTSA, almost 30 percent 
of all large-truck drivers involved in fatal crashes in 2001, 
something that Senator Breaux was talking about, had at least 
one prior speeding conviction compared to 20 percent of the 
passenger-car drivers involved in fatal crashes. What are we 
doing to address this problem--and you mentioned it briefly to 
Senator Breaux--of recurring high-risk behavior by some truck 
drivers?
    Ms. Sandberg. Yes, as Senator Breaux pointed out earlier, 
we recently passed a regulation, or finalized a regulation, 
last fall to look at a truck driver's entire driving record to 
determine whether they should hold a commercial driver's 
license. And what that regulation basically says is, if the 
driver has had a DUI or a drug-involved incident, whether it's 
in a car or a truck, and their license is suspended, then their 
commercial driver's license will be suspended. If they have two 
in a lifetime, then they lose their lifetime privilege to have 
a commercial driver's license.
    To look at lesser included offenses, what we've done is, if 
a state suspends or revokes a driver's license of an 
individual--for speeding, for improper lane changes, those 
kinds of traffic violations--then they would also lose their 
commercial driver's privilege, whether they were driving in a 
car or driving in a truck.
    So this gives us an opportunity to look at the entire 
safety picture of these drivers. Before, we were only looking 
at the fines and the penalties while they were in a commercial 
vehicle.
    Senator Lautenberg. And all the states contribute to a 
database that's accessible for----
    Ms. Sandberg. Yes.
    Senator Lautenberg.--for review?
    Ms. Sandberg. All states know that they need to get their 
data bases up so that we can put these violations into the 
commercial driver's license information system----
    Senator Lautenberg. So that it is--is that a condition that 
has not yet been met?
    Ms. Sandberg. They have 3 years to come into compliance 
once the regulation is issued.
    Senator Lautenberg. When will the regulation----
    Ms. Sandberg. The regulation was issued last fall.
    Senator Lautenberg. Last fall, so----
    Ms. Sandberg. And most states are going to be able to get 
their systems up. That's also the increase that we asked for in 
our commercial driver's license. We asked for an increase of 
$11 million, for a total of $22 million. And part of that was 
to help states get funding early on to update their systems so 
that they can come into compliance with this particular----
    Senator Lautenberg.--what happens, Ms. Sandberg, at the end 
of the 3-year period, if the state hasn't complied?
    Ms. Sandberg. Then they are in jeopardy of losing some of 
their MCSAP money, the Motor Carrier Safety Assistance Program 
funding.
    Senator Lautenberg. Is that an important grant that the 
states look for?
    Ms. Sandberg. Yes, it is.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Senator Sununu. Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Senator Sununu, Mr. Chairman. 
Appreciate you holding this hearing.
    Ms. Sandberg, welcome. I want to focus you on the hours-of-
service regulation, something I know you're intimately familiar 
with and I'm sure you receive thousands of comments about. In 
particular, I want to look in on the agricultural commodities, 
farm supplies, groundwater well-drilling rigs, construction 
material, transportation, drivers of utility-service vehicles, 
snow and ice removal, so the areas that are in a limited radius 
of where they're traveling to, but are often involved in a lot 
of hours. And I have a written statement I'll submit to the 
record on the specific points.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    I would like to thank our witnesses for being here today as well as 
Senator Sununu for holding this hearing. As the Congress continues to 
look at the Reauthorization of TEA-21, or SAFETEA, as the 
Administration is calling it, I am pleased that we have the opportunity 
today to talk about issues that are very important to many people in my 
state.
    The Administration has made a commitment to safety in the highway 
bill, as we see through the title alone: SAFETEA. I commend the 
President and Secretary Mineta for their efforts in highway safety. And 
I too am committed to promoting safety on our Nation's highways. I am 
also committed to ensuring that any efforts we take in safety reflect a 
common sense approach to addressing the problem of safety.
    Specifically, I look forward to hearing Ms. Sandberg's comments on 
the hours-of-service rules that govern commercial operators. While I am 
encouraged by the willingness of the FMCSA to listen to and respond to 
the thousands of comments it received on the proposed rule as well as 
their decision to throw out many of the proposals that would have 
imposed significant burdens on the motor carrier industry, I am 
concerned about recent developments in this area as the rule becomes 
finalized. This new rule, which becomes effective January 4, 2004, 
marks the first significant change to the hours-of-service rules since 
1939. I certainly hope that changes made to this rule reflect the 
intent of the Congress and actually address safety, rather than result 
in unnecessary burdens on industries dependent on motor carriers.
    For example, the ground water industry has been directly effected 
by the hours-of-service requirement. In the 1995 National Highway 
System Designation Bill the Congress granted the ground water industry 
limited relief under the hours-of-service rules. The ground water 
industry has operated safely and efficiently within the maximum driving 
and on-duty time provisions that were established in this legislation.
    However, the Department of Transportation has repeatedly 
demonstrated the desire to ignore congressional intent and re-regulate 
the ground water industry in a manner that would essentially ``hollow 
out'' the industry's limited relief. Most recently, DOT has expressed 
the desire to regulate the industry's off duty time.
    It is my hope that as Congress pursues highway reauthorization, we 
maintain the relief the Congress granted the ground water industry in 
1995, and prevent DOT from hollowing out this relief through arbitrary 
regulation that ignores congressional intent. Furthermore, if DOT or 
the Federal Motor Carrier Safety Administration do intend to change the 
rules affecting the ground water industry, they do so only after a 
study has been conducted specifically relating to the ground water 
industry. To my knowledge, the FMCSA has never studied fatigue as it 
specifically relates to the ground water industry and has no intention 
to do so.
    On a related note, the FMSCA published a final rule on April 28th, 
2003 regarding hour-of-service which significantly changes the current 
operation of the hours-of-service. I am most concerned about the impact 
these changes will have on small businesses. Specifically, the final 
rule adopted by the FMCSA increases the required off-duty time for 
drivers of commercial motor vehicles from eight to 10 consecutive 
hours; increases driving time from 10 to 11 hours; reduces a driver's 
total on-duty time from 15 hours to 14 hours; and most significant to 
many small businesses across the country, the final rule allows 
``short-haul'' drivers to be on-duty 16 hours once in every seven-day 
period; and allows drivers to restart the cumulative 60-or-70 hour 
clock after taking 34 hours off duty. Under these new guidelines off-
duty time taken by the driver during a 14-hour period, such as meal 
breaks, showers, or rest breaks, will not extend the driver's work day. 
While these breaks may seem insignificant, I can assure you that a few 
minutes multiplied by thousands of drivers, results in decreased 
efficiency across many industries on the road.
    I look forward to addressing this issue further in my questions to 
the panel. Again, thank you to our witnesses for being here to discuss 
the future of safety on our nation's highways.

    Senator Brownback. I understand the Department of 
Transportation has done a report examining these specific 
industries outlined--is that correct?--on whether or not to 
provide some exemptions under the hours-of-service regulations 
or a different set of rules, in some of these areas?
    Ms. Sandberg. Actually, the exemptions that were under the 
old rule continue under the new rule. So all the exemptions 
that were put in the National Highway Act are still in place.
    Senator Brownback. Now, is there a proposal to change those 
rules to make them stricter?
    Ms. Sandberg. No, there is not.
    Senator Brownback. OK. And do you anticipate that you're 
going to be changing any of those rules for short-haul, water-
well drillers, construction equipment, utility-service 
vehicles?
    Ms. Sandberg. Not at this time. One of the things I've 
instructed the staff is that we will not make any changes to 
regulation without specific data showing that there is a safety 
problem.
    Senator Brownback. Now, I had understood that there is a 
proposal sent to you that would request that operators be 
allowed the choice between the final rule that is being 
proposed, or the more strict proposal, on hours of service for 
these more short-haul type of provision--I don't have a better 
term to use than ``short haul,'' versus the current rule that 
they are operating under--that they would have a choice. Now, 
is that being proposed?
    Ms. Sandberg. We have a number of petitions for 
reconsideration from various groups, looking at the old rules 
and the new rules, and we have a requirement that we have to 
post those and go through some deliberation. And so we're in 
the process of doing that right now. I don't know if, 
specifically, one of those requests is from this group.
    Senator Brownback. So are you considering, then, a change 
for short-haulers that's being in the proposed form at this 
point, that's gone to you, but it hasn't been put on forward?
    Ms. Sandberg. We're required to look at all petitions for 
reconsideration.
    Senator Brownback. All right. So you are considering----
    Ms. Sandberg. Yes, anything that----
    Senator Brownback.--a more strict environment for short-
haul.
    Ms. Sandberg. No, it's not to make it more strict. I was--I 
think it was to make it more lax.
    Senator Brownback. Because they would----
    Ms. Sandberg. That they could continue to apply certain 
things under the old rule. Some of it has been 
misunderstandings from certain groups, who have had a little 
bit of difficulty understanding what exemptions still apply, 
what the hundred-mile radius rule--how that still applies. And 
so we're trying to work with those groups to eliminate any 
misunderstandings and then deal with any petitions that they 
may have under the specific new rule.
    Senator Brownback. All right. So that I'm clear, then, you 
are not proposing any changes to the hours of service regarding 
the litany of groups that I'm just lumping in the category of a 
short-haul category on limiting any further their hours of 
service or changing the rules regarding their hours of service.
    Ms. Sandberg. Their rules changed, the same as everybody 
else's, when we issued the final rule in April. And, actually, 
that rule went into effect and will be implemented January 4th 
of next year. So if the old hours-of-service rule applied to 
them, the new hours-of-service rule will now apply.
    Senator Brownback. OK.
    Ms. Sandberg. Their exemptions, though, stay the same. So 
whatever they were exempt from under the old rule, they stay 
exempt from under the new rule.
    Senator Brownback. OK. Then let me particularly focus you 
on water-well drillers. We have a number of water-well drillers 
in Kansas. It's big. It's a need that we have. Are the rules 
for them going to change, come January 2004?
    Ms. Sandberg. Yes, they are.
    Senator Brownback. OK. What are they going to change to?
    Ms. Sandberg. They are allowed to work 14 hours a day and 
drive 11 hours. The old rule was that they were allowed to work 
15 hours a day and drive 10 hours.
    Senator Brownback. Now, weren't they given a specific 
exemption under the hours-of-service----
    Ms. Sandberg. Yes, and that----
    Senator Brownback.--reg, under the 1995 National Highway 
System Design Act?
    Ms. Sandberg. That's correct. And when that exemption kicks 
in, that exemption would apply to the new hours-of-service 
rule.
    Senator Brownback. OK. So interpret what you mean, to me. 
Then, come January 2004, the water-well drillers come under the 
new rule, but the exemption----
    Ms. Sandberg. The exemption----
    Senator Brownback.--will allow them----
    Ms. Sandberg.--still applies.
    Senator Brownback.--to operate under the old rule.
    Ms. Sandberg. Yes. Well, no. It allows them to continue 
operating--whatever the exemption said--and I can't, off the 
top of my head, tell you exactly what that exemption said. I 
would be happy to give you that information later, for the 
record.
    Senator Brownback. OK, if you could, because I'm getting a 
lot of push from people that are in the short-haul business 
saying, ``Come January 2004, the world radically changes for 
us.'' And I'm looking at what we put forward as exemptions in 
the law in 1995, and I'm thinking that, you know, the 
congressional opinion hasn't changed in that period of time. 
They should be allowed the flexibility more to operate--if 
you're within this hundred-mile radius where you're not going 
long distances, but you could be involved in long hours--you 
can get a water well-driller, once they start drilling, they 
need to continue----
    Ms. Sandberg. Uh-huh.
    Senator Brownback.--in this operation, because stopping and 
starting again's going to be very difficult and make the 
process much more lengthy and much more expensive for people to 
go into.
    [The information referred to follows:]

    FMCSA Response
          Section 345(a) of the 1995 National Highway System 
        Designation Act granted limited exemptions under the Hours-of-
        Service regulations for transportation of agricultural 
        commodities and farm supplies, transportation and operation of 
        ground water well drilling rigs, transportation of construction 
        materials and equipment, drivers of utility service vehicles, 
        and snow and ice removal.
          Specifically, Section 345(a)(2) of the Act granted exemptions 
        for transportation and operation of ground water well drilling 
        rigs:

          ``(2) TRANSPORTATION AND OPERATION OF GROUND WATER WELL 
        DRILLING RIGS--Such regulations shall, in the case of a driver 
        of a commercial motor vehicle who is used primarily in the 
        transportation and operation of a ground water well drilling 
        rig, permit any period of 7 or 8 consecutive days to end with 
        the beginning of an off-duty period of 24 or more consecutive 
        hours for the purposes of determining maximum driving and on-
        duty time.''

          Section 345(e)(3) defines ground water well drilling rig--The 
        term ``ground water well drilling rig'' means any vehicle, 
        machine, tractor, trailer, semi-trailer, or specialized mobile 
        equipment propelled or drawn by mechanical power and used on 
        highways to transport water well field operating equipment, 
        including water well drilling and pump service rigs equipped to 
        access ground water.

    Ms. Sandberg. Senator, we'd be happy to come up and meet 
with you and figure out exactly what it is that their concern 
is and give you a specific answer as to how the new rules 
apply, how the exemption applies, how the exemption applied 
under the old rule, and how it will apply under the new rule.
    Senator Brownback. OK. But it would be my desire that the 
exemption they're currently operating under would continue, 
come January 2004. I mean, that's what I'll be pushing for. 
That's what I think would make sense. I think the old rule has 
worked pretty well. Do you know any reason why we would need to 
change their current hours?
    Ms. Sandberg. No, the way that the staff briefed me is that 
the exemptions still apply the same.
    Senator Brownback. OK. And you have no particular reason, 
from your studies that you've done, safety studies, to think 
that this should change.
    Ms. Sandberg. Not on this specific group, no. But, again, 
like I said, we would be happy to come up and find out exactly 
what the issue is that they have.
    Senator Brownback. OK, good. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sununu. Thank you, Senator Brownback.
    Let me just ask a few more closing questions. You had 
mentioned the household goods issues. Could you describe, in a 
little bit more detail, exactly what powers you all are 
recommending that the attorney generals be given in dealing 
with household goods complaints?
    Ms. Sandberg. Yes, actually, the provision that we have in 
the reauthorization proposal gives the state attorneys general 
the authority to enforce all the Federal regulations that 
currently exist, so they would have the ability to take 
enforcement cases.
    Senator Sununu. For example?
    Ms. Sandberg. For example, if they have a carrier who has 
given false information to an individual--let's say they--it's 
like a hostage-goods example, where they tell you that it's 
going to cost you $2,000 to move, you know, they actually load 
your goods up, and then all of a sudden it costs you $4,000 
once all your goods are on the truck. Then they would have the 
ability to enforce under our regulations.
    Senator Sununu. Is there a precedent for attorneys general 
being given this power? In other words, any other areas of the 
Federal Government where they're allowed to enforce Federal 
statutes?
    Ms. Sandberg. That, I do not know, Senator. I can find out 
and give you an answer for the record.
    Senator Sununu. Thank you.
    [The information referred to follows:]

FMCSA Response
    There is precedent in the telecommunications/telemarketing area. 
Both the Telephone Consumer Protection Act of 1991 (Pub. L. 102-243), 
and the Telemarketing and Consumer Fraud and Abuse Prevention Act of 
1994 (Pub. L. 103-297), contain provisions authorizing State Attorneys 
General to bring actions in court to enforce provisions of these 
statutes or of the implementing regulations adopted pursuant to them. 
Language from both Public Laws appears below:

  <bullet> Pub. L. 102-243:
    Section 227
    (f) ACTIONS BY STATES----
    (1)  AUTHORITY OF STATES-Whenever the attorney general of a State, 
            or an official or agency designated by a State, has reason 
            to believe that any person has engaged or is engaging in a 
            pattern or practice of telephone calls or other 
            transmissions to residents of that State in violation of 
            this section or the regulations prescribed under this 
            section, the State may bring a civil action on behalf of 
            its residents to enjoin such calls, an action to recover 
            for actual monetary loss or receive $500 in damages for 
            each violation, or both such actions. If the court finds 
            the defendant willfully or knowingly violated such 
            regulations, the court may, in its discretion, increase the 
            amount of the award to an amount equal to not more than 3 
            times the amount available under the preceding sentence.

  <bullet> Pub. L. 103-297:
    SEC. 4. ACTIONS BY STATES.
    (a)  IN GENERAL-Whenever an attorney general of any State has 
            reason to believe that the interests of the residents of 
            that State have been or are being threatened or adversely 
            affected because any person has engaged or is engaging in a 
            pattern or practice of telemarketing which violates any 
            rule of the Commission under section 3, the State, as 
            parens patriae, may bring a civil action on behalf of its 
            residents in an appropriate district court of the United 
            States to enjoin such telemarketing, to enforce compliance 
            with such rule of the Commission, to obtain damages, 
            restitution, or other compensation on behalf of residents 
            of such State, or to obtain such further and other relief 
            as the court may deem appropriate.

    Senator Sununu. Any other questions?
    [No response.]
    Senator Sununu. Thank you very much, Ms. Sandberg.
    Ms. Sandberg. Thank you, Senator.
    Senator Sununu. We'll now ask that our second panel of 
witnesses come forward.
    Our second panel includes Mr. Douglas Duncan, president and 
CEO of FedEx Freight; Mr. LaMont Byrd, Director of Safety and 
Health for the International Brotherhood of Teamsters; Ms. Joan 
Claybrook, President of Public Citizen; Mr. Peter Hurst, 
President of the Commercial Vehicle Safety Alliance; and Mr. 
Joseph Harrison, President of American Moving and Storage 
Association.
    I want to thank each of the witnesses for taking the time 
to be with us at this hearing today. We will include your full 
statement in the record. Feel free, and, in fact, be 
encouraged, to summarize your testimony.
    And let us begin with Mr. Duncan. Welcome.

   STATEMENT OF DOUGLAS G. DUNCAN, PRESIDENT AND CEO, FedEx 
 FREIGHT ON BEHALF OF THE AMERICAN TRUCKING ASSOCIATIONS, INC. 
                             (ATA)

    Mr. Duncan. Thank you, Mr. Chairman.
    Chairman and Members of the Committee, thank you for 
inviting the American Trucking Association to express our views 
on this very important subject.
    As you stated, my name is Doug Duncan. I'm the President 
and CEO of FedEx Freight, headquartered in Memphis, Tennessee, 
and I'm testifying today on behalf the American Trucking 
Association, the ATA.
    The trucking industry is large and diverse, and while the 
industry has disagreements on many issues, we all agree that 
safety is and must be the number one priority, whether 
considering changes in business practices or changes in the 
law. We are justifiably proud of our progress that we have 
made.
    Over the past two decades, the trucking industry's fatal 
accident rate has come down by 53 percent, and injury and 
property damage crashes are at historical lows, as well. 
Furthermore, the number of fatal accidents involving trucks is 
down for 5 years in a row, even as fatal accidents involving 
other vehicles have continued to climb. Everyone, including the 
FMCSA, the CVSA, and the states, NHTSA, and the industry 
deserve some credit for these achievements. However, we do 
believe that there is more that can be done to prevent 
accidents and save lives.
    Mr. Chairman, FMCSA's focus has traditionally centered on 
enforcing vehicle and driver regulations. While this is 
important, the best available research shows that traffic 
violations that are more a result of unsafe driving behaviors, 
particularly speeding and failing to yield the right of way, 
may be more prevalent causes of accidents. Unfortunately, 
neither FMCSA nor NHTSA's budgets reflect this research. The 
ATA believes that both agencies should adopt a stronger focus 
on visible speed and traffic law enforcement and that the 
program authorization and the budget for MCSAP and Section 402 
programs should reflect that emphasis, as well.
    Along with stepped-up traffic enforcement should come 
greater efforts to educate motorists and commercial drivers 
about how to share the road more safely with one another. 
Traditionally, the FMCSA has placed the burden of preventing 
truck-involved crashes on the truck driver and the trucking 
industry; however, the best available crash data indicates that 
the majority of truck-involved fatal crashes involved one truck 
and one automobile, and that the unsafe actions of the 
automobile driver play a contributing role in about 70 percent 
of those fatal crashes.
    These findings were recently confirmed by the AAA 
Foundation for Traffic Safety, the leading advocate for 
motorists. The foundation found that, in some cases, unsafe 
actions by the car drivers were a contributing role in up to 75 
percent of the fatal truck/car crashes.
    Therefore, by focusing its truck-safety resources and 
attention primarily on truck drivers and trucking companies, 
the FMCSA is addressing a relatively small portion of the fatal 
crashes involving trucks.
    A large cooperative effort is needed to attack the problem 
of motorists being unaware of the operating limitations of 
large trucks and buses. Private sector organizations and 
groups, in cooperation with FMCSA and NHTSA, can combine 
resources and expertise for the development and dissemination 
of information to their constituencies and to the general 
public. This effort should seek to more widely disseminate 
consistent credible information and messages by funding and 
leveraging off programs that are already in place.
    Mr. Chairman, Congress can also assist in assuring trucking 
companies have information they need to make sure that the 
drivers they hire are safe by authorizing the trucking company 
access to the Federal Motor Carriers Safety Administration 
driver safety data and information during the hiring process.
    ATA also requests the Committee's assistance in addressing 
the issues with the FMCSA's SafeStat system, identified by the 
DOT Inspector General. Conceptually, the SafeStat system is 
good, but it can be improved to help better target unsafe motor 
carriers.
    In addition, while this falls outside of the Committee's 
jurisdiction, ATA urges the Committee not to lose sight of the 
safety benefits of targeted investment in highway 
infrastructure as a part of overall strategy in improving 
highway safety. Poor road conditions and obsolete road designs 
play a role in nearly 12,000 highway deaths each year. ATA 
urges Congress to address this problem by focusing investment 
on projects that can prevent accidents and mitigate their 
severity.
    Mr. Chairman, as there is a shortage of highway capacity, 
there is also a shortage of truck parking capacity on many of 
the major trucking corridors. Together with the Truckload 
Carriers Association, the National Association of Truckstop 
Operators, and the CVSA, ATA has developed a comprehensive 
approach to resolving this problem through the use of public/
private partnerships. We hope the Committee will agree to 
support this important initiative.
    I would also like to alert the Committee to another safety 
challenge facing the trucking companies and drivers. While the 
trucking companies are required to perform regular maintenance 
on our vehicles, a loophole in the Federal law allows 800,000 
pieces of leased intermodal equipment to escape that 
regulation. We urge Congress to close this loophole by 
directing the Secretary to apply safety regulations equitably 
to all regulated equipment. And I believe the Teamsters also 
support this recommendation.
    Finally, Mr. Chairman, the ATA recommends the Committee 
promote research that will allow for the adoption of effective 
safety regulations. For example, NHTSA should direct and 
undertake research to determine the appropriate method for 
incorporating reliability performance standards into future 
standards pertaining to trucks and provide dedicated sources 
for funding of this project.
    ATA further recommends that the Secretary be directed to 
prioritize all Federal driver/vehicle-related research so that 
the majority of those funds support the research of the most 
common cause of accidents: the human factor.
    In addition, ATA recommends that Congress require the 
Secretary to establish the Motor Carrier Safety Advisory 
Committee and extend the authorizing period by a minimum of 5 
years.
    Mr. Chairman and Member of the Committee, thank you for the 
opportunity to offer these thoughts regarding these safety 
issues. Much more detail is contained in the written testimony. 
And we look forward to working with the Committee to improve 
the safety and mobility of the Nation's highway transport 
system.
    [The prepared statement of Mr. Duncan follows:]

   Prepared Statement of Douglas G. Duncan, President and CEO, FedEx 
  Freight on Behalf of the American Trucking Associations, Inc. (ATA)
Introduction
    Chairman Sununu and members of the Committee, thank you for the 
opportunity to express the trucking industry's perspectives regarding 
Truck and Highway Safety Program issues that are of great importance to 
the trucking industry. I am Doug Duncan, President & CEO of FedEx 
Freight. As part of the FedEx Corp. family of companies, FedEx Freight 
is the market leader in providing next-day and second-day regional, 
less-than-truckload freight services. FedEx Freight generates more than 
$2 billion in annual revenues and is comprised of two operating 
companies, FedEx Freight East and FedEx Freight West.
    I am appearing before the Committee today on behalf of the American 
Trucking Associations, Inc. (ATA). ATA is the national trade 
association of the trucking industry. ATA is a federation of affiliated 
State trucking associations, conferences, and other organizations that 
together include more than 37,000 motor carrier members, representing 
every type and class of motor carrier in the Nation. ATA represents an 
industry that employs nearly ten million people, providing one out of 
every fourteen civilian jobs. This includes the more than 3 million 
truck drivers who travel over 400 billion miles per year to deliver to 
Americans nearly 70 percent of their transported food, clothing, 
finished products, raw materials, and other items.
    American industrial and commercial enterprises are able to compete 
more effectively in the global marketplace due to the benefits of safe 
and efficient trucking. Truck transportation is the most flexible mode 
for freight shipment, providing door-to-door service to every city, 
manufacturing plant, warehouse, retail store and home in the country. 
For many people and businesses located in towns and cities across the 
United States, trucking services are the only available means to ship 
goods. Trucks are the sole providers of goods to 80 percent of American 
communities. Five percent of the Nation's GDP is created by truck 
transportation. Actions that affect the trucking industry's ability to 
move its annual 9 billion tons of freight have significant consequences 
for the ability of every American to do their job well and to enjoy a 
high quality of life.
    While we are a large and highly diverse industry, ATA members all 
agree that highway safety is job number one for our companies and our 
industry. Promoting and advancing safety is not only the right thing to 
do for our industry, it makes good business sense. I appreciate the 
opportunity to share our ideas with this Committee on ways to improve 
highway and truck safety.
The Trends in Truck Safety
    Mr. Chairman, the past two reauthorization acts developed and 
promoted by this Committee have been instrumental in revitalizing and 
refocusing Federal surface transportation policy, particularly in the 
area of highway safety, and we commend this Committee for its ongoing 
leadership. The programs that this Committee has created and authorized 
have contributed to improving highway safety, and overall truck safety.
    According to the Federal Motor Carrier Safety Administration 
(FMCSA), the safety trends in the trucking industry are clearly heading 
in the right direction. In their most recent report entitled, ``Large 
Truck Crash Facts 2001,'' FMCSA reports that over the last 20 years 
(1981 to 2001), the fatal crash rate for large trucks has declined from 
4.5 fatal crashes per 100 million miles traveled to 2.1 fatal crashes 
per 100 million miles traveled, a 53 percent decrease. (See Table 1 
from FMCSA's report)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FMCSA also reports that the large truck injury and property damage 
crash rates are also on the decline. From 1988 to 2000 (1988 was the 
first year in which FMCSA began collecting and analyzing injury and 
property damage crash data), the large truck injury crash rate has 
declined from 67.9 injury crashes per 100 million miles to 41.2 injury 
crashes per 100 million miles, a 39 percent decline. Similarly, the 
property damage only crash rate declined between 1988 and 2000 from 
210.7 crashes per 100 million miles to 153.7 crashes per 100 million 
miles, a 27 percent decline. (See Tables 4 & 5 from FMCSA's report on 
the next page)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FMCSA also reports that alcohol involvement for large truck drivers 
involved in fatal crashes has declined 75 percent since 1982, the first 
year that the Fatality Analysis Reporting System (FARS) included data 
for alcohol involvement in fatal crashes.
    FMCSA's report has a wealth of additional data and information on 
trends, and ATA encourages Committee Members and staff to view the 
report online at: http://ai.volpe.dot.gov/CarrierResearchResults/
CarrierResearchResults.asp?file=PDFs/LargeTruckCrashFacts2001.pdf
    Additionally, within the last two weeks, the National Highway 
Traffic Safety Administration (NHTSA) released a new crash study 
entitled ``An Analysis of Fatal Large Truck Crashes.'' This report also 
has a great deal of useful information, and can be viewed online at: 
http://www-nrd.nhtsa.dot.gov/pdf/nrd-30/NCSA/Rpts/2003/809-569.pdf
    The U.S. Congress, the U.S. Department of Transportation, the State 
agencies involved in truck safety, and the millions of people employed 
in the trucking industry should be proud of and pleased with the truck 
safety progress that has been made to date. However, ATA strongly 
believes that more can and should be done. However, the right policies 
must be established and the most effective actions must be taken, 
especially when resources are limited. Put more simply, the solutions 
must address the problems. Incorrect or ineffective policies and 
actions may only blunt our pursuit of safer transportation systems. Our 
collective goal must be to continue to push the trends even further in 
the right direction. ATA's recommendations throughout the remainder of 
this testimony are aimed at achieving this goal. Our recommendations 
are categorized in the following three areas:

  1.  Traffic Safety and Truck Safety Program Recommendations

  2.  Regulatory Change Recommendations, and

  3.  Research and Advisory Committee Recommendations
I. Traffic Safety and Truck Safety Program Recommendations
    Truck safety has improved over the last 20 years. An interesting 
question, however, is ``What has caused the improvement?'' This is a 
tough question to answer for both industry and government officials. We 
believe that some programs that have been implemented in the last 10 to 
20 years have contributed to the overall positive picture. The industry 
supported Federal-State truck safety inspection grant program (known as 
the Motor Carrier Safety Assistance Program or MCSAP) has had an impact 
by improving truck condition; the Commercial Driver's License (CDL) 
program has contributed by raising the bar for driver entry into the 
industry; and the implementation of voluntary drug testing by the 
industry, followed by a mandatory Federal drug and alcohol testing 
program, has also contributed in a positive way. It is very likely that 
the increase in seat belt use by truck drivers and other motorists has 
also had a positive impact. Many other industry and government 
initiatives are likely to have had some benefit as well. The point 
here, however, is that we still need to have a better understanding of 
what has worked and why. Additionally, we still do not understand 
thoroughly how and why truck crashes occur.
A. Safe Speeds Save Lives--Greater Speed Enforcement Is Needed
    ATA recommends that Congress authorize additional funding for the 
Section 402 Highway Safety Grant Program administered by NHTSA, and the 
MCSAP truck safety grant program administered by FMCSA, specifically 
for increased traffic and speed enforcement efforts in the highway 
reauthorization bill. ATA further recommends that Congress make it 
clear in legislative language that MCSAP funding should be used for 
State speed enforcement efforts aimed at both commercial and non-
commercial drivers, and that speed enforcement activities aimed at 
commercial drivers do not have to be linked to a North American 
Standard Inspection. Additional funding, additional emphasis, and 
greater Federal leadership are needed on this issue to reduce the speed 
and unsafe driving behaviors of all drivers on our highways in order to 
save lives.
    ATA is also a firm believer in the life-saving benefits of seat 
belt use. ATA recommends that Congress continue to support and fully 
fund the occupant protection programs of NHTSA, including the ongoing 
'Click It or Ticket' grant program.
    Justification--Since the results of FMCSA's ongoing large truck 
crash causation study are not yet available, policymakers must use the 
best available data and information to make informed policy and program 
decisions. For years, crash research has found that human errors and 
unacceptable driver behaviors are the primary causes of (or primary 
contributing factors to) highway crashes, including truck-involved 
crashes.\1\ It is interesting to note, however, that both the Congress 
and the U.S. DOT have traditionally taken different approaches to 
improving traffic safety versus truck safety. NHTSA's traffic safety 
programs have focused on gaining strong traffic laws, educating the 
public on these strong laws, and then using visible and targeted 
traffic enforcement programs to enforce these laws in order to 
positively affect motorist behavior. NHTSA has shown that this 
selective traffic enforcement program (STEP) approach effectively 
changes motorist behavior and thereby increases highway safety. NHTSA 
has also focused on improving its traffic safety and crash data 
collection and analysis in order to better guide the agency's programs 
and resource expenditures.
---------------------------------------------------------------------------
    \1\ Tri-Level Study of the Causes of Traffic Accidents, Indiana 
University, DOT HS 805 099, May 1979.
---------------------------------------------------------------------------
    FMCSA's truck safety programs, on the other hand, have focused on 
increasing the number and scope of regulations on drivers and motor 
carriers, enforced through on-road safety inspections and facility 
compliance audits. Unfortunately, FMCSA does not have persuasive 
research that shows increased regulatory and compliance efforts equal 
greater truck safety. Since so much of truck safety is rooted in 
overall traffic safety, Congress and FMCSA should seriously consider 
much more of a traffic safety approach toward improving truck safety.
    To expand on this point, NHTSA reports that speeding was a 
contributing factor in more than 30 percent of all fatal crashes in 
2001. This means that more than 12,800 people lost their lives in 2001 
in part due to speed-related crashes. This is simply unacceptable. The 
time has come to combat excessive speeding, in order to improve both 
traffic and truck safety. There are four words that every motorist and 
every commercial vehicle driver needs to remember when they buckle up 
and take the wheel of their vehicle: SAFE SPEEDS SAVE LIVES!
    The Section 402 Highway Safety Grant Program administered by NHTSA 
supports many outreach and enforcement programs, including the priority 
programs to encourage the proper use of occupant protection devices and 
reduce drug and alcohol impaired driving. While these programs clearly 
deserve a high priority by NHTSA, ATA is concerned that strong, visible 
speed enforcement may not be getting the focus, attention and funding 
it deserves.
    Additionally, the Motor Carrier Safety Assistance Program (MCSAP), 
administered by FMCSA, focuses on priority truck and bus safety 
initiatives that, for the most part, do not address speeding truck and 
bus drivers, or other motorists with which commercial drivers share the 
road. The MCSAP program, a generally successful truck and bus safety 
inspection program, is simply not putting enough emphasis on traffic 
enforcement activities. Strong, visible speed enforcement aimed at 
commercial vehicle drivers, as well as other motorists with whom 
commercial drivers share the road, needs to take on a much greater role 
in the MCSAP program. In fact, there is currently an artificial 
constraint that keeps the amount of speed enforcement activity in the 
MCSAP program small. FMCSA's regulations require that all speed 
enforcement stops of trucks (as well as all other types of traffic 
enforcement stops) include an appropriate North American Standard 
Inspection of the truck or the driver, or both, for the activity to be 
eligible for MCSAP funding. This inspection requirement, found at 49 
CFR 350.111, is unnecessary and unwarranted and discourages traffic 
enforcement for commercial motor vehicles. Additionally, since speeding 
and other unsafe driving behaviors of non-commercial drivers play an 
even greater role in truck-involved crashes than do the actions of the 
commercial motor vehicle driver,\2\ the MCSAP program must also include 
traffic enforcement efforts aimed at unsafe motorist behavior. This 
funding should be in addition to the money provided for traditional 
MCSAP enforcement activities.
---------------------------------------------------------------------------
    \2\ The Unsafe Driving Acts of Motorists in the Vicinity of Large 
Trucks, Anacapa Sciences, Inc. for the Federal Highway Administration, 
February 1999.
---------------------------------------------------------------------------
B. A Comprehensive Education and Outreach Program Is Needed
    ATA recommends that Congress authorize and fund a comprehensive 
Share the Road Safely education and outreach program that is designed 
to educate and change the behavior of all highway users. This effort 
must be coupled with increased MCSAP traffic enforcement to have the 
desired outcomes. A program evaluation requirement should also be 
included. This program should be funded at not less than $5 million 
dollars annually.
    Justification--The majority of truck-involved crashes are multi-
vehicle crashes that involve one truck and one passenger vehicle.\3\ 
Traditionally, FMCSA (and its predecessor organization) has placed the 
burden of preventing these truck-involved crashes on the truck driver 
and the trucking industry. However, the best available crash data 
indicates that the actions of the truck driver play a contributing role 
in only 30 percent of fatal crashes where another vehicle is involved. 
The unsafe actions of the automobile driver play a contributing in 
about 70 percent of the fatal crashes involving a truck.\4\ Therefore, 
by focusing their resources and attention on truck drivers and trucking 
companies, FMCSA is addressing a relatively small portion of the fatal 
crashes involving trucks.
---------------------------------------------------------------------------
    \3\ An Analysis of Fatal Large Truck Crashes, U.S. DOT, National 
Highway Traffic Safety Administration, National Center for Statistics 
and Analysis, DOT HS 805 569, June 2003.
    \4\ The Relative Contribution of Truck Drivers and Passenger 
Vehicle Drivers to Truck-Passenger Vehicle Traffic Crashes, The 
University of Michigan Transportation Research Institute (UMTRI 98-25), 
June 1998; and, Identifying Unsafe Driver Actions that Lead to Fatal 
Car-Truck Crashes, AAA Foundation for Traffic Safety, April 2002.
---------------------------------------------------------------------------
    A large cooperative effort is needed to attack the problem of 
motorists being unaware of the operating limitations of large trucks 
and buses and, therefore, being unaware of how to more safely share the 
road with these vehicles. Private sector organizations and groups, in 
cooperation with FMCSA and NHTSA, can provide resources and expertise 
for the development and dissemination of information to their 
constituencies and to the general public. This effort should not 
undermine or overtake existing efforts such as ATA's Share the Road 
program, or AAA's Share with Care program. Rather, it should seek to 
more widely disseminate consistent and credible Share the Road Safely 
information and messages by funding and leveraging off of programs 
already in place. FMCSA has a very small Share the Road Safely program 
and has traditionally spent less than one percent of its annual budget 
on this program.\5\ There is a small coalition as part of this program, 
in which ATA is a participant, which could provide the foundation for a 
much larger and more effective outreach effort. As recommended recently 
by the U.S. General Accounting Office,\6\ this education and outreach 
effort should be closely coordinated with the increased traffic 
enforcement efforts, similar to NHTSA's STEP approach described above.
---------------------------------------------------------------------------
    \5\ Share the Road Safely Program Needs Better Evaluation of Its 
Initiatives, U.S. General Accounting Office, May 2003.
    \6\ Ibid, p. 12.
---------------------------------------------------------------------------
C. Safety Screening of Truck Drivers Can Be Improved
    ATA recommends that Congress authorize FMCSA to provide access to 
safety data and information contained in MCMIS, within the confines of 
the Privacy Act and consistent with the Fair Credit Reporting Act.
    Justification--FMCSA collects a substantial amount of driver and 
company compliance and safety performance information in a safety 
database called the Motor Carrier Management Information System 
(MCMIS). This safety information is different from the information 
captured on a driver's motor vehicle record maintained by the State 
licensing agencies. State motor vehicle records typically contain 
information on driver traffic law convictions (e.g., speeding, reckless 
driving, etc.). MCMIS contains information on a driver's compliance 
with the medical certification process, the hours of service 
regulations, and other safety regulations that apply to the driver. 
Motor carrier employers currently have access to driver-specific 
information only for those drivers they currently employ. Truck safety 
could be improved if trucking companies had the ability to access 
driver-specific safety information contained in MCMIS during the driver 
screening and hiring process, in order to make more informed hiring 
decisions. Prospective employees would be asked to authorize the 
inquiry before a company is given access to the information. 
Reauthorization provides a real opportunity to make this existing 
safety database more useful than it already is, from a safety 
standpoint.
D. Improve the Motor Carrier Compliance Review Targeting System Known 
        as SafeStat
    ATA recommends that Congress direct the Secretary to address and 
improve the data and methodological shortcomings in FMCSA's Safety 
Status Measurement System (SafeStat) identified by the Department of 
Transportation's Inspector General during its recent audit.
    Justification--FMCSA administers a safety scoring system that 
assigns a numerical score to every trucking company on which they have 
sufficient safety and demographic data. The score, and some of the data 
used to generate the score, is currently made publicly available on 
FMCSA's website. Serious concerns with the scoring system methodology, 
and with some of the safety data used in the system, led to a 
Congressional request for a DOT Inspector General audit that began in 
November 2002. Preliminary results from the audit indicate that the 
system can be improved substantially, and the final report to be 
released in the very near future will contain specific recommendations 
for improving the system.
E. Create A Safe Driving Environment Through Sound Infrastructure 
        Investments
    ATA recommends that Congress fund research that explores better 
highway design and management practices, particularly those that could 
result in improved truck safety. We also urge Congress to earmark money 
to State and local planning agencies to help them to better understand 
the unique needs of freight transportation, including those related to 
safety. Finally, we would like to see a much greater share of Federal 
highway funds directed toward those projects and highway networks that 
are most critical to motorist safety and to economic productivity.
    Justification--Poor road conditions and obsolete road designs 
contribute to nearly a third of all fatal crashes in the United States. 
In other words, more than 12,000 people die each year in collisions 
with roadside hazards such as trees, utility poles, and embankments, 
and almost another 3,500 die in rollover crashes often related to 
veering off the roadway. Rollover crashes are a particularly 
significant concern for truck drivers. Many ramps were not designed to 
accommodate trucks' physical characteristics, and some have become 
notorious for the number of rollover truck accidents that have occurred 
because they were not designed with trucks in mind.
    And unlike other areas of highway safety--such as drunk driving, 
seat belt use, and vehicle design--where significant gains have been 
made, the percentage of fatalities related to roadside hazards has 
actually risen over the past two decades. Fortunately, this trend can 
be reversed. Well designed and maintained roads reduce vehicle deaths 
and injuries. They also save Americans billions of dollars in medical 
costs and productivity.
    Often, relatively simple, inexpensive changes can be made to roads 
that will produce tremendous safety improvements. Building wider 
shoulders, installing rumble strips, improving traffic signal timing to 
accommodate the slower acceleration of larger vehicles are all basic 
concepts that could improve truck safety. Unfortunately, knowledge 
about how to accommodate trucks' unique operating characteristics is 
lacking among many agencies. ATA has recommended that, on a general 
basis, State and local planning agencies need to hire people with 
specific freight transportation expertise.
    Congress should also focus limited Federal resources on projects 
that promise the greatest safety benefit. The National Highway System 
(NHS) carries approximately 75 percent of all truck traffic and 40 
percent of overall traffic. Yet about half of the NHS is comprised of 
two-lane, undivided highways. Because the NHS is the backbone of the 
Nation's freight transportation system, a single accident on the NHS 
can have ripple effects throughout the supply chain due to late 
deliveries caused by congestion related to the incident. It is also 
possible to identify specific priority projects. According to one 
study, fixing the Nation's 167 worst highway bottlenecks would prevent 
287,000 crashes, including 1,150 fatalities.
F. Greater Truck Parking Can Improve Safety
    ATA recommends that the Committee support the initiative to 
increase the amount of truck parking in certain freight corridors and, 
more specifically, support the recommendations contained in Attachment 
A.
    Justification--The continuing growth of long-haul truck travel has 
produced tremendous demand by truck drivers for long-term rest. These 
needs arise when drivers require sleep while on the road, and when they 
need to fulfill their federally mandated hours-of-service obligations. 
While adequate long-term truck parking is available in many areas, 
there is a shortage of capacity on many of the Nation's major trucking 
corridors. According to a 2002 survey of truck drivers conducted for 
FHWA, 89 percent of respondents said that they are usually unable to 
find parking at public rest areas, and 66 percent usually had a problem 
finding space at a truck stop.
    While the solution is often to expand the number of available 
parking spaces, in some cases the problems can be resolved through 
methods other than having to build new parking spaces. For example, 
better signage, improved security measures, and enhanced parking area 
design can all play a role in resolving the parking shortage. In 
addition, non-traditional approaches, such as allowing truck parking at 
weigh stations, commuter lots or warehouse facilities are being 
utilized successfully in some parts of the country currently and may be 
a feasible solution in other locations as well. ATA, in partnership 
with the Truckload Carriers Association, the Commercial Vehicle Safety 
Alliance and the National Association of Truckstop Operators, has 
developed a comprehensive proposal for addressing the truck parking 
shortage (see Appendix A).
II. Regulatory Recommendations
A. The Safety of Intermodal Chassis Can Be Improved
    ATA recommends that Congress direct the Secretary of Transportation 
to equitably apply and enforce laws designed to ensure the safe 
condition of all regulated equipment, including intermodal chassis and 
trailers. Antiquated regulations should be replaced with ones that are 
in tune with current industry operations
    Justification--Mr. Chairman, while the trucking industry cooperates 
with its intermodal partners in many areas, and will do so during this 
reauthorization cycle, there is one area on which we disagree. That 
area is the responsibility for safety and maintenance of the intermodal 
chassis on which intermodal cargo containers are transported on the 
highway. ATA is very concerned that foot-dragging by the U.S. 
Department of Transportation, and by many in the rail and ocean carrier 
industries, to work with the trucking industry to resolve the 
``equipment roadability'' issue is having serious safety and economic 
impacts. Since the advent of containerized shipping in the 1970s, a 
serious safety loophole has remained in the Federal Motor Carrier 
Safety Regulations. This loophole is commonly referred to as 
``equipment roadability.''
    As containerized intermodal freight has evolved over the decades, 
the Federal safety regulations have not kept pace. As a result, 750,000 
intermodal chassis and 83,000 intermodal trailers are operating in a 
safety loophole. These frame-like trailers (intermodal chassis) are 
used exclusively to haul intermodal containers, and are interchanged 
between steamship lines, railroads, and intermodal trucking companies. 
The chassis are also classified as commercial motor vehicles by FMCSA. 
However, they evade traditional FMCSA safety oversight.
    FMCSA safety regulations fundamentally assume that trucking 
companies have daily management control over all trucks and trailers 
they take onto public roadways. Based upon that assumption, the 
regulations read, ``Every motor carrier shall systematically inspect, 
repair, and maintain. . .all motor vehicles subject to its control.''
    FMCSA's interpretation of systematic maintenance is, ``. . . a 
regular or scheduled program to keep vehicles in a safe operating 
condition.'' It explains that the agency does not specify maintenance 
intervals, leaving that decision to trucking company management, based 
on fleet and vehicle considerations. So how does FMCSA know if a motor 
carrier is failing to ``keep vehicles in a safe operating condition?'' 
When MCSAP safety inspections, typically conducted by State law 
enforcement officials, drive a motor carrier's safety score above a 
certain threshold, the agency and/or State send an envoy to the 
trucking company's place of business to audit the maintenance and 
employee training records, inspect the carrier's equipment, etc.
    While railroads and foreign-owned steamship lines (collectively 
called ``providers'') own or lease the intermodal chassis, and control 
their daily disposition, they claim they are not motor carriers, thus 
not technically responsible for the condition of their equipment under 
Federal safety regulations. However, they do affix the annual 
inspection sticker on their equipment, which constitutes an act of 
certification that the equipment was inspected in detail at least once 
a year. Providers conduct the annual inspection pursuant to the FMCSA's 
regulations, but many do not conduct systematic maintenance on the same 
equipment, which is likewise mandated by FMCSA's regulations. This 
explains the poor condition of intermodal chassis and points to FMCSA's 
failure to close their own regulatory loophole to hold the controlling 
party accountable for the safety compliance of their own equipment that 
is operated on public roads.
    A recent study conducted jointly by the FMCSA and the University of 
Maryland provides support for ATA's concern about the equipment 
roadability issue. This study looked at 11 sectors of the trucking 
industry, one of which was intermodal operations. Researchers used nine 
safety performance measurements and other data managed by FMCSA to 
analyze the safety performance of each sector. One significant finding 
is that intermodal trucking operations were found to be average or 
better-than-average in six of the nine measurements. However, in the 
two measurements relating to vehicle condition, the intermodal sector 
ranked poorly. Specifically, among the 11 sectors, intermodal 
operations ranked last for vehicle safety condition and second-to-last 
(10th) for accumulating vehicle out-of-service violations. Thus, the 
latest research findings from FMCSA confirm what intermodal trucking 
executives have been saying for years - that the equipment controlled 
by steamship lines and railroads, and subsequently provided to motor 
carriers for brief periods of time, are potentially unsafe because they 
are not maintained by those controlling parties as required by FMCSA 
regulations.
    FMCSA has acknowledged that it has jurisdiction over the issue, but 
has failed to place safety responsibility on the proper party. That 
places the 833,000 intermodal chassis and trailers squarely in a 
longstanding safety loophole.
B. Overly Restrictive Federal Size and Weight Standards Prevent Safety 
        Improvements
    ATA urges Congress to give states additional flexibility to 
determine the appropriate size and weight regulations for trucks 
operating on highways under their jurisdiction.
    Justification--At the request of Congress, the Transportation 
Research Board (TRB) recently issued a new report on the impacts of 
Federal truck size and weight regulations.\7\ Among the report's 
conclusions was that the largely static and inflexible system of 
Federal regulation that currently exists ``. . . discourages private-
and public-sector innovation aimed at improving highway efficiency and 
reducing the costs of truck traffic . . .,'' including costs related to 
accidents involving trucks.\8\
---------------------------------------------------------------------------
    \7\ Transportation Research Board Special Report 267, Regulation of 
Weights, Lengths and Widths of Commercial Vehicles, 2002.
    \8\ Ibid., p. 5-1.
---------------------------------------------------------------------------
    In a nutshell, the TRB report concludes that states should be given 
greater authority, with strong Federal oversight, to make decisions 
with regard to the size and weight limits of trucks on highways under 
their jurisdiction. This reflects ATA's own policy. TRB further 
recommends that Federal regulatory oversight of weight limits should 
not be extended to the NHS, as S. 1140, the Safe Highways and 
Infrastructure Preservation Act (SHIPA) seeks to do.\9\
---------------------------------------------------------------------------
    \9\ Ibid., p. 5-16.
---------------------------------------------------------------------------
    There is no doubt that continuing or further restricting current 
Federal size and weight limits will cost lives. While it would not make 
sense from a safety or economic standpoint to allow larger or heavier 
trucks to operate on every highway or in every state, Congress cannot 
continue to ignore the growing body of evidence that supports the fact 
that opportunities to prevent accidents through size and weight reform 
are available. Those states that identify these opportunities should be 
allowed to take advantage of them.
    Allowing the expanded operation of more productive trucks would 
have two safety benefits. First, carriers would need fewer trucks to 
haul a given amount of freight, thereby reducing accident exposure. 
Second, studies have consistently found that certain trucks with 
greater carrying capacity have a much better safety record than trucks 
that are in common use today. A study sponsored by the Federal Highway 
Administration found that the accident rate for longer combination 
vehicles (LCVs) is half that of other trucks.\10\ A recent Canadian 
study found that LCVs have an accident rate that is five times lower 
than the rate for tractor-semitrailers.\11\ This study also found that 
during the 10-year period after LCVs were authorized to operate on a 
large scale in the Province of Alberta, the number of registered trucks 
dropped by 19 percent, even though the economy grew and non-truck 
vehicle registrations grew by 23 percent. The report concluded that 
increased truck productivity due to expanded LCV use was the most 
likely reason for this reduction in truck registrations.
---------------------------------------------------------------------------
    \10\ Accident Rates For Longer Combination Vehicles, Scientex 
Corp., 1996.
    \11\ Longer Combination Vehicle Safety Performance in Alberta 1995 
to 1998, Woodrooffe and Assoc., March 2001.
---------------------------------------------------------------------------
    ATA is not seeking changes to size and weight regulations during 
reauthorization. However, the approach suggested by TRB provides 
Congress with the opportunity to review this issue based on the facts, 
and ATA encourages the Committee to consider supporting it.
III. Research and Advisory Committee Recommendations
A. Reliability Performance Standards for Commercial Motor Vehicles are 
        Needed
    ATA believes it is imperative that NHTSA be directed to undertake a 
research program to determine the appropriate method for incorporating 
reliability performance standards into future Federal Motor Vehicle 
Safety Standards pertaining to trucks, and provide a dedicated source 
of funding for this project. NHTSA should be required to report to 
Congress on its work within two years, including the steps necessary to 
establish a reliability program and a timetable for doing so. NHTSA 
should also be directed to allow trucking equipment users and their 
representatives an opportunity to participate in the development and 
implementation of this program equal to that of manufacturers.
    Justification--Since 1968, NHTSA has written Federal Motor Vehicle 
Safety Standards (FMVSS) which measure short-term output for vehicle 
safety, that is, manufacturers must certify that their equipment meets 
the regulatory standards when it is placed on the market to be sold. 
NHTSA has never considered reliability--which is intrinsic to the 
overall elements of a design--in determining its vehicle safety 
standards.
    Today, as equipment systems and subsystems become more 
technologically complex, and truck manufacturers move to limit the 
ability of commercial fleets to specify which particular components to 
install in a particular vehicle, equipment reliability is rapidly 
becoming an overwhelming concern for motor carriers. An example of 
existing reliability standards for vehicle systems can be found in 
regulations established by the Environmental Protection Agency for 
emissions control, in 40 CFR 86.085. This issue is vital to highway 
safety, as compromises in reliability can deliver short-term 
performance enhancements, and may lower system costs, but may also lead 
to safety system failures when the equipment is most needed.
B. Prioritization in the Research Program is Needed
    ATA recommends that the Secretary of Transportation be directed to 
prioritize all Federal driver and vehicle-related research so that the 
majority of funds support research in the most-common cause of 
accidents--human factors. The Secretary should direct NHTSA to 
undertake a multi-year research project to determine the effects of 
risk-adaptation in both commercial and passenger vehicles, and to 
determine if there are ways in which such effects may be mitigated. 
NHTSA should also be directed to allow vehicle equipment users and 
their representatives, including the trucking industry, an opportunity 
for participation in this program equal to that of manufacturers.
    Justification--Although the best available data continue to 
indicate that the overwhelming majority of traffic accidents are caused 
by driver behavior problems and human error, a significant percentage 
of Federal research and regulatory effort has been and continues to be 
focused on vehicles and equipment, with far less effort spent on human 
factor issues. Motor carriers continue to incorporate a number of new 
electronics systems into their commercial motor vehicles. Many of these 
may eventually interact with drivers and make decisions on their 
behalf. There is evidence of a growing danger from ``risk-
adaptation''--the tendency of drivers to take greater risks when faced 
with the false security of a system that promises greater safety. One 
example of this phenomenon can be seen in antilock braking systems 
(ABS) for passenger vehicles. NHTSA has found that these systems do not 
offer a net safety benefit, as ABS-equipped cars were simply involved 
in different kinds of accidents than cars without ABS, not fewer or 
less deadly ones. A better understanding of how this phenomenon works 
and, more importantly, ways in which it might be mitigated is 
necessary, as vehicles become more complex in the already-complicated 
highway environment.
C. A Motor Carrier Safety Advisory Committee Should Be Established
    ATA recommends that Congress require the Secretary to establish a 
motor carrier safety advisory committee and extend the authorizing 
period by a minimum of five years.
    Justification--Section 105 of the Motor Carrier Safety Improvement 
Act of 1999 authorized the Secretary of Transportation to establish a 
commercial motor vehicle safety advisory committee to provide advice 
and recommendations on a wide range of motor carrier safety issues. The 
advisory committee was to remain in effect until September 30, 2003.
    More than three years after passage of the Act, DOT has taken no 
official action to establish an advisory committee. ATA finds this fact 
very troubling. Establishment of the Committee would bring together 
various industry segments, law enforcement, advocacy groups, 
manufacturers, and government officials to discuss the most pressing 
motor carrier safety issues. These groups often have conflicting 
opinions on important highway safety issues. Bringing them together in 
an advisory capacity would allow FMCSA to proactively develop 
regulatory and program changes that have a greater chance of being 
embraced and supported by the agency's stakeholders. An advisory 
committee could also provide the regulators with a regular opportunity 
to better understand the safety, economic, and human impacts that their 
actions might have on various segments of society.
IV. ATA's Reaction to the Administration's SAFETEA Proposal
    ATA commends the Bush Administration for releasing a surface 
transportation reauthorization bill (SAFETEA) that recognizes the need 
for substantial highway safety improvements and greater freight 
transportation efficiency. While ATA has a number of specific concerns, 
we believe the bill represents a positive first step in the 
reauthorization process.
    Some of the SAFETEA initiatives that ATA supports include:

  <bullet> Creation of a new highway safety improvement program funded 
        at $1 billion in 2004 and growing each year to $1.5 billion in 
        2009.

  <bullet> Improvements in the project development process to ensure 
        integration of freight transportation.

  <bullet> A requirement that states identify a freight transportation 
        coordinator.

  <bullet> A set aside of funding for highways that connect intermodal 
        freight facilities to the National Highway System, and a 90 
        percent state matching fund requirement for these highways (as 
        opposed to the current 80 percent match).

  <bullet> A proposal to fund ``ready-to-go'' projects at major traffic 
        bottlenecks and to cut bureaucratic delay in the project 
        development process so needed highway projects can move to 
        completion more expeditiously.

  <bullet> A greater focus on improving motor carrier information and 
        data analysis systems. ATA trusts that these improvements will 
        extend to the Federal Motor Carrier Safety Administration's 
        safety status (SafeStat) measurement system.

    ATA opposes the following SAFETEA proposals:

  <bullet> While the Administration has stated a commitment to 
        improving freight transportation, SAFETEA would subsidize the 
        intermodal movement of freight at the expense of the highway 
        system, which carries the vast majority of the Nation's 
        freight. The bill proposes expansion of funding eligibility to 
        the Surface Transportation Program and the Transportation 
        Infrastructure Finance and Innovation Act (TIFIA) for 
        intermodal freight transportation projects, including rail 
        facilities, even though just over one percent of the Nation's 
        freight moves via intermodal rail. Trucks deliver 68 percent of 
        the freight and are the exclusive provider of freight 
        transportation services to more than 80 percent of American 
        communities. A true commitment to improving freight efficiency 
        cannot include the further diversion of limited funds from the 
        Nation's ailing highways. A fair transportation bill will not 
        require one transportation mode to subsidize its competitors.

  <bullet> The U.S. Department of Transportation's own research 
        suggests that the proposed investment levels will not be 
        adequate to even maintain current highway system conditions and 
        traffic congestion levels. We urge Congress to increase the 
        Federal commitment to highways without raising taxes and to 
        prioritize funding for highways of national significance.

  <bullet> The proposal would eliminate the ability of trucking 
        companies to pay their heavy vehicle use taxes (HVUT) on a 
        quarterly basis and requires each truck to display a decal 
        demonstrating payment of the tax. While we recognize that HVUT 
        evasion is a serious problem, law-abiding trucking companies 
        should not be punished because of the actions of a few 
        miscreants. We strongly oppose the decal requirement. It is 
        unnecessary, an added administrative burden and redundant to 
        procedures already available as proof of fees paid. In 
        addition, we are concerned about the adverse financial impact 
        of elimination of the quarterly payment privilege on trucking 
        companies.

  <bullet> ATA opposes the exemption of safety, security and idle 
        reduction technologies from the Federal excise tax on trucks 
        and truck equipment. This provision would place the Federal 
        government in a position of having to create a new Federal 
        bureaucracy to evaluate potentially thousands of devices. ATA 
        also has strong reservations about the exposure to legal 
        liability created by federally-endorsed safety technologies.

  <bullet> ATA opposes the Administration's proposal to continue the 
        Interstate Highway toll programs created by TEA 21. Tolling 
        existing Interstate Highways creates a disincentive for 
        motorists to use Interstates, which are the safest roads. 
        Alternative secondary routes are likely to be at least four 
        times more dangerous than an Interstate Highway.

  <bullet> ATA opposes the Administration's rest area commercialization 
        pilot program. States in general have not demonstrated that 
        they are willing to address the truck parking shortage issue. 
        Ninety percent of truck parking is privately provided, and 
        solutions to the truck parking shortage are more likely to be 
        addressed by the private sector than by the public sector. 
        Along with the Truckload Carriers Association, the National 
        Association of Truck Stop Operators and the Commercial Vehicle 
        Safety Alliance, ATA has developed the comprehensive proposal 
        in Attachment A to address the truck parking shortage that 
        focuses on public-private partnerships.
Summary
    In summary, Mr. Chairman, ATA makes the following recommendations.

    I. Traffic Safety and Truck Safety Program Recommendations

    ATA recommends that Congress authorize additional funding for the 
Section 402 Highway Safety Grant Program administered by NHTSA, and the 
MCSAP truck safety grant program administered by FMCSA, specifically 
for increased traffic and speed enforcement efforts in the highway 
reauthorization bill. ATA further recommends that Congress make it 
clear in legislative language that MCSAP funding should be used for 
State speed enforcement efforts aimed at both commercial and non-
commercial drivers, and that speed enforcement activities aimed at 
commercial drivers do not have to be linked to a North American 
Standard Inspection. Additional funding, additional emphasis, and 
greater Federal leadership are needed on this issue to reduce the speed 
and unsafe driving behaviors of all drivers on our highways in order to 
save lives.
    ATA is also a firm believer in the life-saving benefits of seat 
belt use. ATA recommends that Congress continue to support and fully 
fund the occupant protection programs of NHTSA, including the ongoing 
'Click It or Ticket' grant program.
    ATA recommends that Congress authorize and fund a comprehensive 
Share the Road Safely education and outreach program that is designed 
to educate and change the behavior of all highway users. This effort 
must be coupled with increased MCSAP traffic enforcement to have the 
desired outcomes. A program evaluation requirement should also be 
included. This program should be funded at not less than $5 million 
dollars annually.
    ATA recommends that Congress authorize FMCSA to provide access to 
safety data and information contained in MCMIS, within the confines of 
the Privacy Act and consistent with the Fair Credit Reporting Act.
    ATA recommends that Congress direct the Secretary to address and 
improve the data and methodology shortcomings in FMCSA's Safety Status 
Measurement System (SafeStat) identified by the Department of 
Transportation's Inspector General during its recent audit.
    ATA recommends that Congress fund research that explores better 
highway design and management practices, particularly those that could 
result in improved truck safety. We also urge Congress to earmark money 
to State and local planning agencies to help them to better understand 
the unique needs of freight transportation, including those related to 
safety. Finally, we would like to see a much greater share of Federal 
highway funds directed toward those projects and highway networks that 
are most critical to motorist safety and to economic productivity.
    ATA recommends that the Committee support the initiative to 
increase the amount of truck parking in certain freight corridors and, 
more specifically, support the recommendations contained in Attachment 
A.

    II. Regulatory Change Recommendations

    ATA recommends that Congress direct the Secretary of Transportation 
to equitably apply and enforce laws designed to ensure the safe 
condition of all regulated equipment, including intermodal chassis and 
trailers. Antiquated regulations should be replaced with ones that are 
in tune with current industry operations
    ATA urges Congress to give states additional flexibility to 
determine the appropriate size and weight regulations for trucks 
operating on highways under their jurisdiction.

    III. Research and Advisory Committee Recommendations

    ATA believes it is imperative that NHTSA be directed to undertake a 
research program to determine the appropriate method for incorporating 
reliability performance standards into future FMVSS pertaining to 
trucks, and provide a dedicated source of funding for this project. 
NHTSA should be required to report to Congress on its work within two 
years, including the steps necessary to establish a reliability program 
and a timetable for doing so. NHTSA should also be directed to allow 
trucking equipment users and their representatives an opportunity to 
participate in the development and implementation of this program equal 
to that of manufacturers.
    ATA recommends that the Secretary of Transportation be directed to 
prioritize all Federal driver and vehicle-related research so that the 
majority of funds support research in the most-common cause of 
accidents--human factors. The Secretary should direct NHTSA to 
undertake a multi-year research project to determine the effects of 
risk-adaptation in both commercial and passenger vehicles, and to 
determine if there are ways in which such effects may be mitigated. 
NHTSA should also be directed to allow vehicle equipment users and 
their representatives, including the trucking industry, an opportunity 
for participation in this program equal to that of manufacturers
    ATA recommends that Congress require the Secretary to establish a 
motor carrier safety advisory committee and extend the authorizing 
period by a minimum of five years.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to offer our thoughts regarding these safety issues. We 
look forward to working with the Subcommittee to improve the safety and 
mobility of our Nation's highway transportation system.
                                 ______
                                 
    Attachment A--Reauthorization Proposal to Improve Truck Parking
Background
    The growth of long-haul truck travel has produced tremendous demand 
by truck drivers for long-term rest. These needs arise when drivers 
require sleep and when they need to fulfill their federally mandated 
hours-of-service obligations. While adequate long-term truck parking is 
available in most areas, there is a shortage of capacity on many of the 
Nation's major trucking corridors. While the solution is often to 
expand the number of available parking spaces, in some cases the 
problems can be resolved through methods other than having to build new 
parking spaces. For example, better signage, improved security 
measures, and enhanced parking area design can all play a roll in 
resolving the parking shortage. In addition, non-traditional 
approaches, such as allowing truck parking at weigh stations, commuter 
lots or warehouse facilities are being utilized successfully in some 
parts of the country currently and may be a feasible solution in other 
locations as well. However, there continues to be a need to 
specifically identify where truck parking shortages do exist and why.
    For the most part, and with a few exceptions, state transportation 
agencies have shown little propensity for resolving this issue. In 
fact, only one state has taken advantage of the availability of Federal 
highway funding for building truck parking spaces--which has been 
available without a state matching requirement since 1995--to alleviate 
the parking shortage. In the hierarchy of priorities, and within the 
range of available staff expertise, the provision of truck parking 
ranks well below highway construction and maintenance. Therefore, 
public rest areas are often the victims of state budget cuts and 
highway funding shortfalls. Moreover, truck parking does not have a 
strong local constituency. In fact, the topic often stimulates much 
local antagonism. This is because state and local officials do not 
place a high priority on meeting the parking needs of long-haul truck 
drivers. This means not only that relatively few public resources are 
dedicated to truck parking, but also that private providers of truck 
parking often have to deal with a variety of government-imposed 
roadblocks whenever they attempt to expand the availability of truck 
parking. This can encompass anything from zoning regulations to 
requirements that truck stop owners pay for infrastructure improvements 
to accommodate the additional traffic.
    While it has been difficult to document the extent of the truck 
parking shortage, and the specific causes of a lack of capacity in 
certain areas, perhaps the best information comes from truck drivers 
themselves. A 2002 truck driver survey conducted for the Federal 
Highway Administration at the request of Congress revealed the 
following:

  <bullet> 11 percent of truck drivers surveyed frequently or almost 
        always find parking at rest areas.

  <bullet> 34 percent frequently or almost always find parking at truck 
        stops.

  <bullet> 89 percent sometimes, rarely or almost never find parking at 
        rest areas.

  <bullet> 66 percent sometimes, rarely or almost never find parking at 
        truck stops.

  <bullet> 33 percent park on entrance or exit ramps for long-term 
        rest.

  <bullet> 21 percent park illegally in parking lots for long-term 
        rest.

  <bullet> 11 percent park on highway shoulders for long-term rest. On 
        average, drivers who park in these locations do so two times 
        per week.

  <bullet> When asked why drivers park on ramps and shoulders, 94 
        percent gave ``no empty spaces at rest areas or truck stops'' 
        as a reason. A smaller number of drivers cited rest area time 
        limits, more convenient access, or a lesser likelihood of being 
        bothered by drug dealers and prostitutes as other reasons for 
        parking on a ramp or shoulder.

  <bullet> 79 percent of drivers preferred truck stops for extended 
        rest, while just 6 percent preferred rest areas.

  <bullet> The top five recommendations to improve the truck parking 
        situation identified by drivers were:

    1.  Build more truck stop spaces (79 percent)
    2.  Build more rest area spaces (66 percent)
    3.  Stop enforcement officers from waking drivers (57 percent)
    4.  Eliminate time limits on truck parking spaces (49 percent)
    5.  Improve parking layouts and configurations (46 percent)

    These results reflect other national and state studies of truck 
parking shortages. For example, a 1997 New York survey of truck drivers 
found that 80 percent were always, or often, unable to find parking at 
public rest areas. A recently released survey of truck drivers in Maine 
found that 79 percent of drivers parked on highway off-ramps or 
shoulders at some point; 42 percent on a daily or weekly basis. Most 
drivers said they parked at these locations because of a lack of 
convenient parking facilities. Interestingly, Maine truck drivers 
stated that relative to other Northeastern states, Maine did not have a 
chronic shortage of parking spaces. A 1999 Tennessee study found that 
on an average weeknight nearly 44 percent of the parked trucks were 
pulled over on ramps and shoulders.
    All studies on the truck parking shortage have made similar 
recommendations on how to resolve the problem, and they fall into the 
following general categories:

  <bullet> Federal funding for public and private parking facilities 
        where demand is greatest.

  <bullet> Improved lighting and security for parking facilities.

  <bullet> Geometric improvements to improve truck access and 
        throughput.

  <bullet> Opening up non-traditional facilities to trucks for long-
        term parking (e.g., weigh stations, commuter lots, warehouse 
        parking lots, etc.).

  <bullet> Better signage to increase awareness of private facilities.

  <bullet> Elimination of parking time restrictions on trucks.

    The recommended course of action described in this document is 
intended to address truck parking problems according to the best 
available research. The proposal is supported by the American Trucking 
Associations, the Commercial Vehicle Safety Alliance, NATSO 
(representing travel plaza and truck stop owners) and the Truckload 
Carriers Association.
Proposal
I. Objectives
 A. Identify the geographic locations and highway corridors where 
        availability of parking for drivers to stop and rest (both 
        short term and long term) is inadequate and the reasons 
        therefore.

 B. Increase availability of truck parking at existing truck stops and 
        public rest stops.

 C. Upgrade truck parking area security.

 D. Improve existing roadside signage system and develop real-time 
        communication system.

 E. Develop Intelligent Transportation System deployments that provide 
        drivers with real-time information on the location and 
        availability of parking spaces.
II. Solutions
 A. Identify the specific geographic locations and highway corridors 
        where the availability of parking for drivers to stop and rest 
        (both short term and long term) is currently inadequate and the 
        reasons therefore, and require future periodic comprehensive 
        surveys

 B. Open inspection and weigh stations, park-and-ride facilities to 
        truck parking during off-hours and non-peak periods of demand; 
        exempt trucks from enforcement actions at these sites to 
        encourage the use of the sites for parking by fatigued drivers.

 C. Provide tax credits and tax incentives to truck stop operators

 D. Provide tax credits and tax incentives for the develop of secure 
        24-hour access pickup and delivery ``truck staging'' facilities 
        in or adjacent to metropolitan areas

 E. Develop a communication system that will provide drivers with real-
        time information on the location and availability of parking 
        spaces, using cell telephones, radio frequencies, satellite-
        based text messaging systems and other avenues to broadcast 
        parking locations and their availability to drivers.

 F. Establish a non-profit quasi-governmental corporation, the 
        ``Parking Assistance Resource Corporation'' (PARC), for the 
        purpose of more efficiently and cost-effectively managing 
        Federal funding expended to increase the number and 
        availability of commercial truck parking in those areas with a 
        demonstrated shortage of spaces and/or other barriers to 
        adequate availability of long-term truck driver parking (4 or 
        more hours)

    1.  PARC's primary authority and responsibility would include: (1) 
            conducting periodic surveys to identify the location(s) of 
            truck parking shortages in the future and the reasons for 
            the shortage(s); (2) developing best practices and 
            recommended minimum design, security and lighting 
            requirements; (3) reviewing and prioritizing grant 
            applications from private enterprise and recommending grant 
            applications aimed at alleviating the shortage at specific 
            location(s) to the DOT Secretary for the Secretary's 
            approval; (4) identifying specific NHS corridors where 
            regional/multi-state strategies would be most effective and 
            encourage and facilitate cooperation among relevant 
            entities.

    2.  PARC would be funded with a grant from the Federal Highway 
            Administration with funds authorized by Congress. Proposed 
            funding levels are $5 million (2005); $8 million (2006); 
            $12 million (2007); 16 million (2008); $20 million (2009).

    3.  PARC would be governed by a Board of Directors comprised of 
            representatives from the following organizations: Federal 
            Motor Carrier Safety Administration, American Trucking 
            Associations (ATA), Truckload Carriers Association (TCA); 
            National Association of Truck Stop Operators (NATSO), 
            American Automobile Association (AAA), and Commercial 
            Vehicle Safety Alliance (CVSA).

 G. Expand the eligibility of the Surface Transportation Program to 
        allow 100 percent Federal funding for ``Safety Rest Areas'' on 
        the NHS, as defined in Title 23 U.S.C. Sec. 120(c). Safety rest 
        areas are already eligible under the NHS program. In addition, 
        add access routes, ramps and interchanges serving safety rest 
        areas, regardless of whether or not they provide commercial 
        services, to the list of projects eligible for 100 percent 
        Federal share under Sec. 120.

    Senator Sununu. Thank you, Mr. Duncan. Mr. Byrd, welcome.

    STATEMENT OF LaMONT BYRD, DIRECTOR, SAFETY AND HEALTH, 
             INTERNATIONAL BROTHERHOOD OF TEAMSTERS

    Mr. Byrd. Mr. Chairman, Members of the Committee, my name 
is LaMont Byrd. I'm Director of Safety and Health for the 
International Brotherhood of Teamsters.
    I'm pleased to appear here today on behalf of the hundreds 
of thousands of Teamster members who make their living driving 
on our Nation's roads. It's imperative to make their workplace 
as safe as possible, since it affects not only their safety, 
but the safety of the motoring public with whom they share the 
roads.
    Although there are a number of issues I'd like to discuss, 
in the interest of time I'll focus on just a few and 
respectfully request that my written testimony be included in 
the record.
    In April 2003, the Federal Motor Carrier Safety 
Administration issued a new hours-of-service regulation. 
Because the final rule is drastically different from the notice 
of proposed rulemaking, we're still analyzing how its 
implementation will impact on our membership. However, at this 
point, we do agree with the FMCSA's decision to increase the 
rest time each day, but we have serious concerns about how the 
new rule's increase in consecutive hours behind the wheel each 
day, and the 34-hour restart provision, will impact on our 
members. We feel that the latter two provisions are likely to 
increase fatigue and negate any safety benefit that the 
increase in rest time per day would provide. In our 
investigation into the driver-fatigue issue, we concluded that 
one of the primary problems contributing to driver fatigue is 
noncompliance with the hours-of-service rule.
    If a Teamster driver is instructed to take a trip that 
violates the hours-of-service rule, he can refuse and has a 
collective bargaining agreement and the union to back him up. A 
non-union driver obviously has no such protections, and, 
therefore, may feel pressured to violate the rule. For this 
reason, we have pushed for better enforcement of the current 
rule and more funding to carry out enforcement.
    The rule that the FMCSA has promulgated does little, if 
anything, to boost enforcement of the hours-of-service rule, 
and unless this Committee finds a way to do that, we will have 
accomplished little or nothing with respect to reducing fatigue 
and the number of traffic accidents that result from it.
    On a separate issue, the Transportation Security 
Administration recently issued an interim final rule requiring 
criminal-background checks for commercial motor vehicle drivers 
who currently possess or apply for a hazardous materials 
endorsement. For the most part, TSA borrowed the list of 
disqualifying offenses from the airline industry background 
check program. We've learned much from that initial program, 
including the need for waivers and appeals, which TSA has 
included. However, despite the appeal and waiver provisions, 
certain felony convictions do not necessarily point to 
potential terrorist behavior.
    I would like to recount a situation involving two Teamster 
members who are sisters and who work as flight attendants for 
Northwest Airlines. On a shopping trip to New York City, one of 
the sisters discovered some knock-off designer purses being 
sold on a street corner. Thinking that her friends back home 
would like to have some of these bags, she purchased several 
and mailed them back to her sister. Little did she suspect that 
this innocent act would lead to their felony convictions on 
interstate transportation of counterfeit goods. With no appeal 
process under the airline criminal background check program, 
both flight attendants face termination from jobs they've held 
for a combined 35 years. They are not terrorists, nor are they 
persons who should be suspect of committing terrorist acts. 
This situation should lead to changes in the airline 
background-check process and should serve as a warning for the 
hazardous materials endorsement check program.
    Another issue yet to be resolved is a requirement for 
criminal background checks for Mexican drivers who haul HAZMAT. 
To the best of my knowledge, the DOT has resolved the issue of 
criminal background checks for Canadian drivers hauling HAZMAT 
in the U.S. However, nothing has been reported on the status of 
criminal background checks for Mexican drivers.
    I need not remind the Committee that it was the Department 
of Transportation which insisted that all foreign-domiciled 
motor carriers are subject to all U.S. safety regulations. 
Therefore, Mexican drivers hauling HAZMAT must undergo a 
criminal background check.
    Furthermore, given that long-haul Mexican trucks may soon 
be traveling everywhere in the United States, a number of other 
issues brought out in the Inspector General's recent audit 
report need to be addressed. I won't go into them right now; 
rather, I ask that you review our written testimony.
    Finally, the Teamsters believe that some diabetics should 
be allowed to operate in interstate commerce, but current law 
prohibits them from doing so. In fact, current law only allows 
people who use insulin to operate a commercial motor vehicle in 
intrastate commerce on a waiver period not to exceed 3 years. 
Most Teamster members don't operate in intrastate commerce; 
they operate in interstate commerce. And, unfortunately, many 
of them have lost their jobs as a result of diabetes, 
irrespective of the facts that they have a proven safe driving 
record and their medical condition is under control.
    The Federal Motor Carriers Safety Administration has 
proposed an exemption program, but it does little to correct 
the problem. It would only permit people to participate in it 
if they participated in an intrastate waiver program for the 3 
years immediately preceding their application for an exemption.
    The Teamsters Union and the American Diabetes Association 
believe that the 3-year rule is unnecessary, based on the 
current practice of diabetes. This is a position that the 
Federal Motor Carrier Safety Administration's own expert 
medical panel pushed in both the FMCSA's July 2000 report, as 
well as in the expert medical panel's own additional comments, 
which were inserted in the public docket. We, therefore, urge 
the Committee to address this important issue in the upcoming 
TEA-21 reauthorization bill.
    With that, I, again, thank you for this opportunity to 
testify.
    [The prepared statement of Mr. Byrd follows:]

    Prepared Statement of LaMont Byrd, Director, Safety and Health, 
                 International Brotherhood of Teamsters
    Mr. Chairman and Members of the Committee:

    My name is LaMont Byrd and I am Director of Safety and Health for 
the International Brotherhood of Teamsters. Thank you for the 
opportunity to testify here today on behalf of our 1.4 million members 
on such an important issue: motor carrier safety.
    The Teamsters Union represents hundreds of thousands of workers who 
make their living driving on our Nation's roads, from interstate 
highways to city streets. It is imperative to make their workplace as 
safe as possible since it affects not only their safety but also the 
safety of the motoring public with whom they share the roads. With that 
said, there are a number of issues that I'd like to mention that are 
integral to improving and strengthening motor carrier safety and 
decreasing the growing number of accidents, injuries, and fatalities on 
our Nation's roads.
Hours of Service
    In April, the Federal Motor Carrier Safety Administration (FMCSA) 
issued new hours of service regulations that allow drivers to drive 11 
hours and work a total of 14 hours after 10 consecutive hours off-duty. 
Current law allows 10 hours of driving time within a 15-hour on-duty 
period after 8 hours of rest. The Teamsters have not had nearly 
sufficient time to develop an opinion on all aspects of the regulation, 
since the final rule is drastically different from the first Notice of 
Proposed Rulemaking the FMCSA issued. We would have preferred an 
opportunity to comment on the new rule before it was finalized. 
However, we do agree with the FMCSA's increase in the rest time for 
drivers. For some time, we have advocated the need for more rest time. 
Eight hours is not sufficient time for a driver to conduct personal 
business (such as eating, showering, and spending time with his/her 
family) and to get the necessary sleep. However, we cannot help but 
wonder what the FMCSA was thinking when it increased the consecutive 
number of hours behind the wheel for a driver, which essentially 
negates any benefits the increased rest time would provide. The fact is 
that by the Department of Transportation's (DOT) own estimates, 755 
fatalities and 19,705 injuries result from fatigued drivers each year 
on U.S. roads. Numerous fatigue studies show that after eight hours of 
driving time a driver's alertness significantly deteriorates. The U.S. 
military agrees. Twelve years ago, nearly 50 percent more soldiers died 
in accidents (235) than in battle (147). In the recent war in Iraq, 
there were only a third as many non-combat fatalities (36) as deaths in 
battle (101). The same pattern appears to hold for nonfatal injuries, 
with the data on evacuated Army troops showing that 107 had non-combat 
injuries, compared with 118 who had combat wounds. Col. Terry J. 
Walters, the physician who is chief of health policy in the office of 
the Army's surgeon general, attributed the steep drop in non-combat 
deaths and injuries, in part, due to the Army's efforts to improve 
driver safety and to ensure that soldiers were well-rested when 
operating vehicles. In the first Gulf War, motor vehicle accidents 
alone accounted for about half of all serious injuries.
    With that said, the Teamsters Union has concerns about the FMCSA's 
increase in consecutive hours of driving and will be looking carefully 
at the effect this will have on the safety of our members and the 
safety of the motoring public. In addition to our concerns with 
increasing the consecutive number of hours behind the wheel, the 
Teamsters has significant concerns with the 34-hour restart provision 
in the FMCSA's regulations. The cumulative effect of this allowance 
will significantly increase driving time and fatigue and has the 
potential of even eliminating Teamster jobs.
    Finally, it is important to point out that Teamster drivers and 
their companies are the safest on the road. We obey the rules. If by 
chance, a Teamster driver is asked to take a trip that violates the 
hours of service rule, he/she can refuse and has the union to back him 
up. For this reason we have pushed for years for better enforcement of 
the current rules and more funding to carry out enforcement. The rule 
that the FMCSA has put forward does little if anything to boost 
enforcement of the existing rules, which is the major problem with 
hours of service. Unless this Committee finds a way to do that, we will 
have accomplished nothing with respect to reducing fatigue and the 
number of traffic accidents that result from it.
Criminal Background Checks for Hazardous Materials Endorsement
    The Transportation Security Administration (TSA) recently issued an 
Interim Final Rule requiring criminal background checks for Commercial 
Motor Vehicle (CMV) drivers who currently possess or apply for a 
Hazardous Materials Endorsement in order to haul hazardous materials. 
The Teamsters Union intends to file comments to the Docket, but we want 
to make the Committee aware of several issues that may present problems 
for our members who may have committed some indiscretion in their past 
but have been rehabilitated, proved to be model citizens, and are 
productive members of their communities.
    For the most part, TSA has ``borrowed'' the list of disqualifying 
offenses from the airline industry background checks. We have learned 
much from that initial program, including the need for waivers and 
appeals, which TSA has included. TSA's notification process keeps the 
criminal history record check information out of the hands of 
employers, who have used this information to dismiss employees in the 
airline industry for offenses committed beyond the look-back period and 
outside the scope of disqualifying offenses. However, despite the 
appeal and waiver provisions, certain disqualifying felony convictions 
do not necessarily point to potential terrorist behavior.
    I would like to recount a situation involving two Teamster members 
who are sisters and work as flight attendants for Northwest Airlines. 
On a shopping trip to New York City, one of the sisters discovered some 
``knock off'' designer purses being sold on a street corner. Thinking 
that her friends back home would like to have some of these bags, she 
purchased several and mailed them back to her sister. Little did she 
suspect that that innocent act would lead to her and her sister's 
felony convictions on interstate transportation of counterfeit goods. 
With no appeal process under airline criminal background checks, both 
flight attendants face termination from jobs they have held for a 
combined 35 years. They are not terrorists nor are they persons who 
should be suspect of committing terrorist acts. This situation should 
lead to changes in the airline background check process and should 
serve as a warning for the hazmat endorsement check and background 
checks in other industries as well.
    The trucking industry has been a place where reformed, former 
criminals have found a place to work, and where rehabilitation programs 
have encouraged entry into the trucking profession. For that reason, we 
intend to question the seven-year look-back provision. Although it is 
an improvement over the ten-year look-back in the airline industry, it 
is somewhat arbitrary when one considers whether a person is truly 
rehabilitated after four years, five years or even three years, for 
that matter, of committing a criminal act.
    In addition, although TSA does not require a revocation of a hazmat 
endorsement based on an initial review (Initial Notification of Threat 
Assessment), the agency does notify the state that the individual may 
be within the prohibited category under the rulemaking, in which case 
the state may take whatever action it deems appropriate or do nothing 
until TSA issues its final determination. The Teamsters Union is 
concerned that a state could take immediate action and revoke a hazmat 
endorsement upon initial determination by TSA. And while there are 
specific time limits in the rulemaking for initiating the waiver and 
appeals processes by the individual, TSA fails to put any specific 
deadlines on its review processes. We could envision a state revoking 
or denying a hazmat endorsement for a driver upon initial 
determination, and have TSA take several months to get through the 
waiver or appeal process, only to finally determine that there is no 
threat posed by the individual (Final Notification of Threat 
Assessment). The driver could be adversely affected in not being able 
to work during this period. We should note for the Committee that all 
of the union Less-than-Truckload (LTL) carriers require their drivers 
to possess hazmat endorsements because they do not know from one day to 
the next whether part of a shipment may contain hazardous materials. So 
if a driver loses his hazmat endorsement, he loses his job, regardless 
of whether he still has his commercial drivers license (CDL). We also 
question whether the TSA has sufficient resources and personnel to 
address this issue, especially in light of recent reports that half of 
the 30,000 airport security screeners are still awaiting criminal 
background checks. We would remind the Committee that it is estimated 
that 3.5 million drivers currently possess a hazmat endorsement. For 
these reasons, we will also encourage the TSA to establish strict 
deadlines for their review processes.
    A final issue yet to be resolved is the requirement of criminal 
background checks for Mexican drivers who haul hazardous materials. The 
USA Patriot Act provided for such a requirement for U.S. drivers, and 
to the best of my knowledge the DOT has resolved the issue of criminal 
background checks for Canadian drivers hauling hazmat in the U.S. 
However, nothing has been reported on the status of criminal background 
checks for Mexican drivers. I need not remind the Committee that it was 
the DOT which insisted that all foreign domiciled motor carriers are 
subject to all U.S. safety regulations. Therefore, Mexican drivers 
hauling hazmat should and must undergo a criminal background check. 
Long-haul Mexican trucks will soon be traveling anywhere in the United 
States carrying chemicals, gasoline and other flammable liquids and 
gases. We need to know that terrorists will not find a more convenient 
way to infiltrate our hazardous materials industry.
Cross-Border Trucking
    As this Committee well knows, the Teamsters Union has opposed the 
opening of the border to Mexican trucks for travel beyond the currently 
permitted commercial zones because of the serious concerns we have for 
the condition and safety of Mexican trucks. Had not the Teamsters and 
other safety groups voiced their concerns dating back to 1995, when the 
trucking provisions were to be first implemented, we fear that many of 
the safety measures put into practice within the past several years 
would never have occurred. While some may label us as obstructionists 
to free trade, we believe we have provided a valuable service to the 
motoring public in assuring that highway safety in this country will 
not be compromised.
    With that said, the DOT's Inspector General just issued a Follow-Up 
Audit On The Implementation Of Commercial Vehicle Safety Requirements 
At The U.S.-Mexico Border. In it, the IG states that the FMCSA has made 
substantial progress in meeting the Murray-Shelby requirements 
incorporated in the past two Transportation and Related Agencies 
Appropriations Acts. However, there remain several areas of concern to 
us, and these, left uncorrected, could jeopardize the significant 
progress made to date.
    First, the IG reports that inspection facilities were sufficient at 
24 of the 25 commercial crossings. The Teamsters can only assume that 
these are temporary facilities because this statement seems 
inconsistent with facts later reported in the audit. Congress provided 
$66 million for the four border states to construct and develop 
permanent border inspection facilities. In Arizona, which received $2.1 
million, construction of a permanent inspection facility in Nogales has 
not been completed, and construction of a permanent inspection facility 
in Douglas is only in the planning phase. In California, which received 
$8.9 million, construction of an inspection facility in Tecate is only 
in the design phase. In New Mexico, which received $2.2 million, 
construction of a permanent inspection facility in Santa Teresa won't 
be completed until 2005. In Texas, which received $52.8 million, 
permanent facilities at seven key border crossings--Eagle Pass, El Paso 
Bridge of the Americas, Laredo Columbia, Los Indios, Pharr, and 
Veteran's Bridge, also won't be completed until 2005. In addition, 
plans to construct a facility at Laredo World Trade Bridge, one of the 
largest ports of entry at the U.S.-Mexico border, are on hold.
    The IG also reports that at two border crossings--Douglas and San 
Luis in Arizona--a portion of the dedicated out-of-service space was 
not being used because the General Services Administration had not 
completed improvements. In addition, at five border crossings--
Columbus, New Mexico and Eagle Pass, El Paso Bridge of Americas, Laredo 
World Trade Bridge, and Roma in Texas--the Bureau of Customs and Border 
Protection moved or planned to move FMCSA's dedicated inspection and 
out-of-service spaces. For example, at the El Paso Bridge of Americas, 
without coordinating with FMCSA, the Bureau of Customs and Border 
Protection inspectors notified the local supervisory inspector that 
within 4 days the dedicated inspection and out-of-service spaces would 
be moved to a less desirable location on the compound. Clearly, this is 
unacceptable.
    In addition, the IG reports that inspectors at 22 crossings could 
electronically access Mexican and U.S. databases to verify CDLs, 
license plates, authority to operate in the United States, and U.S. 
insurance coverage. There were problems at the other crossings, which I 
don't need to detail at this time. What's important to note here is 
that the IG states that it did not reverify the accuracy of the Mexican 
commercial driver's license and vehicle registration databases. The 
Teamsters pose a question to the Committee: Who cares about being able 
to access a database if the information in it may not be accurate? We 
would urge the Committee to investigate this further.
    We would also urge the Committee to look into how state and local 
law enforcement personnel will be able to access Mexico's databases. 
From what we can tell, he/she is expected to call an 800 number to 
access this information and to check if a Mexican driver has insurance 
or proper operating authority. We would suggest that such a system may 
prove to be a disincentive for state law enforcement officials to 
vigorously pursue violations by Mexican carriers and drivers.
    Along these same lines, we question how the state and local law 
enforcement personnel will determine whether a Mexican driver/carrier 
is in violation of U.S. cabotage laws. If, for example, a driver was 
pulled over for running a red light in Florida and he was supposed to 
be taking a load to Idaho from Mexico, would the state and local law 
enforcement personnel recognize the cabotage violation and know how to 
enforce it?
    Finally, the IG audit reports that 18 states, including the border 
state of New Mexico and the states of Nevada and New York, have not yet 
adopted FMCSA's rule authorizing their State inspectors to take action 
when they encounter a vehicle operating without authority. This finding 
leads us to question Secretary Mineta's November 20, 2002, 
certification that authorizing Mexican carrier operations throughout 
the U.S. does not pose an unacceptable safety risk. The fact is that 
State inspectors need to be able to place Mexican carriers operating 
without authority out of service. The IG states that the primary 
concern here is not necessarily the long-haul carriers whose authority 
will be checked every 90 days, but rather carriers authorized to 
operate only in the commercial zones that continue beyond the zones and 
do so illegally. As reported by the IG in 1999, at least 52 Mexican-
domiciled motor carriers operated improperly in 20 states beyond the 
four border state's commercial zones, and roadside inspection data 
throughout the U.S. has shown that this practice has continued. Two of 
the 20 states were Nevada and New York, both of which have not 
authorized their State inspectors to place Mexican carriers out of 
service.
Diabetes
    The Teamsters Union believes that some diabetics should be allowed 
to operate in interstate commerce but current law prohibits them from 
doing so. In fact, current law only allows people who use insulin to 
operate a Commercial Motor Vehicle (CMV) in intrastate commerce on a 
waiver for a period not to exceed 3 years. Most Teamster members don't 
operate in intrastate commerce. They operate in interstate commerce, 
and unfortunately many of them have lost their jobs as a result of 
diabetes, irrespective of the fact that they have a proven driving 
record and their medical condition under control. The FMCSA has 
proposed an exemption program, but it does little to correct the 
current problem. It would only permit people to participate in it if 
they have participated in an intrastate waiver program for the three 
years immediately preceding their application for an exemption.
    But according to the FMCSA, there are as many as 20 states that do 
not have an intrastate waiver program or severely restrict 
participation through grandfather provisions. Thus, to participate in 
the program, you have to live in a state that has an intrastate waiver 
program, meet the state's criteria for participation in the waiver 
program, work for an employer that has intrastate driving 
opportunities, and work for an employer who is willing to let you drive 
intrastate for three years. Obviously, the end result is that no one 
will actually be able to participate in this program.
    The Teamters Union and the American Diabetes Association believe 
that the three-year rule is unnecessary based on the current practice 
of diabetes, a position that FMCSA's own Expert Medical Panel pushed in 
both the FMCSA's July 2000 report as well as in the Expert Medical 
Panel's own additional comments which were inserted into the public 
docket. The Expert Medical Panel recommended a one or two month 
adjustment period, which the Teamsters would support following the 
doctor's advice and replacing the three-year rule with a one or two 
month adjustment period. We therefore urge this Committee to express 
their concern with the three-year rule and address this issue in the 
upcoming TEA-21 reauthorization bill.
Lack of Roadworthy Chassis
    The Teamsters Union currently represents several hundred port truck 
drivers and has been working to organize all of the approximately 
50,000 truck drivers who haul intermodal containers in ports located 
throughout the United States. These truck drivers suffer from 
deplorable wage and working conditions, and while I will not get into 
specifics about the cause of their plight, I do want to focus on the 
fact that they are forced every day to haul containers on unsafe, 
unroadworthy chassis, perpetuating a motor carrier safety problem that 
has existed for decades and has been largely ignored by the FMCSA.
    Although widely disregarded, these workers play an integral role in 
United States trade. United States' ports and the shipping industry 
form the foundation for international trade upon which the vitality of 
the free market economy depends. International trade experts reported 
that the global container trade rose from an estimated 83 million 
containers in 1990 to 198 million in 2000. And despite the economic 
downturn in 2001, the top 20 U.S. ports still experienced increases in 
container volume from the previous year. Experts predict that by 2010 
at least 90 percent of all freight carried by ocean carriers will be 
transported by intermodal containers. Consequently, profits for ocean 
carriers have increased steadily for the past three years.
    Unfortunately, the same cannot be said for port truck drivers. Port 
drivers are forced to spend an average of 3 hours per day, or 15 hours 
per week, in ports, all unpaid, waiting in various lines to pick up 
chassis and containers. Because of their economic plight and the fear 
of retaliation and blacklisting, they are forced to choose between 
hauling unsafe chassis or taking their place at the end of a new line, 
while the maintenance and repair shop makes the chassis barely 
roadworthy. Port drivers are forced to choose between hauling 
overweight containers or receiving no work as a result of their 
refusal. They are also forced to haul improperly labeled containers 
that often contain hazardous materials. Again, if the port driver 
complains, he or she is likely to suffer some form of retaliation.
    To correct this situation and assure that port drivers are given 
roadworthy chassis from the start, the Teamsters Union has joined with 
its union brothers on the docks, the ILA and ILWU, and the American 
Trucking Association, whose own member trucking companies have seen 
their safety ratings maligned, through no fault of their own, to 
support legislation that spells out who is responsible for inspection 
and repair of intermodal chassis and would require that equipment to 
comply with all commercial motor vehicle safety requirements before it 
is handed off to a port driver or trucking company. Mr. Chairman, motor 
carriers and drivers have been routinely cited and fined for violations 
of motor carrier safety regulations of chassis that they do not have an 
opportunity to systematically maintain. For the most part, rail 
carriers and foreign-owned steamship lines control the entire 
maintenance program for all 750,000 chassis under their management. 
Only those parties who control the equipment and have the opportunity 
and authority to maintain, repair and inspect that intermodal equipment 
should assume responsibility for the safety of that equipment.
    That is what we would propose in new legislation, and we are 
hopeful that you, Mr. Chairman, and members of the Committee will work 
with us to assure that the thousands of chassis with containers that 
leave the ports every day have been maintained properly, inspected, and 
repaired if necessary, so that highway safety is not compromised by 
this segment of the trucking industry.
Toll Collector Safety
    The Teamsters Union also represents hundreds of toll collectors and 
road crews across the United States who clearly work in hazardous 
conditions. These workers are exposed to fast-moving traffic with 
little or no protection. The DOT has addressed some of the safety 
issues involving road crews through its existing work zone safety 
program, although it is important to note that the DOT's SAFETEA bill 
doesn't seem to reauthorize it. We're hopeful that was an oversight and 
that this Committee will address it in its TEA-21 reauthorization bill. 
However, nothing has been done to deal with the safety issues that toll 
collectors must face at toll plazas, especially with regard to EZ Pass 
or Smart Tag programs that have gone into effect. While the Teamsters 
Union is in no way advocating elimination of these programs, we are 
requesting that the Committee include in its TEA-21 reauthorization 
bill a study that examines the inherent dangers of toll and express 
toll programs to workers and others.
15 Passenger Vans
    Despite mounting evidence that 15-passenger vans are inherently 
dangerous when driven by an untrained driver, and despite repeated 
Congressional mandates that the DOT take action to ensure that vehicles 
and their drivers meet Federal safety standards, the DOT has yet to 
issue a final rule requiring the application of all Federal Motor 
Carrier Safety Regulations (FMCSRs), including commercial drivers 
license CDL and drug and alcohol testing regulations, to these unsafe 
vans. Further, in proposed rules, the DOT has refused to require states 
to apply similar regulations to vans operating intrastate.
    Compounding this problem is the fact that many school districts 
across the country are transporting students in these dangerous 
vehicles, typically driven by an untrained teacher, coach or parent, to 
school and school-related activities. While Federal law prohibits the 
sale of these and other vehicles that do not conform to Federal school 
bus standards, for the purpose of transporting school children, the law 
does not prohibit schools from using the vehicles when they are able to 
obtain them through other means. Schools are taking advantage of this 
loophole and, in an effort to save money, are using 15-passenger vans 
in lieu of school buses--often with fatal results.
    To explain, Section 4008(a) of TEA-21 changed the definition of 
commercial motor vehicle to cover all passenger vehicles that are 
designed or used to transport more than 8 passengers (including the 
driver) for compensation. In addition, TEA-21 required that all FMCSRs 
apply to those commercial motor vehicles, except to the extent that the 
Secretary of Transportation determines through a rulemaking proceeding, 
that it is appropriate to exempt such operators of CMVs designed or 
used to transport between 9 and 15 passengers (including the driver) 
from the application of those regulations.
    In response to the changes made in TEA-21, the Federal Highway 
Administration (FHWA) instituted a rulemaking which would have required 
all CMVs designed or used to transport between 9 and 15 passengers 
(including the driver) to file a motor carrier identification report, 
mark their CMVs with a U.S. DOT identification number, and maintain an 
accident register. Under the proposed rule, these commercial passenger 
vans would be exempt from all other FMCSRs. This rulemaking was never 
finalized.
    Congress, in response to DOT's failure to implement the changes 
required by TEA-21, enacted the Motor Carrier Safety Improvement Act of 
1999 (MCSIA), which, among other things, ordered the DOT to finalize 
the rulemaking initiated by FHWA. In addition, MCSIA stated that ``[i]n 
no case should the rulemaking exempt from such regulations all motor 
carriers operating commercial vehicles designed or used to transport 
between 9 and 15 passengers (including the driver) for compensation.''
    Although TEA 21 required the rulemaking to be finalized by December 
9, 2000, the DOT has yet to finalize the proposed rule in accordance 
with the requirements of TEA-21 and MCSIA. The newly-created FMCSA did 
initiate a new rulemaking on January 11, 2001, which proposes requiring 
certain CMVs designed to transport between 9 and 15 passengers 
(including the driver) that transport those passengers for direct 
compensation, interstate and to destinations beyond a radius of 75 
miles to comply with the FMCSRs, except for the CDL and drug and 
alcohol testing regulations. FMCSA has not taken any further action on 
this proposed rule. At present, the FMCSRs apply to commercial motor 
vehicles designed or used to transport 16 or more passengers (including 
the driver).
    Congress should require FMCSA to finalize its rulemaking 
expeditiously, and should require the application of all FMCSRs, 
including CDL and drug and alcohol testing regulations, to commercial 
passenger vehicles designed or used to transport between 9 and 15 
passengers (including the driver), regardless of the distance traveled. 
FMCSA should also be required to make the states adopt comparable 
intrastate standards as a condition of MCSAP participation.
Hazardous Materials Reauthorization
    Finally, the International Brotherhood of Teamsters is committed to 
supporting legislation that will provide a safe work environment for 
its members who are involved in the handling and transportation of 
hazardous materials. As Congress prepares for reauthorization of TEA-
21, we anticipate that the Committee may also consider reauthorization 
of the Hazardous Materials Transportation Program, which in our view is 
long overdue.
    Given the limited amount of time at this hearing, we won't go into 
detail on our priorities for hazmat reauthorization. Rather, we 
encourage the Committee to hold a separate hearing on this important 
issue. In the interim, we leave you with the following:

  <bullet> The Teamsters support the existing shared jurisdiction of 
        the Department of Transportation and the Occupational Safety 
        and Health Administration to ensure safety of all hazmat 
        workers.

  <bullet> We urge all employees involved in, or around, the 
        transportation of hazardous materials be included within the 
        scope of DOT training requirements to assure their 
        familiarization with the safety aspects of the HMR rules.

  <bullet> We urge the Committee to maintain and increase funding to 
        non-profit employee organizations to train hazmat employee 
        instructors, and to expand that program to allow those 
        instructors to train rank-and-file hazmat employees. We also 
        urge the Committee to increase funding for training 
        firefighters and other emergency responders.

  <bullet> We urge the Committee to reject any proposals to remove 
        placards from hazmat shipments.

  <bullet> We urge the Committee to retain existing language that 
        requires the Secretary of Transportation to coordinate with the 
        Director of the National Institute for Environmental Health 
        Sciences (NIEHS) and others to monitor public sector emergency 
        response planning and training for accidents/incidents 
        involving hazardous materials.

  <bullet> We oppose any special interest exemptions from hazardous 
        materials transportation safety regulations, including any 
        efforts to increase the special permitting period above two 
        years.

    With that, I thank you again for the opportunity to testify today. 
I'd be happy to answer any questions you may have.

    Senator Sununu. Thank you, Mr. Byrd.
    Ms. Claybrook?

          STATEMENT OF JOAN B. CLAYBROOK, PRESIDENT, 
                         PUBLIC CITIZEN

    Ms. Claybrook. Thank you very much, Mr. Chairman.
    I am here testifying today on behalf of Public Citizen, of 
which I am the President, Citizens for Reliable and Safe 
Highways, Parents Against Tired Truckers, and Advocates for 
Highway and Auto Safety. I'm an efficiency expert testifying 
for all of them.
    Several years ago, this Subcommittee held hearings on 
truck-safety programs, and Senator Breaux held up a list of 
more than 20 actions mandated by Congress that the agency had 
ignored. The Administrator Clapp, at the time, stated that the 
agency was preparing a manual on how to do these regulations. 
Senator Breaux admonished the Administrator and told him he 
should ``hammer and break some china'' to get the attention of 
the agency staff.
    I'm here to report today that no china has been broken, and 
not much has been scratched. I do hope, however, that 
Administrator Sandberg will carry out the commitment that she's 
made to this Committee to move these.
    But the agency has long been unresponsive to Congressional 
mandates, and last fall Public Citizen and some other safety 
groups decided to take seriously the Congressional mandates and 
sued the agency on five rules that had never been issued that 
the Congress had mandated. And the agency immediately settled 
that lawsuit. And attached to my full testimony are some 
specific commands that Congress made, and 20 of which are still 
delinquent. This is unacceptable, and we hope that the 
Committee will exercise great oversight over this agency, as a 
result.
    The annual death toll from truck crashes is equivalent to 
26 major airline crashes a year. They cost $24 billion a year. 
Trucks are over-involved in crashes. And while there's been a 
recent reduction in deaths and injuries from truck crashes, a 
small amount, driver deaths in 2002 actually went up 1.2 
percent. The Department of Transportation set a goal of 50 
percent reduction in deaths within 10 years. This was in 1999. 
That's what they would have to achieve, that yellow line, in 
order to do that. And, as a result, they changed their goal so 
that instead of having to have a reduction of 50 percent, they 
recently set a reduction to 1.65 million truck miles traveled 
by 2008, in order to lessen the burden that they had originally 
undertaken.
    The agency has requested a 20 percent increase in their 
authorization budget for years 2004 to 2009. While our 
organization supports increased funding for truck safety 
programs, we're not sure the agency knows how to spend it 
effectively without strong direction, specified goals, and 
sustained goading by the Congress.
    Our legislative proposal is extensively outlined in my 
statement that I'm submitting for the record. Without specific 
provisions requiring the agency to take action, it's unlikely 
there will be much progress.
    Let me briefly describe the highlights of our proposals.
    First, bigger trucks. Safety groups oppose any increase in 
truck size and weight, any proposal to give individual states 
the option to set weight limits on the national highway system, 
and any attempt to repeal or thaw the LCV freeze enacted in 
1991. This has been one of the most successful safety laws ever 
passed by Congress--and I acknowledge Senator Lautenberg's 
important role in leading that--and it should be retained.
    Triple trailers and longer doubles are not suited for many 
U.S. highways--I would say New Hampshire is a great example of 
highways for which they are not suited--and are dangerous in 
many driving circumstances and are hated by the driving public. 
A recent Transportation Research Board report attempting to 
rationalize bigger, heavier trucks is deeply flawed, as I 
explain in my full statement.
    The hours-of-service rule. Current hours-of-service 
requirements are often characterized as sweatshop labor. The 
new rule by the Federal Motor Carrier Safety Administration, 
just issued in late April, is slave labor. Under the new rule, 
scheduled to take effect shortly, a truck driver, in 4 weeks, 
could drive as many as 308 hours. Compare this to the normal 40 
hour work week for the majority of Americans, of 160 hours. 
Overall, the rule increases driving time by over 20 percent and 
from 10 to 11 hours of continuous driving. This increase was 
adopted despite overwhelming evidence that the risk of crash 
soars between the tenth and eleventh hour of driving. And 
without enforcement, such as a requirement for onboard 
recorders, a key provision dropped in the final rule, trucking 
companies and shippers will continue to abuse drivers and force 
them to violate even the new rule, with paper records.
    HAZMAT transportation. The agency is lax, even after 9/11. 
There are serious loopholes and regulatory gaps that would 
facilitate an intentional or unintentional incident. There is a 
lack of critical coordination between two DOT agencies who 
share responsibility for MCSA and RSPA, the Research and 
Special Programs Administration, which registers carriers to 
haul HAZMAT. For example, a motor carrier wishing to carry 
HAZMAT need only register with RSPA and pay a $300 annual fee. 
That's it. It's a paper action. Neither the carrier, nor RSPA, 
informed FMCSA about the authorization to carry HAZMAT, and 
RSPA has proposed some new standards, but there is no plan for 
implementation with FMCSA as to Mexican and Canadian trucks.
    Before being authorized to carry HAZMAT, a carrier should 
have to pass a safety audit and proficiency exam, and HAZMAT 
trucks should be governed by the Global Positioning System 
technology to permit real-time tracking. In addition, FMCSA has 
failed to meet a congressional directive to require commercial 
driver's licenses to contain some form of unique identifier, as 
Congress has twice directed. This in one of the rules 
challenged in our lawsuit, and they will now be issuing this 
rule.
    FMCSA is derelict in overseeing the safety of trucking 
companies. Their negligence in monitoring and evaluating the 
safety fitness of motor carrier companies would never be 
tolerated in aviation safety, the sister agency of FMCSA. There 
is no other word but ``appalling'' to describe how unsafe motor 
carrier companies enter business, and this agency sits back and 
does nothing.
    We strongly support a program targeted at new motor carrier 
entrants--and I note that Ms. Sandberg mentioned some of 
those--and have proposed steps that the agency take to 
implement the program. Only in this way can we address the 
backlog of unrated motor carriers and stop unscrupulous 
companies from jeopardizing the safety of families on our 
roads. Yet FMCSA continues to initiate experimental pilot 
programs at the expense of safety, ignoring legislative 
directives, while undertaking costly and questionable programs.
    Just this week, it finally conceded to discontinue a 
proposal the agency had initiated for a pilot program to lower 
the age of interstate truck drivers from 21 to 18--20 drivers 
who are documented to be heavily overinvolved in crashes.
    Defects in the current commercial driver license program 
permit abuses. No training or prior certification of any kind 
are required to obtain a CDL for either truck or bus drivers in 
interstate commerce, and no CDL is even required of truck 
drivers of 10,000- to 26,000-pound trucks.
    FMCSA also recently watered down its rule, disqualifying a 
CDL holder for offenses committed while operating either a 
commercial or noncommercial vehicle, to apply only if the 
violations resulted in suspension or revocation of the license, 
rather than conviction of various offenses. We urge the 
Congress to clarify the authority here.
    Truck crash data collection is inadequate--and I will 
quickly finish my statement, Mr. Chairman--due to a lack of 
uniformity. And FMCSA and NHTSA were urged, in 1999, in the 
statute, to improve the collection and uniformity, and it 
hasn't happened yet. Many truck and bus issues at the Mexican 
border remain unresolved, most particularly the failure to 
require adequate safety audits of Mexico-domiciled carriers 
that operate just within the 20 mile zone.
    Programs like Share the Road, which is supported by the 
administration, need to be reformed or terminated. This program 
is essentially a blame-the-driver program. It essentially says 
that car drivers should stay out of the way of trucks. And 
that's called the No Zone program. You can't be on either side 
or in the rear of a truck. I don't know how you drive on most 
highways in America and obey that rule. This has been subject 
to two GAO investigations. It's a waste of taxpayer money. And 
the only hope is that NHTSA, which is involved with car 
drivers, as opposed to truck drivers, would be designed to 
implement this program. If it fails to reduce deaths and 
injuries, it should be sunset and the funds put into more 
effective programs.
    I doubt, if the airlines were causing crashes and deaths of 
small-plane operators, the equivalent of trucks to cars, the 
FAA would solve the problem with an education program that 
shielded the airlines. This is exactly what this program is 
doing. And the MCSAP money should not be used to support it.
    Finally, I'd like to comment on the Truck Advisory 
Committee, which was mentioned. I think that this is, once 
again, another program that should be--not be recreated. In a 
prior incarnation, it engaged in misbehavior and was 
eliminated. The Committee is a waste of money, because it's 
intended, really, just to give trucking officials an inside 
track on the agency's actions. And even though safety is 
spelled out in the agency statute as its top priority, only one 
safety group is represented, among 20 trucking members or 
associated--trucking related in the last Committee.
    Mr. Chairman, we will submit, for the record, further 
comments on the specific requirements of the Administration's 
proposals and suggestions for other matters.
    Thank you.
    [The prepared statement of Ms. Claybrook follows:]

  Prepared Statement of Joan B. Claybrook, President, Public Citizen, 
 on Behalf of Public Citizen, Citizens for Reliable and Safe Highways 
(CRASH), Parents Against Tired Truckers, and Advocates for Highway and 
                              Auto Safety
    Thank you, Mr. Chairman and members of the Senate Commerce 
Subcommittee on Surface Transportation and Merchant Marines for the 
opportunity to testify on the issue of improved motor carrier safety. 
My name is Joan Claybrook and I am President of Public Citizen and 
Chair of CRASH (Citizens for Reliable and Safe Highways). I am here 
today representing the truck safety views of Public Citizen as well as 
Advocates for Highway and Auto Safety (Advocates) and the Truck Safety 
Coalition, a partnership of CRASH and P.A.T.T. (Parents Against Tired 
Truckers).
    Each year, almost 5,000 people are killed in truck-related crashes 
and about 130,000 more are injured. These statistics have been 
essentially steady for nearly a decade. The large number of truck-
related deaths and injuries also carries an enormous personal and 
financial price tag. According to the U.S. Department of Transportation 
(DOT), the costs of large truck crashes in 1997 exceeded $24 billion.
    Congress addressed this serious public health problem in 1999 by 
enacting legislation, the Motor Carrier Safety Improvement Act of 1999 
(MCSIA), Pub. L.106-159 (Dec. 9, 1999), creating a new agency, the 
Federal Motor Carrier Safety Administration (FMCSA), with the clear, 
specific mission to make safety its top priority.
    Despite repeated promises by FMCSA to significantly reduce truck-
related deaths and injuries on our highways and chart an improved 
course to enhance motor carrier safety, and despite increases in 
funding and resources for the new government agency, the traveling 
public remains the victim of an underachieving, and at times, 
indifferent agency. The annual death toll from truck-related crashes is 
the equivalent of 26 major airplane crashes every year. FMCSA adopted a 
goal in 1999 to reduce truck deaths and injuries by 50 percent over 10 
years. That goal will not be achieved.
    More recently, as stated in the U.S. Department of Transportation 
Performance Plan for Fiscal Year 2004, the agency has adopted a new 
goal of also reducing the rate of truck crash fatalities from the 
baseline of 2.8 deaths per 100 million truck miles traveled (MTMT) in 
1996 to no more than 1.65 deaths per 100 MTMT in 2008. While we regard 
this as an admirable--and extraordinarily difficult goal--to be 
achieved in only a few years given the most recent rate of 2.4 deaths 
per 100 MTMT, there are serious questions about the intent of the 
Department and the FMCSA is choosing this new safety goal. Our concern 
is the fact that, under the right circumstances, given rapid growth in 
truck mileage accrued on an annual basis over the next several years, 
the rate of truck deaths using this exposure measure could continue to 
decline, even if only slightly, while the number of actual fatalities 
could increase. We believe that the Department and the FMCSA need to 
reach both fatality reduction goals, as well as to make sure that they 
are compatible, but certainly not to abandon the target of dramatically 
reduced numbers of truck-crash related deaths in favor of only a better 
death rate as the achievement of its safety policies. This approach 
could be used to mask the fact that more people really died in a given 
year than in the prior year even though the rate of deaths was slightly 
better. NHTSA measures and publicizes both qualities.
    No one in Congress, government, industry or the general public 
would ever accept as a reasonable goal 26 air plane crashes a year that 
are finally cut only in half after 10 years and no one would accept 
excuses from the airlines that the skies are safer for passengers who 
fly because, even though more people died each year, the rate of deaths 
per air mile of travel decreased. The attached chart shows that FMCSA 
has yet to reach any annual benchmarks that would indicate the agency 
has made progress and is on the right course. There have been only 
marginal decreases in truck deaths in the last three years, the 
fatality rate is essentially static, and there are additional, 
worrisome increases in truck crash injuries. I want to stress that it 
is especially disturbing that the slight decline in overall deaths in 
truck-related crash involvements has been offset, according to the 
National Highway Traffic Safety Administration's early Fatal Analysis 
Reporting System assessment, by an increase in the fatalities of truck 
occupants in these collisions from 704 deaths in 2001 to a preliminary 
figure of 712 deaths in 2002, an increase of 1.2 percent.
    Yet FMCSA delays or disregards congressional mandates for long-
overdue and vital safety rulemakings. Unsafe motor carrier companies 
and drivers continue to violate safety rules and threaten the safety of 
the traveling public yet are insulated from effective Federal oversight 
by FMCSA's failures to act. Attached to my testimony is a list of 
safety actions mandated by Congress since 1988 that FMCSA has ignored, 
delayed or deferred. Public Citizen filed suit against the agency last 
fall for not implementing five rulemaking actions. The agency 
immediately settled the suit, agreeing to act on all of them with final 
rules by June 2004. However, this list contains over twenty other 
congressional directives that have not been completed by the agency.
    Two years ago, the FMCSA was prepared to give the green light to 
opening the southern border to trucks and buses from Mexico without 
adequate safety measures in place. It took the direct intervention of 
Congress to mandate common sense actions by the agency such as safety 
inspections at proper facilities with trained professionals. Meanwhile, 
some sectors of the trucking industry already are pursuing an agenda to 
increase truck size and weight, to repeal the congressionally-enacted 
freeze on longer combination vehicles, and seek exemptions from Federal 
safety rules under the ruse of so-called ``pilot programs.'' Moreover, 
the agency's failure to take concerted action to improve truck safety 
is at odds with public opinion. The American public is very supportive 
of measures to improve truck safety both in their opinions and their 
pocketbooks. When asked in a Lou Harris public opinion poll in 1996 
about truck safety, 81 percent of the respondents said they would be 
willing to pay more for goods if it meant an increase in truck safety.
    Three and one-half years after bipartisan enactment of the 1999 
MCSIA, and prior to taking up the reauthorization of the Transportation 
Equity Act for the 21st Century (TEA-21), it is time to review with a 
critical eye the progress and problems related to motor carrier safety 
to assess what improvements are needed to protect public safety.
Increasing Truck Size and Weight Will Imperil Public Safety
    Safety groups have reviewed the Regulation of Weights, Lengths, and 
Widths of Commercial Motor Vehicles, Special Report No. 267, 
Transportation Research Board (TRB) (2002), the latest effort to 
rationalize bigger, heavier trucks on American roads. Every TRB special 
report on truck size and weight policy over the past 16 years has 
supported changes to increase the weights, lengths, and widths of large 
combination trucks--it appears that TRB has never seen a bigger truck 
it didn't like.
    I would like to point out here to the members of the Committee that 
no explicit truck safety experts who are known to oppose increased 
truck sizes and weights were part of the TRB eight-person committee 
membership producing the Special Report. Also, of the eight outside 
reviewers, we know that at least four are all supportive of larger, 
heavier trucks. Although Advocates, CRASH, and other truck safety 
organizations have expertise and knowledge about truck size and weight 
safety issues and policy, none was invited to sit on the Committee or 
to perform an outside review of the draft of the Special Report.
    On the merits, the Special Report is seriously flawed in several 
major respects. The TRB Special Report states that there is no 
confirming information that the larger, heavier truck configurations 
that it champions are actually safer, would inflict less damage on 
highways and bridges, or would even ultimately result in fewer heavier 
and larger trucks on U.S. roads. Although the TRB Special Report 
supports two specific configurations as the larger, heavier commercial 
vehicles of choice for widespread use--a 90,000 pounds or heavier 
tridem axle-based six-axle semi-trailer combination truck and a 111,000 
pounds eight-axle tridem axle-based ``B Train'' doubles combination 
composed of twin 33-feet long trailing units--there are no specific 
arguments anywhere in the study detailing exactly why these 
configurations are better than the others reviewed in the report. In 
fact, the Special Report clearly cannot demonstrate any superior safety 
benefits of its two favored combination truck configurations. Also, the 
TRB Special Report effectively undermines any possible rationale for 
supporting these combinations by pointing out that virtually nothing is 
known about the relationship between specific design configurations, 
crash risk, and truck handling and stability for these larger trucks.
    With regard to the increased cost of operating heavier trucks, the 
Special Report argues that the infrastructure and externality costs 
that increase as a result of allowing larger and heavier trucks should 
be fully recaptured through adjustments in user fee equity scales, but, 
at the same time, the TRB committee indicates that recovery of only the 
costs of administering a permit system and of infrastructure damage is 
acceptable. The Special Report fails to acknowledge the reality that 
user fee equity has escaped policymakers for over 40 years, that the 
current Federal user fee for heavy vehicles has been capped at $550 per 
vehicle for 20 years, that the heaviest class of registered trucks 
dramatically underpays its fair share of user costs, and that the 
trucking industry has consistently and successfully opposed increases 
in user fees to offset the actual damage caused by large trucks.
    The Special Report also engages the chronic issue of illegally 
overweight trucks yet fails to acknowledge how pervasive and entrenched 
these violations are, and the extent to which, under current state 
enforcement regimes, the continuation of these violations by major 
sectors of the trucking industry are a large part of the profitability 
of these enterprises. Amazingly, the FMCSA has not complied with the 
law and issued the annual report on certification of size and weight 
compliance since 1988.\1\
---------------------------------------------------------------------------
    \1\ The evidence of chronic overweight violations, including 
violations by large trucks of the lower posted weight limits on many 
thousands of U.S. bridges, is well-known. However, official Federal 
government acknowledgement and documentation of these overweight 
violations ceased with the last report on state compliance with its 
Federal and state weight limits in March 1991. Overweight Vehicles--
Penalties and Permits: An inventory of State Practices for Fiscal Year 
1989, FHWA-MC-91-003. Following issuance of this report, former 
Secretary Rodney Slater suspended preparation and transmission of these 
reports. Although annual reports to Congress are required on state 
certifications of compliance with Federal and state motor vehicle 
weight limits, no reports have been sent to Congress for 12 years. See 
Section 123, Surface Transportation Assistance Act of 1978, P.L. 95-599 
(Nov. 6, 1978).
---------------------------------------------------------------------------
    Finally, the TRB Special Report recommends a scheme for 
administering truck size and weight issues that is deeply flawed and 
would be dominated by interests supporting larger, heavier trucks 
regardless of the costs or safety consequences. The TRB Special Report 
recommends eliminating direct Congressional involvement in establishing 
nationally uniform size and weight limits, and the establishment of a 
new bureaucracy, the Commercial Traffic Effects Institute, to evaluate 
requests by states and the trucking industry for a variety of larger 
and heavier truck configurations. Funded by a mixture of highway trust 
fund and trucking industry monies, the Institute, the states, and the 
trucking industry would jointly develop standards implemented by the 
states to improve the safety of vehicles operating under the permit 
system.
    The effect of the TRB committee's proposals would turn back the 
clock to a pre-1956 era of control by the states of interstate 
commercial transportation, and the elimination of a meaningful 
Congressional role in establishing and guaranteeing the Federal 
interest in national size and weight limits. This is a recommendation 
for a fragmented state-by-state regime of truck size and weight limits 
susceptible to inordinate influence and manipulation by trucking 
industry interests and lobbying efforts. It essentially privatizes 
responsibility for public safety.
    These brief observations do not exhaust the full extent of the 
defects in this study. As an indication of the scientific weakness of 
the study, the Special Report recommends that trucks found after 
protracted operational experience to have shortcomings, including 
safety deficiencies, be withdrawn from service. This recommendation, 
however, is a further indication of the lack of credibility of the 
Special Report since no known truck configuration placed into service 
has ever been withdrawn from use, including some of the most unstable 
combinations, such as triple-trailer combinations composed of three 
short trailing units on single axles. Currently, 16 states allow 
triples and no state that has allowed their operation has banned 
them.\2\
---------------------------------------------------------------------------
    \2\ The 16 states are: Oregon, Idaho, Montana, North Dakota, South 
Dakota, Nevada, Utah, Colorado, Arizona, Nebraska, Kansas, Oklahoma, 
Missouri, Indiana, Ohio, and Alaska.
---------------------------------------------------------------------------
    Safety groups are also concerned about possible attempts to void 
the Longer Combination Vehicle (LCV) freeze that was enacted in the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA). This 
was a hard-won victory that stopped the spread of giant triple-trailer 
rigs and other immense, extra-heavy vehicles throughout the U.S., 
trucks that would surely have had catastrophic crashes resulting in 
loss of life and massive congestion, especially in regions of the U.S. 
that have denser traffic and older road designs. The LCV freeze also 
stopped the accelerated destruction of our roads and bridges at a rate 
that no Federal funding provisions in authorizing legislation could 
have kept pace with.
    The ISTEA LCV freeze was a bold, courageous move by Congress to 
limit the excesses of highway truck size. It saved lives and it helped 
to preserve our highways and bridges. It was a good idea 11 years ago, 
and it is a good idea today. At a time when there is little progress in 
decreasing truck crash deaths and injuries, we urge Congress not to 
increase truck size and weights, or to repeal or weaken the LCV freeze.
    The public remains steadfast in its opposition to bigger, heavier, 
and larger trucks as evidenced in Advocates for Highway and Auto 
Safety's public opinion poll conducted by Lou Harris in 1996. By 88 
percent to 7 percent, a majority of the American public is opposed to 
allowing bigger and heavier trucks on our highways.

        Recommended Actions:

        Oppose any increase in Federal truck size and weights on a 
        national level and oppose legislation allowing any individual 
        state exemptions.

        Oppose repeal of the congressionally mandated freeze on longer 
        combination vehicles enacted by Congress in 1991.
Many Truck and Bus Safety Issues at the Southern U.S. Border Are Still 
        Unresolved
    The safety of vehicles entering the U.S. presents special 
difficulties from the standpoint of both operating safety and security. 
Although some progress may have been made on issues that Congress 
directed DOT to address, other important safety concerns remain 
unresolved.
    Several safety organizations called on FMCSA to require border-
zone-only safety audits as a condition for Mexico-domiciled carriers to 
operate in the commercial zones. The agency rejected this 
recommendation in its March 19, 2002, final rule. This means that 
operating authority for Mexico-domiciled border-zone-only carriers will 
be awarded solely on the basis of paper applications, including 
certifications that are not independently corroborated, and on 
unverified documents submitted with the applications, such as the 
previous 12-month accident registers and the names of allegedly 
certified laboratories for testing drivers for alcohol and drug use. 
Two years ago, Congress rejected this approach to screening Mexico-
domiciled carriers seeking to operate throughout the U.S. For both 
safety and security reasons, border zone Mexican motor carriers should 
also undergo a more rigorous evaluation.
    In addition, although FMCSA asserts that it will evaluate written 
safety oversight policies and practices used by Mexico-domiciled motor 
carriers, the agency does not actually require that any safety 
management controls used by a company to comply with U.S. Federal Motor 
Carrier Safety Regulations (FMCSRs) and the Hazardous Materials 
Regulations (HMRs) be in writing. Mexico-domiciled carriers should be 
required to have written safety management criteria representing how 
their companies will operate to comply with U.S. requirements. This is 
particularly important if the agency continues to refuse to require a 
threshold safety proficiency examination of motor carriers.
    The Administration has repeatedly stated and testified before 
Congress that all Mexican trucks and buses that enter the U.S. and 
operate on American roads must meet U.S. safety standards. 
Unfortunately, most Mexican trucks and buses were not built to U.S. 
standards. DOT, however, intends to turn a blind eye to this problem 
for two more years.
    Federal law requires that all vehicles, including those operated in 
the U.S. by foreign nationals to conduct trade, must be certified by 
the manufacturer as built in compliance with U.S. safety standards. 
Certification of compliance with the Federal Motor Vehicle Safety 
Standards (FMVSS) applicable at the time of manufacture is not just a 
mere technicality, but an important safety protection. A number of 
major safety regulations have been adopted and implemented by the 
National Highway Traffic Safety Administration (NHTSA) since the late 
1980s such as anti-lock brakes for trucks and buses, automatic brake 
(slack) adjusters, a requirement for rear underride guards, and, among 
other things, safer emergency exits for buses.
    According to unverified information from Mexican vehicle 
manufacturers, an unspecified portion of the trucks and buses built in 
Mexico since 1994 meet U.S. standards. However, even the vehicles built 
to U.S. standards were not certified as such by the manufacturers. 
Thus, less (possibly far less) than one-third of the Mexican trucks and 
buses currently operating on Mexico's Federal roads were built to U.S. 
standards, and DOT does not know how many or which trucks and buses 
were, in fact, built to U.S. safety standards. Moreover, Mexico did not 
have any vehicle safety standards until recently, or any requirement 
that manufacturers certify compliance with any vehicle safety 
standards. Thus, for Mexican-built trucks and buses, there are no 
labels or certification verifying compliance with U.S. standards. 
Canada has its own certification requirement, but this is to Canadian, 
not U.S., safety standards. While Canada's standards for new vehicles 
are similar to U.S. standards in many respects, they are not identical. 
Even those Canadian standards that mimic U.S. standards may have been 
adopted years after they were required in U.S. safety standards.
    The FMCSA has proposed a two-year ``grace period'' for these 
vehicles. The agency intends to grant blanket permission to vehicles 
that have previously crossed the border to continue operating in the 
U.S. for another two years, regardless of whether they were or could be 
certified as having been built in compliance with U.S. safety 
standards. This means that unsafe vehicles that previously entered the 
U.S. in violation of U.S. law, or that begin to enter the U.S. prior to 
the issuance of the final rule, will be able to do so for another two 
years. The FMCSA is prepared to adopt this final rule even though it 
has no authority to rewrite the safety certification laws passed by 
Congress.
    In addition, there is no system to verify that Mexico-domiciled 
carriers entering the country are properly insured by a U.S.-licensed 
insurer in order to protect against liability for personal injuries and 
the costs of crash and environmental clean-up in the event of a hazmat 
spill.
    Finally, DOT has no effective plan to assure that Mexican-domiciled 
carriers adhere to U.S. hours-of-service (HOS) regulations when they 
enter the U.S. Although Mexican drivers may have been behind the wheel 
8, 10, or even more hours when arriving at the border, FMCSA has no 
practical means of determining at the border whether these drivers have 
violated Mexican labor regulation restrictions on working time. At the 
very least, drivers arriving at the U.S. border who already meet or 
exceed the HOS 10-hour duty limit should be placed out-of-service for 
the required 8 hours off-duty time period. These sleep-deprived, 
fatigued drivers are a threat both to their own safety as well as to 
everyone that shares U.S. roads with them. This is another reason why 
electronic on-board recorders should be required on all trucks and 
buses operating in the U.S.

        Recommended Actions:

        To ensure improved motor carrier safety at the U.S.-Mexico 
        border Section 350 of S. 2808 (Rept. No. 107-224), Fiscal Year 
        2002 Appropriations Legislation for the U.S. Department of 
        Transportation, should be made a permanent provision in the 
        FMCSA multi-year reauthorization legislation with other changes 
        to improve safety.

        Require each truck transporting general freight or hazardous 
        materials, and each bus or motor coach transporting passengers 
        in the U.S. domiciled in other countries must undergo a full 
        CVSA Level One inspection at U.S. borders every 90 days and 
        every truck transporting hazardous materials shall undergo a 
        full CVSA Level Six inspection every 90 days.
The FMCSA Final Rule to Increase both Consecutive and Weekly Driving 
        Hours for Truck Drivers Is A Major Threat to Highway Safety.
    According to studies by the DOT, the National Transportation Safety 
Board and other research organizations, one of the leading causes of 
truck crashes is truck driver fatigue. In 2000, the FMCSA proposed 
amending the Federal rule on truck and bus driver hours-of-service 
(HOS). In that proposal the agency was willing to trade off necessary 
improvements in the Federal HOS regime against increasing driving time 
and shortcutting the amount of rest and recovery a commercial truck or 
bus driver needs after a tour of duty. Those proposed changes are 
unsafe for both commercial drivers and the public.
    However, safety groups strongly supported several of the basic 
concepts and elements of the proposed HOS rule. FMCSA properly 
acknowledged the crucial role of adequate driver rest and recovery of 
peak safety performance and alertness as crucial in avoiding operator 
sleep deprivation and reduced vigilance. When commercial drivers are 
exhausted from excessive daily and weekly work hours and get inadequate 
rest, the risk of crashes that result in deaths and injuries 
substantially and predictably increases, a fact that the FMCSA 
acknowledged in the proposed rule. Large truck and bus crashes are 
especially lethal highway events because commercial vehicles are much 
more likely to involve passenger cars and other light vehicles in which 
the chances of severe injury or death to their occupants are 
dramatically increased. In fact, 98 percent of the people killed in 
two-vehicle crashes involving passenger vehicles and trucks are the 
occupants of the passenger vehicles and, as the General Accounting 
Office recently stressed in its report on the Share the Road Safely 
program conducted by the FMCSA, which I will discuss later in my 
testimony, when passenger vehicles and big trucks collide, the 
occupants of the small vehicles have more than 15 times the risk of 
dying as compared with the truck occupants.
    Commendably, FMCSA based its proposal on the adoption of a 
circadian, that is, a 24-hour work/rest shift cycle which an enormous 
body of research over many years has unerringly shown is necessary for 
ensuring adequate opportunity to gain sufficient recovery from long 
work hours. This is in contrast to the seriously fatiguing and 
dangerous effects of the rules (being changed by FMCSA as new rule) 
that permit drivers to drive and rest on an unnatural 18-hour cycle. 
The FMCSA for the most part also proposed a longer daily off-duty rest 
period than required under the current rule--which demands only a 
minimum of eight hours off-duty--and the agency insisted that this off-
duty period be free from interruption by dispatchers and brokers. The 
agency also tried to provide for additional rest breaks during the day, 
although its effort is flawed in a number of ways, and it proposed that 
layover or ``weekend'' off-duty rest time shall take place over two 
successive nights. FMCSA also prohibited split rest time for solo 
drivers. Finally, the agency proposed to mandate on-board automated 
recordation (electronic on-board recorders or EOBRs) of driving duty 
time for two classes of commercial operators, an action Public Citizen, 
Advocates for Highway and Auto Safety, and other major safety 
organizations have urged and supported for many years. These reforms 
are necessary, well-supported by research findings, and are essential 
parts of any revision of the current regulations.
    The good, however, got thrown out in favor of the bad in the recent 
final rule issued by the agency in late April of this year. A 
circadian, daily work schedule is gone in favor of allowing drivers to 
alternate driving and sleep on a 21-hour rotation. Drivers can operate 
their rigs for an additional consecutive hour before resting, an 
addition of one hour to the old rule's maximum of 10 hours. This was 
adopted despite overwhelming evidence in the research and the 
rulemaking record that the risk of a crash soars in these late hours of 
driving before a rest break, especially from the end of the 10th to the 
end of the 11th hour of driving.
    But perhaps an even more disturbing feature of the new rule is the 
FMCSA ``restart'' provision that will dramatically increase the total 
hours that a driver can operate his rig on either a 7-or an 8-day duty 
cycle. Under the old rule, if a driver constantly alternated driving 
and rest on a 10-hours-on, 8-hours-off schedule, that driver could 
exhaust the available maximum permitted driving and duty hours per 7 or 
8 days in as little as 4.5 to 5 days. Although that noncircadian 
rotation was exceptionally dangerous and exhausting, putting 
chronically sleep-deprived drivers behind the wheel for several days in 
a row, at least the old rule required ``dead'' time for the remainder 
of the 7 or 8 day tour of duty. Drivers had as much as 3 days of 
layover time to recuperate before being forced to drive this kind of 
horrific work schedule again. You might say that, in a sense, the old 
rule provided for a kind of ``weekend'' for drivers.
    Under the new rule, that layover that could have been taken each 
week is gone. Truck drivers can now be forced to get back into their 
cabs and start 11 consecutive hours immediately after just a 34-hour 
off-duty period, an amount of off-duty time that research used by the 
agency itself shows is completely inadequate to restore driver 
alertness and safe performance after several days of long driving time.
    This is the ``restart'' provision that radically alters the 
landscape of commercial driver hours of service in America by creating 
what has been called a ``floating'' work week, that is, a week with no 
fixed number of work days and driving hours. Whereas these drivers used 
to be held to a maximum of 60 hours of total driving time in 7 days, or 
70 hours total in 8 days, under the new rule, if milked for its maximum 
potential, these same drivers can be compelled to drive up to 77 hours 
in 7days or 88 hours in 8 days, increases of up to 23 percent more time 
spent behind the wheel than formerly permitted.
    Other admirable aspects of the proposed rule were also jettisoned 
in the agency's quest for more hours, more work, more productivity 
wrung out of commercial drivers already operating under the old rules 
to the point of exhaustion and fatigue-triggered crashes. Under the 
2000 proposal, solo drivers were no longer allowed to be contacted by 
carrier dispatchers, or other officials in the supply chain such as 
shippers, brokers, and freight consignees during their off-duty rest 
period. Drivers also had their off-duty rest period protected under the 
2000 proposal. Split rest periods in sleeper berths, which the agency's 
own research review showed to be a major source of reduced length and 
quality of sleep for commercial drivers, were prohibited--drivers had 
to take their daily off-duty sleep in a single, unbroken block if they 
used a sleeper berth.
    Under the new rule issued in April, drivers again can be constantly 
harassed by officials in the supply chain to stay awake on stand-by for 
notification that a load is ready for them to pick up or that a 
delivery time or destination has been changed. Drivers can be 
repeatedly awakened to be told that their schedule has changed and that 
they have to start driving sooner. And that same driver can now go back 
to the practice of splitting off-duty rest time in sleeper berths into 
two small portions with hours of driving time between the two attempts 
to get some sleep.
    In its essence, Mr. Chairman, the FMCSA has issued a final rule 
that works truck drivers much harder than ever, allows the trucking 
industry to demand more work than ever from them, permits carriers to 
give them little more than 24 hours to begin driving another 77 or 88 
hours in a tour of duty, allows trucking officials to wake them up over 
and over, and forces them under many operating circumstances to split 
up their rest time into pieces while being demanded to make deliveries 
sooner and faster than ever before.
    Yet I have not stressed the most amazing feature of this final 
rule--it claims that it will benefit safety more than the old rule! 
Although it is hard to believe even while reading it, the final rule 
demanding far more hours from truck drivers and allowing them less rest 
than ever before claims that these changes are cost beneficial and will 
actually save lives on our highways. Even though these drivers will 
have far more exposure on the road in a tour of duty than ever allowed 
before by the Federal government--more hours accumulated in a shorter 
period of time--and less time to rest than possible under the old 
regulation, the FMCSA actually goes through an arcane exercise in 
benefit-cost analysis to show how safety will be improved by longer 
consecutive driving hours, far more hours driven per week, while 
returning to the status quo ante of split sleeper berth rest time with 
drivers suffering repeated interruptions during their off-duty rest 
periods.
    It is not too strong to characterize this claim of improved safety 
as simply Orwellian. It is as if the government eliminated labor law 
protection of coal miners and provided a mathematics of costs and 
benefits that showed that miners working longer hours per day and per 
week, with less rest time, and forced to begin work at the drop of a 
hat when the management of the mines demands it, are safer and 
healthier than ever before. I think many members of Congress would 
regard such a claim as mind boggling and defying all logic. Yet this is 
exactly what the FMCSA has had the temerity to argue in issuing the 
final rule dramatically increasing driving hours for truck drivers.
    The last major feature of the final rule increasing commercial 
driver work hours is the elimination of the 2000 proposed rule to 
require on-board recorders, or EOBRs, on long-haul trucks to clock the 
amount of time drivers actually spend behind the wheel. As the 
University of Michigan showed a few years ago, corroborated by the 
FMCSA's own regulatory analysis, violation of the regulatory ceilings 
on hours worked and driven, and of minimum rest time, is a chronic 
practice in the trucking industry that has gone on for decades and that 
has increased with the growth of Just In Time delivery demands that 
have turned truck trailers into rolling warehouses. In fact, there are 
trucking companies that stay in business because they run illegal hours 
and do not get caught.
    The FMCSA proposed in 2000 to put an end to this abusive practice 
of violating even the generous limits of the old rule by requiring 
tamperproof electronic recorders to validate driving time. This would 
have aligned the U.S. with European Economic Commission policy which, 
as of next year, will require a change from the old mechanical 
tachographs that have been required for years to new tamperproof, 
electronic recorders that will be more reliable and accurate to ensure 
that drivers don't exceed maximum daily and weekly driving limits.
    This proposal to control excessive driving hours with EOBRs is 
discarded in the final HOS rule. The FMCSA, in a startling turnaround, 
states that it in fact didn't get around to reviewing the merits of any 
of the recorders that it proposed certifying as compliant with the EOBR 
provision in the 2000 notice of proposed rulemaking. Accordingly, the 
agency states that it needs to study the issue some more because it 
didn't do what it was supposed to do. No specifics are provided on how 
this research would be conducted, who would perform it, what its goals 
would be, when it would be completed, and how precisely it would be 
brought into play with respect to the contours of the final regulation 
just issued. A large percentage of the industry, cutting across all 
types of highway transportation including passengers, general freight 
and hazardous materials regularly use various types of electronic on-
board recorders to monitor both vehicle functions and driver hours-of-
service compliance. In the meantime, the agency will fall back to 
relying on the paper logbooks that have been maintained for decades, 
logbooks that are widely and systematically falsified by trucking 
officials and drivers, a hand-written record of duty time that is 
regularly referred to as the ``comic book'' by drivers who know how to 
mask violations and conceal or lose documentation, such as receipts for 
tolls, lodging, food, and fuel, creating a paper trail that would show 
regulatory violations.
    So, next year the American people and truck drivers face on our 
highways a new regulation forcing drivers to work and drive even longer 
hours than ever before, allowed to have little rest and effectively no 
layover before being required to drive again, and to continue to exceed 
even the excessive limits on driving time allowed under the new rule 
without any accurate means adopted by our government to show whether 
these drivers are obeying the law.
    This regulation is an affront to a modern democratic society's 
vision of protecting the safety, health, and well being of our workers 
and a direct threat to the safety of the millions of people who share 
the road every hour of every day with large trucks. This new rule is a 
formula for more truck crashes, more deaths, and more injuries instead 
of a well-reasoned effort to enhance highway safety and increase safe 
commercial trucking practices.
    Let me stress here again in closing this portion of my testimony 
that this new regulation directly contradicts the policies that are 
evolving in the western world about commercial driving. The European 
Union (EU) is set to advance highway safety and protect drivers by 
reducing the current driving hours ceiling from 56 to 48 hours, with a 
general limit of nine (9) hours of driving each day, and off-duty time 
averaging 11 consecutive hours per day. The research supporting such 
reductions in working time and increasing rest time is overwhelming and 
the product of decades of investigation. But our government has ignored 
this research, disregarded the safety policies of several European 
nations, and moved exactly in the contrary direction to mount an 
increased threat to the health and safety of the American people.

        Recommended Action:

        Direct the Secretary of Transportation to conduct rulemaking 
        and issue a final regulation requiring on-board recorders no 
        later than September 30, 2005.
The New Motor Carrier Entrant Program Needs to Be Strengthened and 
        Better Focused
    An example of FMCSA's regulatory inaction is Section 210 of the 
MCSIA, which was intended to improve the agency's safety oversight in 
approving the operating authority applications of new motor carrier 
entrants, both foreign and domestic. The Secretary of Transportation 
was directed to issue regulations requiring each owner and operator 
granted new operating authority to undergo a safety review within the 
first 18 months after beginning motor carrier operations. The Secretary 
was also directed in that same provision to initiate minimum 
requirements for applicant motor carriers, including foreign motor 
carriers, to ensure their knowledge of Federal safety standards, and to 
consider requiring a safety proficiency examination for any motor 
carrier applying for interstate operating authority.
    The FMCSA took no action until Congress reiterated the need for 
this rulemaking in H.R. 2299, the Department of Transportation 
Appropriations bill of FY 2002. Only then--and belatedly--did FMCSA 
respond by issuing an interim final rule without prior notice and 
comment, rather than issuing a notice of proposed rulemaking, which 
would have allowed public comment on the merits prior to adoption. 67 
FR 31978 (May 13, 2002).
    Unfortunately, the agency has seen fit to allow domestic carriers 
to be awarded operating authority without undergoing any initial safety 
evaluation, just as it has decided to allow border-zone-only Mexico-
domiciled motor carriers to be registered without a prior safety audit. 
A safety audit for U.S. carriers under the interim final rule issued by 
the FMCSA will only be performed after-the-fact, up to 18 months after 
the U.S. business is given operating authority. The FMCSA actually 
notes in the interim final rule that it might not even meet the 18-
month statutory deadline for conducting safety audits, thereby 
providing itself with a loophole for not meeting its statutory 
obligation, in direct contradiction of the express legislative intent 
of Section 210. I should emphasize that the safety evaluation will not 
be a comprehensive compliance review that results in a safety rating. 
As a result, the new entrant approval process put into effect by FMCSA 
will still allow domestic motor carriers to operate indefinitely 
without any assigned safety rating!
    The FMCSA should be directed to revise this policy to ensure that a 
new entrant motor carrier is not allowed to begin operations without 
either demonstration of its safety knowledge or its safety management 
competence. The agency should revise its interim final rule to require 
either a threshold safety proficiency examination of the applicant 
motor carrier, in accordance with the Congressional direction in 
Section 210 of the Motor Carrier Safety Improvement Act of 1999, or to 
conduct a safety management review of the new entrant, including an 
inspection of its equipment and an evaluation of its safety management 
practices and competence. Without this initial safety evaluation of new 
applicant motor carriers, the agency essentially is allowing untested 
companies to begin hauling freight, transporting hazardous materials, 
and carrying passengers based only on a brief paper application that is 
accompanied by a fee paid by the applicant.
    Two years ago, Congress required both an initial and a subsequent 
on-site safety evaluation of Mexico-domiciled motor carriers to ensure 
that they have adopted adequate safety practices before they are 
allowed to operate on U.S. roads. Safety groups believe that Congress 
should also require a similar on-site safety evaluation of domestic 
carriers, or that these applicants demonstrate successful performance 
on a safety proficiency examination, as the basis for awarding 
conditional operating authority. A grant of permanent operating 
authority should be made based on an ``exit'' safety evaluation after 
the first 18 months of operation, including a review on site of safety 
equipment and an evaluation of safety management practices. However, it 
is not wise or responsible to allow these carriers to be awarded 
permanent operating authority without ever receiving a full safety 
compliance review and an assigned safety rating.
    I want to list here our recommendations for reforming the new 
entrant program to make it a better fail-safe test of the capability of 
new motor carriers to conduct operations and to avoid creating an even 
bigger backlog of unrated carriers--currently almost 450,000 are 
unrated--and of the many thousands of carriers bearing older, unrenewed 
ratings. We also think that the task of the agency immediately being 
expected to rate upwards of 40,000 new entrant applicants each year is 
an overwhelming task that needs to be spread out over several years 
before it operates at full throttle. I also want to stress that a 
strengthened new entrant program can eliminate many carriers whose 
safety practices and knowledge of how to comply with the Federal Motor 
Carrier Safety Regulations are inadequate. If we can weed out the bad 
actors early in their operating histories, not only will safety 
improve, but also unsafe carriers will be prevented from swelling the 
rolls of the registered interstate companies carrying freight and 
passengers for a few months only to go quickly out of business.

        Recommended Actions:

        Congress should direct FMCSA to establish a 5-year phase-in for 
        evaluating new motor carrier entrants with a protocol for 
        identifying high-risk carriers that would most strongly benefit 
        from an initial safety evaluation.

        The FMCSA should be directed to conduct an ``exit'' safety 
        evaluation of each new motor carrier after 18 months of 
        operation. If a carrier fails this evaluation, a full safety 
        compliance review should be triggered that results in an 
        assigned safety rating.
Truck Crash Data Collection is Inadequate and Inaccurate Due to a Lack 
        of Uniformity
    Section 225 of the MCSIA calls on the Secretary through the joint 
efforts of the FMCSA and the National Highway Traffic Safety 
Administration (NHTSA) to cooperate with the states to improve 
collection and analysis of crash data involving commercial motor 
vehicles. However, there has been no action to require a nationally 
uniform crash data report form to be filled out by enforcement 
authorities so that a detailed, accurate national database of crash 
information on trucks and buses can be relied upon by both agencies to 
determine safety policies, including countermeasures and the accuracy 
of data entries to SafeStat to detect high-risk motor carriers in 
relation to their safety performance under the new entrant program, 
among other uses.

        Recommended Actions:

        Congress should direct the Secretary to conduct rulemaking in 
        cooperation with NHTSA to adopt a nationally uniform crash data 
        collection format that all states are required to use in order 
        to increase the accuracy and reliability of data concerning 
        crashes and other incidents involving commercial motor 
        vehicles.

        Congress should direct the Secretary to conduct rulemaking to 
        consider changes to improve the SafeStat system itself, 
        including, among other things, the use of exposure measures, 
        such as vehicle-miles-traveled, in calculating the safety 
        scores of carriers with regard to acute and critical 
        violations.
FMCSA Pursues Experimental ``Pilot Programs'' At The Expense of Safety
    Another example of how FMCSA defers Congressional directives and 
violates legislated deadlines for action is its pursuit of so-called 
``pilot programs.'' The agency has offered a series of pilot programs 
over the last several years and continues to publish new initiatives 
even while ignoring legislatively mandated pilot programs, such as the 
Improved Flow of Driver History pilot study required by Section 4022 of 
TEA-21. Moreover, the agency offers one pilot program after another 
without having concluded rulemaking, as directed by Section 4007 of 
TEA-21, to adopt the procedures for regulatory exemptions from the 
FMCSRs. No final rule setting out these procedures has been issued and 
the agency's most recent semi-annual regulatory agenda has again pushed 
back the deadline for final action to March 2003. 67 FR 33487-33488 
(May 13, 2002). But no action has been taken while action under the 
deadline is now three months overdue.
    The FMCSA has proposed a pilot program to lower the age for 
interstate drivers of big trucks and motor coaches from the current 
minimum age of 21, to only 18-20 years old. This action was taken in 
response to a petition from an interstate motor carrier interest group 
that has argued for years that there are not enough commercial drivers 
to fill jobs driving large trucks and, so, the only solution is to 
start getting truck drivers even younger than 21. At one time, the 
minimum age for an interstate commercial driver was 25 years old.
    In comments opposing the 18-20 years old pilot program, major 
safety organizations systematically set out the research results, some 
of them produced by DOT itself, that consistently have shown for more 
than 30 years that teenage drivers in any vehicles have dramatically 
elevated crash involvement and traffic violation rates. These 
organizations detailed the research showing that current young truck 
drivers 21-25 years of age are badly over-represented in traffic 
violation convictions and in crash involvement rates. Also, they 
pointed out that every credible study for decades on the value of 
driver training has shown that even intensive driver training of young 
drivers makes little difference to their eventual crash involvement and 
violations rates.
    The FMCSA Pilot Program for younger drivers comes at a time when 
States, at the urging of DOT and safety groups, are enacting graduated 
driver license systems in order to reduce the exposure of teenage 
drivers to the risks of operating passenger motor vehicles when they 
are very young. Putting teenage drivers behind the wheel of an 80,000-
pound big rig or a 55-passenger interstate motor coach is a regressive 
move and a recipe for potential catastrophes.
    The FMCSA has increasingly attempted to regulate through pilot 
programs, exemptions, and waivers over the last several years instead 
of fulfilling Congressionally mandated rulemaking requirements and 
meeting legislated deadlines. The agency expends resources on these 
experimental efforts instead of completing its enormous backlog of 
unmet regulatory actions--a backlog that the DOT officials in 1999 
fervently promised would be dealt with expeditiously. Congress relied 
on those representations in establishing an upgraded and separate 
Federal motor carrier safety agency.

        Recommended Actions:

        Congress should eliminate the use of pilot programs, waivers 
        and exemptions by FMCSA unless specifically directed by 
        Congress.
Hazardous Materials Transportation Safety Oversight Is Dangerously 
        Inadequate
    The events of September 11, 2001 have pointed to another area 
requiring Congressional attention where safety and security are 
intertwined. This is the highway transportation of hazardous materials 
(hazmat). Safety groups are convinced that there are a number of 
aspects of hazmat transportation that can be readily addressed to make 
significant improvements in safety and security.
    At present, motor carriers that want to transport hazmat need only 
register with the Research and Special Programs Administration (RSPA), 
pay the required fee (currently $300 per year), and begin to haul 
hazardous materials throughout the U.S. There is no requirement for a 
motor carrier, once it has secured general (non-hazmat) operating 
authority from the FMCSA, to go back to that agency and notify it that 
it has begun hauling hazmat. RSPA does not inform the FMCSA of the 
carriers that register to haul hazmat, and the FMCSA does not ask RSPA 
for hazmat registration information. This lack of coordination and 
cooperation between the FMCSA and RSPA is ridiculous and creates 
opportunities for abuses.
    No motor carrier seeking to start hauling hazmat should be able to 
make this kind of major shift in its transportation services without 
the FMCSA knowing about it. A motor carrier should not only be required 
to notify the FMCSA immediately that it is beginning to haul hazmat by 
having to register with RSPA, but each carrier should have to apply to 
the FMCSA for additional operating authority for hazmat carriage. This 
application should include a safety audit of the motor carrier's 
operations and a proficiency exam specifically for the purpose of 
testing the carrier's knowledge of and capability to comply with the 
Federal hazmat regulations.
    In addition to operating authority, there is insufficient evidence 
of RSPA and FMCSA constantly coordinating hazmat regulation for motor 
carriers. RSPA has proposed requiring written security plans and 
expanded training for all motor carriers, both foreign and domestic, 
that apply to haul hazmat and Centers for Disease Control infectious 
disease selected agents (IDSA) in the U.S. This proposed requirement 
for training employees in hazmat/IDSA safety knowledge and safety 
measures would also affect all carriers entering the U.S. Aside from 
the fact that RSPA does not contemplate directly supervising the 
implementation of these requirements to ensure they are carried out in 
an effective manner, the two agencies do not have a joint plan for the 
effective implementation of this proposal with respect to Mexico-
domiciled or, for that matter, Canadian-domiciled motor carriers. 
Neither has FMCSA announced how it intends to verify that the 
requirements are met by foreign-domiciled motor carriers entering the 
U.S. If this regulation is adopted by RSPA, it is crucial that the 
agencies determine how it will be implemented for foreign-domiciled 
motor carriers and how the two agencies will be able to determine that 
compliance by companies hauling hazmat/IDSA has been achieved. We 
recommend that Congress inquire of the two agencies how they 
contemplate implementing this RSPA rule and what coordinated actions 
will be taken to achieve compliance especially by foreign motor 
carriers.
    Truck drivers, after obtaining a hazmat endorsement for the 
commercial drivers' license (CDL) by merely passing a written exam, can 
legally drive tractor semi-trailers carrying 80,000 pounds of placarded 
hazmat throughout the U.S. This underscores the crucial need for a 
secure and reliable identification of hazmat drivers to prevent 
dangerous and unauthorized persons from transporting hazmat. The Truck 
and Bus Regulatory Reform Act of 1988 directed the Secretary to issue 
regulations by December 31, 1990, establishing minimum uniform 
standards for a biometric identification system to ensure the accurate 
identification of drivers. DOT took no regulatory action in response to 
this mandate. As a result, in 1998 Congress directed that CDLs contain 
some form of unique identifier after January 1, 2001, to minimize fraud 
and illegal duplication. Once again, there has been no action on this 
issue. As a result, Public Citizen, CRASH, and P.A.T.T. sued FMCSA on 
this and four other rules on which no action had been taken for 
unreasonable delay. FMCSA settled the lawsuit agreeing to specific 
deadlines for action on each of these rules. For hazmat minimum 
standards for drivers, the agency agreed to issue the rule by March 30, 
2004. Failure to meet this deadline allows the court to hold the agency 
in contempt. In light of changed circumstances concerning the safety 
transport of hazmat transported across the U.S., Congress should direct 
the Secretary to accelerate the development of a unique identifier, at 
least for commercial drivers with hazmat endorsements. This biometric 
or other unique security identification would dovetail with the 
background criminal and driving record checks for hazmat licensure and 
endorsements that soon will come into play as a result of Section 1012 
of the USA PATRIOT Act, Title X, Pub. L. 107-56 (Oct. 26, 2001).
    The ability to determine the location of drivers and hazmat loads 
on trucks is another crucial aspect for hazmat safety oversight. All 
hazmat carriage, including transport by motor vehicle, should be 
governed by Global Positioning System (GPS) technology that would 
permit real-time tracking of hazmat loads. This should be a requirement 
for gaining operating authority as a hazmat carrier. Safety inspectors 
should also be able to access GPS data in order to confirm other 
sources of hours of service compliance, as well as to determine whether 
hazmat vehicles have taken prohibited routes or have evaded safety 
inspections or weigh stations.
    With regard to hazmat routes, the current routing regulations for 
non-radioactive hazardous materials highway transport are too general 
and inadequate. The Federal requirements do not require states even to 
have highway routing criteria for these hazmat shipments, and many 
states continue to allow loads of hazmat to be transported on most 
roads and through major metropolitan areas across the Nation regardless 
of population or traffic conditions. Even worse, the burdens imposed on 
the states by the Federal Highway Administration (FHWA) to justify 
alternative, diversionary routes for public and environmental 
protection have a chilling effect on the willingness of states and 
local public authorities to tell hazmat carriers to use longer, safer 
routes. Congress should require the states to adopt non-radioactive 
hazmat routing criteria instead of leaving this action to state option.
    Let me stress here at the end of this section of my testimony on 
hazmat transportation that the tragedies of 9/11 and, earlier, of the 
Murrah Federal Building bombing in 1995, as well as the repeated orange 
alerts issued for possible terrorist attacks have not impressed its 
message on the Research and Special Programs Administration (RSPA). 
Recent final regulations issued by RSPA indicate that the agency is not 
prepared to regulate vigorously in the area of hazardous materials 
(hazmat) transportation security.\1\ As reviewed below, the final rules 
have little prescriptive content and, in general, they do not change 
current regulations about the types and quantities of hazmat that may 
be transported by motor carriers that, if made more stringent, could 
result in tighter security control and improved public safety.
---------------------------------------------------------------------------
    \1\ Security Requirements for Offerors and Transporters of 
Hazardous Materials, 68 FR 14510 et seq., March 25, 2003; Enhancing 
Hazardous Materials Transportation Security, 68 FR 23832 et seq., May 
5, 2003.
---------------------------------------------------------------------------
    This is surprising in light of 9/11 and the increased concern about 
the potential for hazmat incidents. In both rulemaking examples, the 
agency backed down from reasonable proposals in reaction to industry 
objections. In another instance RSPA's decision fails to achieve 
government uniformity in how specific quantities of hazmat are 
regulated because it rejected any willingness to use the different, 
more stringent definitions of hazmat applied by the Bureau of Alcohol, 
Tobacco, and Firearms. Here is an overview of both regulations' 
deficiencies:

  <bullet> The RSPA deleted most of the major requirements of a 
        proposed rule that would arguably improve enforcement oversight 
        of hazmat security after receiving negative comments from the 
        trucking industry (see specific aspects below).

  <bullet> The RSPA will require offerors and carriers of hazmat to 
        have security plans, but will not prescribe what the plans must 
        contain, will not review and approve them before adoption, and 
        will not keep any on file at the agency.

  <bullet> The RSPA will require employee hazmat training, but will not 
        specify any training requirements.

  <bullet> The RSPA will not require hazmat offerors or carriers to 
        verify the accuracy of information supplied by job applicants 
        who will handle or transport hazmat.

  <bullet> The RSPA has rejected changing any of the current types or 
        level of hazmat requiring placarding, in order to increase 
        hazmat transportation security, based on the more stringent 
        definitions of hazmat used by the Bureau of Alcohol, Tobacco, 
        and Firearms.

  <bullet> The RSPA makes no mention of the longstanding Congressional 
        statutory mandate to institute a Federal permitting system for 
        specific types of hazmat explosives, toxic-by-inhalation 
        agents, and highway route-controlled radioactive substances.

  <bullet> The RSPA has ruled that mixtures of ammonium nitrate and 
        fuel oil, like that used to blow up the Murrah Federal building 
        in Oklahoma City in 1995, are not a sufficient security risk 
        when transported in commerce to warrant detailed employee 
        background checks for those workers handling or transporting 
        such mixtures.

  <bullet> The RSPA has also ruled that it will not change the types or 
        quantities of hazmat requiring placarding to place more 
        stringent requirements on transporting toy caps, signal 
        devices, flares, and distress signals (either combustible or 
        explosive) in less than 1,000 lbs. quantities; the agency 
        judged that such hazmat does not present a significant security 
        threat involving their use during transportation for a criminal 
        or terrorist act.

    More detailed comments on the two regulations are attached in 
        Appendix B.
Research and Special Programs Administration (RSPA), Final Rule; 
        Security Requirements for Offerors and Transporters of 
        Hazardous Materials, 68 FR 14510 et seq., March 25, 2003
    The NPRM published May 2, 2002, proposed the following main 
features:

  <bullet> Requirement for motor carriers already registered with the 
        agency to maintain a copy of that current registration 
        certificate on board each motor vehicle transporting hazmat.

  <bullet> Requirement for shipping papers to show the name and address 
        of both the consignor (origin) and of the consignee (receiver) 
        and for the shipping papers to show the shipper's U.S. DOT 
        Hazmat Registration number.

  <bullet> Requirement that shipper and carrier of certain highly 
        hazardous materials develop and implement hazmat transportation 
        security plans.

  <bullet> Requirement that hazmat shippers and carriers assure that 
        their employee training includes a security component.

    The agency received more than 270 comments ``from hazardous 
materials shippers, carriers, industry associations, and local 
government agencies.'' There is no acknowledgement that RSPA received 
comments from any commercial motor vehicle or highway safety 
organizations anywhere in the final rule, although Advocates for 
Highway and Auto Safety filed extensive comments pointing out the 
cardinal shortcomings of the proposed rule. The highlights of the final 
rule are:

  <bullet> RSPA states that security measures cannot adversely affect 
        the efficient transportation of hazmat or impose excessive 
        economic burdens on the hazmat transportation industry.

  <bullet> The agency deleted a requirement that a copy of current 
        hazmat registration be on board each vehicle. RSPA accepted the 
        industry's position that the certificate is no proof of 
        security clearance for the hazmat carrier because ``in no case 
        is any background investigation conducted before registering an 
        applicant, or even investigation to ensure that the applicant 
        is a bona fide company legitimately engaged in the offering for 
        transport and/or transporting hazardous materials.'' RSPA does 
        not mention any consideration for future rulemaking to propose 
        such required background checks of hazmat carrier applicants.

  <bullet> RSPA deleted a requirement that shipping papers have current 
        hazmat registration number because of industry opposition.

  <bullet> Although RSPA believed the proposal had merit it rejected in 
        the final rule a requirement that shipping papers have name and 
        address of both consignor and consignee.

  <bullet> Although RSPA adopted a requirement for security plans for 
        both offerors of hazmat and carriers of hazmat there are no 
        required elements for the plans in the final rule, shippers and 
        carriers can use any risk model they like, and the agency will 
        not review the plans for adequacy before the time of their 
        adoption. RSPA also strengthens language in final rule as 
        compared with the proposed rule to reduce the liability of a 
        shipper or carrier if a terrorist action happens despite their 
        compliance with the terms of the final rule.

  <bullet> RSPA weakened a requirement for employers who are shippers 
        or carriers to confirm information provided by job applicants 
        who would handle or transport hazmat. RSPA weakens the final 
        rule by changing the employer's responsibility from ``verify'' 
        to ``confirm'' that information supplied by job applicants is 
        accurate and agrees with industry comments that ``verify'' is 
        too stringent. Moreover, RPSA ``do[es] not expect companies to 
        confirm all of the information that a job applicant may provide 
        as part of the application process.'' A question here is 
        whether this meets the letter and spirit of the U.S. PATRIOT 
        Act.

  <bullet> RSPA requires that employee hazmat training contain a 
        security component but will not specify what to require.
Research and Special Programs Administration (RSPA), Interim Final 
        Rule: Enhancing Hazardous Materials Transportation Security. 68 
        FR 23832 et seq., May 5, 2003
    No prior NPRM. This interim final rule incorporates into the 
Hazardous Materials Regulations (HMR) a requirement that shippers and 
transporters of certain hazmat comply with Federal security regulations 
that apply to motor carrier and vessel transportation. The final rule 
also revises the procedures for applying for an exemption from the HMR 
to require applicants to certify compliance with applicable Federal 
transportation security laws and regulations. The final rule has 
several major weaknesses:

  <bullet> It requires persons offering for transport or actually 
        transporting hazmat to develop and implement security plans, 
        but the rule relies on the existing regulations concerning the 
        types and amounts of hazmat and Centers for Disease Control 
        ``select agents.''

  <bullet> RSPA considered and rejected consideration of the 
        application of the more stringent definitions of `hazmat' used 
        by the Bureau of Alcohol, Tobacco, and Firearms. RSPA 
        nonetheless concluded that its present threshold amounts for 
        placarding of certain radioactive materials, explosives, and 
        agents toxic by inhalation are sufficient to control any 
        security risk of their improper use. This means that the agency 
        required placarding and the use of a security plan to these 
        smaller amounts of hazmat regulated by BATF.

  <bullet> The agency makes no mention of the hazmat motor carrier 
        Federal permitting requirements Congress adopted in 49 U.S.C. 
        Sec. 5109 for specific types of hazmat that have never been 
        implemented despite a clear statutory command enacted 10 years 
        ago.

  <bullet> RSPA concludes in the interim final rule that mixtures of 
        ammonium nitrate and fuel oil, like that used to blow up the 
        Murrah Federal building in Oklahoma City in 1995, ``do[es] not 
        meet the definition of a Class 1 material under the HMR'' and 
        that they ``generally do[es] not pose a sufficient security 
        risk when transported in commerce to warrant detailed employee 
        background checks.''

  <bullet> RSPA also has decided throughout the interim final rule that 
        it will not review or disturb the current threshold quantities 
        of different hazmat requiring placarding, such as toy caps, 
        signal devices, flares, and distress signals less than 454 kg 
        (1,000 lbs.). As a result, the agency states that it has judged 
        that ``[w]hen shipped in amounts that do not require 
        placarding, such shipments do not pose a security risk when 
        transported in commerce sufficient to warrant detailed employee 
        background check requirements at this time'' and they 
        ``generally do not present a significant security threat 
        involving their use during transportation for a criminal or 
        terrorist act.''

    This is the quality of protection the U.S. people and their 
property are provided in this weak regulation. Although RSPA openly 
states that it is authorized under 49 U.S.C. Sec. 5101 et seq. to 
designate any hazmat, including explosives, as dangerous when 
transporting it in commerce because it poses an unreasonable risk to 
health, safety, or security, the agency has judged ``that the most 
significant security risks are associated with the transportation of 
explosives shipments in quantities that require placarding under the 
HMR.'' The shippers and carriers must formulate security plans to cover 
such transport, but the agency will not change the types and quantities 
of explosives subject to placarding that were adopted in a different--
pre 9/11/01--era.

        Recommended Actions:

        Congress should direct RSPA to review the need to expand the 
        types of materials subject to the hazmat regulations; evaluate 
        the need to lower the quantities permitted to be transported 
        without placarding and the other current safety requirements 
        (emergency notification procedures, etc.); require specific 
        training and security plan criteria to be applied by RSPA for 
        motor carriers.

        Congress should reaffirm its direction to the Secretary to 
        implement the Federal safety permitting process in 49 U.S.C. 
        5109 for certain types of especially dangerous hazmat while 
        also requiring an agency evaluation of whether the current 
        types and quantities of hazmat listed there should be changed.

        Congress should direct RSPA, after motor carriers of hazmat 
        register with RSPA as currently required, to provide immediate 
        notification of such registration to FMCSA. And, subsequent to 
        registration with both agencies, a hazmat motor carrier shall 
        undergo both a preliminary safety review to determine initial 
        safety fitness, as well as subsequent compliance reviews with a 
        satisfactory rating in order to continue transporting hazmat 
        both interstate and intrastate.

        Require Level Six Inspections of all trucks of motor carriers 
        domiciled in other countries that are transporting placardable 
        hazmat into the U.S. every 90 days.

        Require all motor carriers transporting hazmat to be equipped 
        with tracking systems, electronic on-board hours of service 
        recorders, truck/tractor/trailer security interdiction 
        technology, and crash data event recorders.

        In order to improve security and safety, the Secretary is 
        directed to issue regulations to implement 49 U.S.C. Sec. 5109 
        by specifying the types and amounts of hazardous materials 
        (hazmat) that can be transported only with a Federal permit: 
        National System of Uniform Hazmat Motor Carrier Transportation 
        Permits.

        Direct FMCSA to Assign Unique, Including Biometric Identifiers 
        to All CDL Holders with Hazmat Endorsements.

        Direct FMCSA to Establish Regulations Requiring the States to 
        Adopt Specific Routing Controls for Motor Carrier Transport of 
        Hazmat.
Defects in the Current Commercial Driver License (CDL) Program Permit 
        Abuses
    The time has come for the U.S. DOT to place more rigorous 
requirements on the ability to obtain and renew a CDL. It is at present 
far too easy to obtain a CDL in the U.S. No training or prior 
certification of any kind is needed to apply for and obtain a license 
to operate a truck or bus in interstate commerce. It is even easier in 
most states to obtain a license to operate a truck or bus solely 
intrastate. In fact, in some states, a chauffeur's license or, in some 
instances, even an ordinary passenger vehicle operator's license, is 
sufficient to operate a smaller commercial motor vehicle.
    Interstate CDLs are issued by states according to very minimal 
Federal rules, which have both a written and an on-road component. In 
most cases, passing a state test to obtain a CDL requires no 
specialized instruction. Many applicants are self-taught, have prepped 
with the aid of mail-order courses, or have been given only a few 
lessons by a truck or bus driver they know. No certification of any 
kind, such as the demonstration of having passed a federally approved 
training course, must be presented to take a multiple choice paper 
examination for the basic interstate CDL. The driving part of the test 
is often brief and perfunctory, and is often conducted in the parking 
lot of the inspection area. Many commercial drivers admit that they 
learned how to operate a truck only through their employment 
experience. This results in inexperienced drivers when they first take 
to the road carrying freight throughout the U.S.
    Special endorsements, such as the additional authorization to haul 
placardable quantities of hazardous materials, are, again, simply 
written ``knowledge'' tests. The applicant does not need to demonstrate 
any driving skills, but only answer a set of written questions about 
hazardous materials transport. There is no limit on the number of times 
that a test can be taken by an applicant, so many drivers simply take 
the test until they pass it. According to news reports, the average 
failure rate for the hazardous materials endorsement in one state, 
Oregon, is only slightly higher than the failure rate for applicants 
taking the very simple test for a passenger vehicle driver's license 
(38 percent versus 35 percent).
    Another key shortcoming of the Federal CDL rules is the lack of a 
requirement for a commercial license for drivers operating trucks that 
are less than 26,001 pounds gross vehicle weight. There are millions of 
single-unit trucks weighing between 10,001 and 26,000 pounds operating 
in interstate commerce with drivers who have no CDLs, who are not 
subject to mandatory drug and alcohol testing, and for whom the states 
often have patchy, unreliable driver records of traffic and other 
violations and convictions. This class of trucks comprise large single-
unit delivery trucks, such as beverage trucks, large single-unit trucks 
used for interstate (primarily regional) movement of certain 
combustibles, small tankers used for propane delivery, single-unit 
regional moving vans, and many other single-unit trucks transporting a 
wide variety of cargo. Single-unit trucks are responsible for nearly a 
third of all truck-related fatalities and pose a significant safety 
problem. Overall, more than 40 percent of severe to fatal injuries each 
year in truck-related crashes are the result of single-unit truck 
collisions, according to FMCSA.
    Congress should extend the CDL requirement to vehicles weighing 
between 10,001 and 26,000 pounds. By this action, Congress would 
include drivers in this weight class in an existing mandate for new 
data collection covering CDL-holders pursuant to Congressional 
direction in both the 1998 Transportation Equity Act for the Twenty-
First Century (TEA-21) and the Motor Carrier Safety Improvement Act of 
1999 (MCSIA). This information could be crucial in our efforts to 
improve both safety and security oversight of drivers operating 
commercial motor vehicles.

        Recommended Actions:

        Congress should direct FMCSA to issue a final regulation 
        requiring drivers to secure CDLs to operate commercial motor 
        vehicles between 10,001 and 26,000 pounds gross vehicle weight.
FMCSA Should be Directed to Implement the Recommendations of the U.S. 
        DOT Office of Inspector General for Improving Federal and State 

        Administration of the CDL
    Little more than a year ago, the U.S. Department of 
Transportation's Office of the Inspector General (OIG) released its 
detailed audit on the Federal and state administration of the 
Commercial Driver License (CDL), Improving the Testing and Licensing of 
Commercial Drivers, MH-2002-093, May 8, 2002. In general, the OIG found 
that Federal standards and state control over the issuance and follow-
up oversight of the CDL were not sufficient to defend against the 
threat posed by individuals who seek to fraudulently obtain CDLs. The 
current Federal standards do not adequately address how the states 
should verify the eligibility of CDL applicants, and the states 
themselves do not fully implement the existing Federal standards to 
adequately monitor third-party testers. The OIG found with regard to 
the last mentioned issue of third-party testers that 23 states did not 
require these examiners to annually take the driving skills test 
administered by the third-party testers.
    The OIG also found that, although the FMCSA has increased the 
quality of its oversight reviews of state CDL programs, the agency 
nevertheless needs to broaden its reviews, improve the basis on which 
the states annually certify that their programs comply with Federal 
standards, and ensure that problems identified in state programs are 
corrected. The OIG also stressed that the agency needs to use the 
sanctions available to it when states fail to correct significant 
problems.
    The OIG noted in its audit report that that successful 
implementation of many of its corrective actions is contingent upon the 
completion of several rulemaking actions. However, to date, we are not 
aware of any rulemaking actions that have been proposed or completed to 
address the multiple abuses in the current CDL program to improve state 
oversight of their licensing efforts to prevent fraud.

        Recommended Actions:

        Congress should direct FMCSA to issue a final regulation that 
        implements the findings and recommendations of the U.S. DOT 
        Office of Inspector General's Report to enhance safety and 
        security. The final rule should include specific 
        countermeasures that prevent fraudulent, inaccurate, or 
        inadequate information from being used by the states to issue 
        or renew CDLs; that ensure the competence and qualifications of 
        licensing examiners, including third-party examiners; that 
        improve the Federal oversight and review process for 
        determining the adequacy of state CDL programs; and that apply 
        appropriate Federal sanctions to any state that seriously or 
        repeatedly violates Federal requirements for conducting its CDL 
        program.
Unacceptable Loopholes Still Exist for Commercial Drivers with Unsafe 
        Personal Driving Records to Obtain and Retain a CDL
    Section 201 of Title II of the Motor Carrier Safety Improvement Act 
of 1999 (H.R. 3419), the enabling legislation for the Federal Motor 
Carrier Safety Administration (FMCSA), provides for several new or 
amended types of CDL-holder disqualifications for a variety of offenses 
committed while operating either a commercial motor vehicle or a non-
commercial motor vehicles (non-CMV). However, the language needs to be 
amended because of several undesirable outcomes that occurred when the 
agency finally implemented the provision several years after the 
congressional deadline.
    The FMCSA proposed implementing regulations for Section 201 (g) on 
May 4, 2001 (66 FR 22499 et seq.) and July 27, 2001 (66 FR 39248 et 
seq.). In those proposed rules, the agency adopted several 
disqualification periods for various offenses committed by operating a 
non-CMV.\2\ However, subsequent to the issuance of a final rule on July 
31, 2002 (67 FR 49742 et seq.), the FMCSA issued an amended final rule 
in response to a petition from several parties. 68 FR 4394 et seq. 
(January 29, 2003). In that revision to the July 31, 2002, final rule, 
the FMCSA acknowledged that it had adopted disqualification periods for 
non-CMV offenses committed by CDL holders without regard for whether 
those offenses resulted in CDL suspension or revocation. Petitioners 
had alleged that the agency had exceeded its statutory authority by 
adopting provisions triggering CDL-holder disqualification without also 
specifying that such disqualification shall result only if the 
violations also result in CDL suspension or revocation.
---------------------------------------------------------------------------
    \2\ A non-CMV, for the purposes of the CDL provisions in 49 CFR Pt. 
383, includes all passenger vehicles up to 10,000 pounds gross vehicle 
weight rating and all medium commercial vehicles from 10,001 to 26,000 
pounds gross vehicle weight (not as rated, but actual operating 
weight).
---------------------------------------------------------------------------
    The consequence of this FMCSA January 2003 revision is far-
reaching. Convictions for serious offenses by CDL holders in non-CMVs 
that would have systematically resulted in disqualification periods for 
CDL holders will now trigger disqualification only if the convictions 
result in suspension or revocation. This means that what had been 
adopted as a federally uniform system of removing offending CDL holders 
from the highways has effectively become a highly uneven system of 
disqualification that depends on individual state practice. If, for 
example, a CDL holder is convicted for one, two, or even three 
disqualifying offenses, but the state that issued the CDL does not 
require suspension especially after the first or second convictions, 
this CDL holder can continue to drive in interstate commerce.
    In the final rule of July 31, 2002, the FMCSA acknowledged that 
convictions for the same serious offenses that would trigger 
disqualification for CDL holders that occurred prior to the issuance of 
a CDL would not adversely impact a CDL applicant in seeking commercial 
licensure: ``[O]nly non-CMV convictions for offenses committed after a 
person obtains a CDL can be counted against his or her driving 
record.'' 67 FR 49745.
    This is an anomalous result that needs correction in authorization 
legislation. If Congress intended that CDL holders be held accountable 
for convictions for serious offenses committed with a non-CMV, then it 
is equally important that convicted repeat offenders not be allowed to 
gain a CDL despite a string of prior serious violations. Section 201 of 
the Motor Carrier Safety Improvement Act of 1999 should be amended so 
that an individual with 3 convictions involving a non-CMV for the same 
offenses that trigger disqualification after gaining a CDL shall be 
barred from being granted a CDL for at least 3 years after the third 
conviction for a serious traffic violation. If the non-CMV holder has 
been convicted for any serious offense for use of alcohol or controlled 
substances, or for an at-fault crash resulting in a fatality, the non-
CMV holder is barred for life from being issued a CDL.

        Recommended Action:

        Section 201(g)(1) should be amended to ensure that CDL holders 
        will have their licenses suspended or revoked for all serious 
        traffic violations and not just those violations that have 
        resulted in suspension or revocation of a personal driver 
        license.

        Congress should direct FMCSA to issue a rule establishing the 
        requirement that applicants are eligible to be awarded a CDL 
        only if they have a convictions-free driving record for the 
        previous three years for serious violations committed with any 
        vehicle less than 26,000 pounds gross vehicle weight rating.
The Federal Medical Certification Required of Commercial Drivers Needs 
        to Be Strengthened and Merged with the Commercial Driver 
        License
    Although the FMCSA began the process almost 10 years ago of merging 
the commercial driver license (CDL) and the certificate issued to a 
commercial driver every two years showing that the driver meets the 
medical standards for operating trucks and buses in interstate 
commerce, that initiative stopped in the middle 1990s and no further 
action has been taken on this important issue.
    A number of abuses have been shown by the FMCSA and even 
representatives in the trucking industry to be chronic problems in the 
current Federal regime with the medical certification and the CDL 
issued as separate documents. Among other issues, drivers are sometimes 
tempted to drive with an expired certification because they failed 
their medical exams but their CDLs are still not up for renewal. Any 
action taken by the FMCSA to merge the two documents must ensure that 
drivers cannot get away with driving illegally with an expired medical 
certification.
    I want to take this opportunity to voice our strong support for the 
Administration's proposal in Section 4005 of the ``Safe, Accountable, 
Flexible, and Efficient Transportation Equity Act of 2003'' calling for 
enactment of a medical review board and a national registry of 
certified medical examiners. Both of these ideas have considerable 
merit and, in fact, are long-overdue policy actions by the Department 
of Transportation. However, I believe that the current provision, as 
drafted, needs to be amended to specify that a central duty of the 
appointees to the medical board is the review of appeals of physical 
qualification denials issued by the prospective medical examiners. The 
expertise of these health care providers should be applied to resolving 
challenges to any denials of medical certifications for commercial 
drivers.
    It also is important for a medical review board in the FMCSA to be 
the result of selection criteria evaluated through public rulemaking by 
the agency. Further, the conduct of business by the board should always 
be in the sunshine to the extent permitted by privacy law and 
regulation. For example, Congress needs to specifically ensure that the 
meetings of the board will be open to public attendance, that all work 
products of the board including draft documents will be available for 
public review, and that the meetings of the board and any subcommittees 
or task forces are recorded for which a transcript is made available 
for public use.
    In addition, we recommend that term limits be placed on medical 
review board service. Appointments to the board should not exceed a 
term of three/four years, and a current member should not be able to 
succeed herself--membership should be on a constantly rotating basis in 
order to guarantee that fresh talent and perspectives are consistently 
injected into the board advice and recommendations.
    We also strongly support the other part of Section 4005 in the 
Administration's bill establishing a national registry of appropriately 
trained medical examiners that lists the certified preferred providers 
for conducting the physical qualification medical examinations for 
commercial motor vehicle drivers. This kind of national list of trained 
health care providers certified to conduct the physical examinations 
will finally put an end to the multiple abuses under the current system 
that sometimes result in unqualified drivers nevertheless being given a 
pass to continue to operate trucks and buses in interstate commerce. 
For example, a famous insider joke among commercial drivers concerns 
``doctor shopping''--which, under the current FMCSA regulation also 
includes an advanced practice nurse, a physician's assistant, and a 
chiropractor. If you can't find a health care provider to pass you the 
first go-around, you have a good chance if you keep trying.
    The ease with which some drivers can find a health care provider to 
certify them has multiple causes. First, many practitioners are not 
aware that the medical standards for commercial drivers in several 
major health areas are higher and more stringent than for passenger 
vehicle licensure. As a result, some drivers can pass a physical linked 
to operation of a passenger vehicle, but would fail a medical 
examination using the higher standards for interstate commercial 
vehicle operation. It's not that most of these practitioners are not 
competent but rather that they don't know the regulations--and many 
drivers are happy that they don't.
    Unfortunately, there are also health care providers who override 
the criteria of the regulations and nevertheless certify a driver even 
though technically that driver failed some part of the exam. There also 
are providers who do not conduct a thorough physical, failing to test 
in required health areas, so that certification is provided on the 
basis of an incomplete exam.
    These abuses can be substantially curtailed, if not eliminated, if 
the FMCSA is instructed to think along the lines of the well-trained, 
highly skilled cadre of flight surgeons currently used the Federal 
Aviation Administration that is specifically dedicated to performing 
the physicals for commercial pilots. We recommend that the FMCSA 
conduct rulemaking to garner a wide range of views on what the training 
and certification standards should be to govern these medical 
examiners. A national registry, for one thing, should be based on some 
demonstration of knowledge and proficiency in conducting physical 
examinations, and for an applicant to demonstrate a detailed 
understanding of the different medical standards in the Federal Motor 
Vehicle Safety Regulations used to qualify commercial drivers. We also 
recommend that anyone listed on the national registry be periodically 
re-certified by passing another proficiency examination as well as 
undergoing refresher training.

        Recommended Action:

        Direct FMCSA to include the driver fitness certification in the 
        CDL issuance and renewal process, ensure that renewal periods 
        coincide for both CDLs and medical certifications in each 
        state, and establish a preferred registry of health care 
        providers who pass a rigorous certification examination 
        demonstrating their knowledge and competence to conduct 
        comprehensive physical examinations of drivers seeking medical 
        certification, including their understanding of the Federal 
        Motor Carrier Safety Regulations.
The ``Share the Road Safely'' Program Needs Major Reforms or It Should 
        be Terminated
    The FMCSA's predecessor agency, the Office of Motor Carriers in the 
Federal Highway Administration, began an effort in tandem with the 
trucking industry in the early 1990s called the ``No Zone'' that 
emphasized a truck driver's ``blind spots'' on the road and the need 
for passenger vehicle drivers to avoid driving in these ``no zones.'' 
Unfortunately, the no zone was used immediately by the trucking 
industry as a propaganda weapon to try to offset the horrific crash 
figures associated with big truck crashes: although large trucks are 
only 4 percent of registered vehicles on the road, they are involved in 
12 percent of fatal crashes, and 23 percent of the passenger vehicle 
occupants who die each year in multi-vehicle crashes were involved in 
crashes with large trucks, according to the Insurance Institute for 
Highway Safety. The truck crash figures maintained by the Insurance 
Institute for Highway Safety also emphasize that when large trucks 
collide with small passenger vehicles in fatal crashes, 98 percent of 
the people who die are in the small vehicles.
    Using bogus research claims, the trucking industry and even the 
FMCSA has kept up a steady drumbeat of claims that most fatal crashes 
involving large trucks and small passenger vehicles are primarily the 
fault of or are somehow caused by the drivers of the cars, pickup 
trucks, vans, and sport utility vehicles. But in a General Accounting 
Office (GAO) report released at the end of May 2003, the GAO states 
that subsequent research by the FMCSA showed that, at most, only 35 
percent of fatal passenger vehicle--large truck collisions are 
attributable to passenger vehicles traveling in the No Zone.\3\
---------------------------------------------------------------------------
    \3\ Truck Safety: Share the Road Safely Program Needs Better 
Evaluation of Its Initiatives, U.S. General Accounting Office, GAO-03-
680, May 2003.
---------------------------------------------------------------------------
    The new version of the ``No Zone'' program, dubbed the ``Share the 
Road Safely'' program since the year 2000, already had been heavily 
criticized by the GAO in a previous evaluation.\4\ The current GAO 
evaluation is similar to its previous evaluation and testimony in that 
both reviews stress the failure of the Share the Road Safely program to 
have quantified measures of effectiveness to determine the extent of 
the success of the effort to educate drivers how to operate their 
vehicles in the vicinity of large trucks.
---------------------------------------------------------------------------
    \4\ Testimony of Phyllis Scheinberg, Director, Subcommittee on 
Ground Transportation, House Committee on Transportation and 
Infrastructure, U.S. Congress, March 17, 1999, GAO-T-RCED-99-122.
---------------------------------------------------------------------------
    The May 2003 GAO report also criticizes the earlier FMCSA 
evaluations of the No-Zone/Share the Road program because these reviews 
were unable to determine any program effectiveness. The reasons that 
these evaluations could not really show any benefits were:

  <bullet> The evaluations relied on self-reporting by motorists, a 
        process well-recognized to be inherently biased.

  <bullet> The FMCSA had no baseline of driver knowledge and behavior 
        with respect to the No-Zone/Share the Road effort to use to 
        compare before/after effects of the program.

  <bullet> The FMCSA had no ability to determine whether there were any 
        changes in driving behavior or frequency of passenger vehicle-
        large truck crashes due to the influence of the program's 
        initiatives or because of other, different influences.

    The GAO report also stresses that the numerous highway safety 
officials and researchers contacted for the current evaluation of the 
Share the Road Safely program all agreed that public education efforts 
alone are unlikely to produce substantial changes in driver behavior 
and attitudes unless they are coupled with other safety initiatives 
such as local law enforcement programs to increase traffic law 
compliance. The report also points out that the FMCSA agreed that the 
National Highway Traffic Safety Administration has the expertise to 
develop and evaluate information programs aimed at improving driver 
safety consciousness and driving behavior.
    I would like to add here that the Administration bill called 
``SAFETEA'' currently has two provisions for refunding the Share the 
Road Safely program. Section 4018 of the Administration bill openly 
sanctions the program as an expanded effort, but provides no dedicated 
funds.
    The other provision, Section 4002, is where the money will come 
from. This long provision deals with motor carrier safety grants, 
primarily the reauthorization of the Motor Carrier Safety Assistance 
Program (MCSAP), but expands the authorized use of funds to grant the 
Secretary broad discretion annually to use large percentages of these 
funds for any research or educational purpose, including funding 
private parties to conduct ``activities and projects national in 
scope'' to increase ``public education or awareness.'' This includes, 
of course, using Federal funds originally dedicated to furthering the 
states' motor carrier safety oversight and enforcement programs to fund 
special interest groups and trade associations to conduct part of the 
Share the Road Safely program. I should also mention that part of the 
MCSAP funding authorized in Section 4002 of the Administration's bill 
directs the states to emphasize the enforcement of passenger vehicle 
traffic violations instead of using these precious dollars to improve 
numerous aspects of motor carrier operations.
    So one of the purposes of a diluted MCSAP authorization provision 
is to siphon off limited Federal funds in uncontrolled amounts--funds 
originally intended to further the states' capabilities to increase 
motor carrier safety--to further an initiative that the GAO has 
indicated as amounting to 10 years of effort and 6.8 million spent 
Federal dollars with no measurable safety product to show for the 
money. And we should not forget to mention here that the GAO points out 
in its May 2003 report that most of the funds over this past decade 
were used to hire contractors, with some contracts costing up to 
$300,000 a shot. Unfortunately, however, the agency, as the GAO also 
points out, has no accounting of where the contracted payments went 
before the year 2000 (1992-1999). Perhaps Congress should require an 
investigation of where this money went and to whom.
    As a result of these abuses of the public trust and the findings of 
the GAO in its recent report showing a decade of bankrupt agency and 
industry attempts at ``educating'' the public and thus classifying 
light vehicle drivers as the prime offenders in truck-car crashes, we 
have formed our own recommendations for reauthorizing the program that 
are directly supported by the results of the May 2003 GAO report and 
its own recommendations.

        Recommended Actions:

        The Share the Road Safely program should be transferred to 
        NHTSA to take advantage of that agency's expertise in creating, 
        implementing, and evaluating educational programs, especially 
        those addressing the need of changing driver behavior and 
        attitudes.

        MCSAP funds should not be used for the Share the Road program, 
        allowed by the Administration in its reauthorization bill, 
        until the program has demonstrated concrete success in meeting 
        the measurable goals set forth by the GAO.
FMCSA Reauthorization
    The reauthorization request by FMCSA for FY 2004 is $447 million, 
growing to $499 million in 2009. This is about a 20 percent increase 
over current funding for FMCSA programs. While we strongly believe that 
more Federal funds need to be spent on truck safety, we are not sure 
that this agency knows how to spend it effectively without strong 
direction, specified goals and sustained goading from Congress. One 
only need to review the legislation passed in 1999 creating this 
agency, particularly the findings and purposes section, to realize the 
shortcomings of this agency. Unfortunately, the American public is 
paying the price, with their lives and hard earned taxpayer dollars.
    Thank you for allowing me to testify. I am pleased to answer any 
questions you and other members of the Subcommittee may have.

    Senator Sununu. Thank you.
    Mr. Hurst?

        STATEMENT OF PETER HURST, PRESIDENT, COMMERCIAL

       VEHICLE SAFETY ALLIANCE; ACCOMPANIED BY LIEUTENANT

           PAUL SULLIVAN, MASSACHUSETTS STATE POLICE

    Mr. Hurst. Thank you, Mr. Chairman.
    My name is Peter Hurst. I'm the President of the Commercial 
Vehicle Safety Alliance and the Director of the Carrier Safety 
and Enforcement Branch for the Ontario Ministry of 
Transportation. CVSA is an international association of state, 
provincial, and Federal truck and bus law enforcement agencies, 
along with representatives from industry in the United States, 
Canada, and Mexico. I want to thank the Committee for inviting 
us here today to present our proposals.
    Commercial vehicle safety and enforcement have come a long 
way in the 20-plus years that CVSA has existed. Since 1991, the 
out-of-service rate has declined by 29 percent, and the 
fatality rate of crashes involving commercial vehicles has 
dropped by 25 percent. These achievements are the direct result 
of the efforts of thousands of CVSA-certified front-line 
inspectors, the programs under the Motor Care Safety Assistance 
Program, and our industry partners. However, we cannot stand 
pat as we are faced with change and new challenges. The volume 
of goods moved by commercial trucking grows almost daily, as 
trucking has become the economic lifeblood of North America and 
the need to balance commerce with security takes on more 
importance.
    At this time, I would like to introduce our primary witness 
for today, Lieutenant Paul Sullivan, of the state of 
Massachusetts State Police and immediate past President of 
CVSA, who will present the details of CVSA's reauthorization 
proposals.
    Senator Sununu. Welcome, Mr. Sullivan.
    Lieutenant Sullivan. Thank you, sir.
    It was only 10 days ago that 21-year-old rookie police 
officer, Jeff Parcell, was down doing his job in North 
Carolina, what he was trained to do, awareness and recognition 
programs, and he arrested the alleged Olympic bomber, Eric 
Rudolph, using an awareness and recognition concept. As we talk 
about traffic enforcement, new entrants, the effectiveness of 
the CDL program, the effectiveness of the technology programs, 
and the basic core group that we do every day, we share a goal 
with Federal Motor Carrier Safety Administration. But to do so, 
we need an increase in resources and flexibility in how they 
are administered for both the Federal and the state programs.
    I've inspected thousands of trucks in my life, and I've 
been to hundreds of accident scenes. Now I'm talking to police 
officers about what their training needs are, and the local 
police officers are telling me that their training needs are--
they want to know how to stop a truck, and they want the 
information on economic regulations that were created for 
seamless borders so that they can do some speed enforcement and 
maybe, when trucks spill something on the highway, they can 
also deal with that thing.
    But the regulations have created these people over here 
that know the regulations, and this knowledge gap in the 
middle, and the people on the right that don't. And if we have 
bad drivers on the highway getting involved in crashes, and if 
they're working for bad carriers, and we want an effective, 
quick means to get more people involved in traffic programs, 
then we need a commercial vehicle one-on-one with the local 
police officers and get those people, that really want to do 
the work, the knowledge that they need. And they're telling me 
that they're avoiding contact with commercial-vehicle 
operations, because we've made it too confusing for them and 
they're going to be making mistakes left and right.
    And I'm also talking to the small mom-and-pop trucking 
companies, and they come to me for questions about--that they 
have on the regulations, and we've built up a relationship with 
these people. And there's a knowledge gap there between the 
bigger companies that know and the small ones that don't. And 
then the small ones become successful, and they grow, and they 
become interstate transportation.
    I want to suggest that they don't grow overnight. Big 
interstate transportation fleets don't pop up overnight. And 
the small people can't be responsible for where their customers 
live. So now they're involved in interstate transportation. But 
they still have that comfortable relationship they've always 
had with their state enforcement people, and they still seek 
them out, and they seek out local police officers to answer 
questions. And I'm suggesting, in the New Entrant Program, we 
not ignore that.
    New Entrants is not a new concept. Jurisdictions, states 
and provinces, have been practicing this program for years, and 
the small companies have been using private contractors for 
years to satisfy their needs. And I'm afraid that we're going 
to ignore these successful state programs and provincial 
programs and the use of private contractors under the New 
Entrant Program.
    And using the same concept for CDL--CDL problems are not 
strictly with the system itself, the process. Police officers 
are making mistakes filling out citations. Judges are letting 
people go that they shouldn't. The licensing authorities are 
being very territorial in their information. We need to break 
down some of these institutional barriers. We've submitted our 
suggestions on how to do that under the CDL program.
    You know the results of the self-assessment program that 
CVSA conducted in Massachusetts and West Virginia, and how the 
system is not working the way it's designed. But we have 
submitted suggestions for improvement of that system.
    And also on the ITS systems, we've built chimneys of 
information that work fantastically well by themselves, and now 
the time has come for these information systems to start 
talking to each other and to the roadside inspector. That's who 
we represent here today, is the roadside inspector. And what 
might work very successfully at a desktop is not going to be 
very comfortable for a roadside inspector to do on the side of 
the road in a weigh station or if he's on patrol using a laptop 
computer. We need to tie those systems in together, complete 
the link that was the promise of CVISN when it started.
    And, to recap, I'd like to talk about the MCSAP core 
program. It's been very successful, as President Hurst 
mentioned. But to keep it going, we have suggested that the 
resources will, of course, have to be increased to maintain the 
level of efficiency that we have provided in the past, and that 
there should be some flexibility involved in expenditures for 
both Federal programs and the state programs. And we work very 
strongly with FMCSA, and congratulate them on their hard work, 
and for Mr. Hurst.
    Thank you very much.
    [The prepared statement of Mr. Hurst follows:]

    Prepared Statement of Peter Hurst, President and Paul Sullivan, 
             Lieutenant, Commercial Vehicle Safety Alliance
I. Introduction
    I am Peter Hurst, President of the Commercial Vehicle Safety 
Alliance and Director of Carrier Safety and Enforcement Branch for the 
Ontario Ministry of Transportation. CVSA is an international 
association of state, provincial, and Federal truck and bus law 
enforcement agencies along with representatives from industry in the 
United States, Canada, and Mexico.
    As CVSA President, and a motor carrier enforcement official from 
Canada, I just want to tell the Committee how important this 
reauthorization legislation is to CVSA. At the same time, it will be of 
great interest to the Provinces and Territories of Canada especially 
with respect to border and new entrant issues.
    At this time, I would like to introduce our primary witness for 
today, Lieutenant Paul Sullivan of the Massachusetts State Police and 
immediate past President of CVSA who will present the details of CVSA's 
reauthorization proposals.
    Good morning, Mr. Chairman, and members of the Commerce Committee, 
I am Paul Sullivan, a Lieutenant with the Massachusetts State Police, 
and am here today to present CVSA's reauthorization policy on behalf of 
all of our members.
II. Challenges for the upcoming Reauthorization
    Our recommendations have been carefully considered to meet the 
following challenges ahead of us:

  <bullet> Help achieve the goal we share with the Federal Motor 
        Carrier Safety Administration to reduce the truck fatality rate 
        by 41 percent (from 1996 to 2008) or 1.65 fatalities per 100 
        million vehicle miles traveled. We appreciate the comments made 
        by FMCSA Administrator-Designate Annette Sandberg before this 
        Committee on May 21 in which she credited the states with 
        playing a significant role in the preliminary estimated 3.5 
        percent reduction in fatalities resulting from commercial 
        vehicle crashes for 2002.

  <bullet> Strengthen safety enforcement programs that have worked and 
        take on new programs which the performance-based approach has 
        identified as having significant potential to achieve safety 
        goals.

  <bullet> The need for a greater focus on commercial vehicle 
        transportation security and the implication for front-line 
        police charged with motor carrier safety enforcement.

  <bullet> Recognize that states are now facing their most severe 
        budget crisis in many years as we determine a reasonable and 
        appropriate balance between the funding of Federal and state 
        operations.
III. CVSA Reauthorization Recommendations
Increase MCSAP by 5 percent annually over the life of the bill.
    A CVSA member survey indicates that states need an increase of 5 
percent annually, or 30 percent over the life of the bill, to keep the 
roadside inspection and other enforcement programs such as motor 
carrier Compliance Reviews at their present strength. It is important 
to note that in most states, the MCSAP grant is used almost exclusively 
for inspector salaries. States have the greatest ability to impact 
safety's bottom line of reducing crashes and injuries, and most 
importantly, saving lives. One of the primary reasons for this is the 
state roadside inspection program.
    This is the conclusion of two recent studies commissioned by the 
Federal Motor Carrier Safety Administration and undertaken by the Volpe 
National Transportation Systems: FMCSA Compliance Review Impact 
Assessment Model (February 2002) and FMCSA Roadside Inspection and 
Traffic Enforcement Effectiveness Assessment (December 2001). Data was 
reviewed on compliance reviews, roadside inspections, and traffic 
enforcement for the year 1998. These are the primary enforcement 
programs constituting the ``core'' MCSAP programs. They created an 
analytical model to calculate the number of crashes avoided and 
injuries and lives saved. We, at CVSA, using dollar values taken from 
FMCSA's cost-benefit analysis for the latest CDL Final Rule on July 31, 
2002, assigned total dollar values to each of the these three 
categories. Roadside inspections resulted in the greatest number of 
crashes avoided, lives saved and injuries avoided. When attaching 
dollars to these numbers, roadside inspections provided the greatest 
return on investment. (See Attachment A for a more detailed summary).
    We are concerned that FMCSA's proposal does not increase the MCSAP 
program at all in the first year of reauthorization, keeping it at 
$164,500,000, while the FMCSA's administrative budget is increased by 
59 percent in the first year of reauthorization. Looking at FMCSA's 
projected increases in their Administrative budget for the life of the 
bill, their administrative budget goes up by another 11 percent and the 
MCSAP program goes up by 10 percent. FMCSA's operations end up with a 
70 percent increase over the life of the bill and MCSAP with only 10 
percent over the life of the bill. We suggest that this is out of 
balance and that a 38 percent increase over the life of the bill for 
the MCSAP program is justified and reasonable.
    In discussing the funding levels for the MCSAP program, we feel we 
are obligated to tell you that many states are having great difficulty 
in coming up with the full 20 percent match (MCSAP is an 80/20 program) 
to draw the maximum amount of their grant. Over the past two years, 
some 38 states were forced to roll over at least part of their full 
allocation to the following year. We realize that in these difficult 
economic times, this is an unfortunate reality in other Federal grant 
programs. But we do suggest that FMCSA work more closely with the 
states to try and resolve this problem. And we recommend that, as in 
the case of the ITS-CVO Commercial Vehicle Information Systems Network 
program administered by the Federal Highway Administration, 
consideration be given to allowing the states to use other Federal 
dollars for the match not to exceed 90 percent reducing the state share 
to 10 percent.
    Another funding source available to help resolve this problem is 
the High Priority Program.
High Priority Program and Safety Performance Incentive Programs
    We support the purposes of both of these programs. Our members 
fully embrace the incentive, performance-based approach. We also 
support FMCSA's proposed increase in the takedown for both programs 
from 5 percent to 10 percent of the overall MCSAP funding level.
    We are pleased that neither of these programs will require a 
matching contribution from the state. CVSA has been a strong advocate 
of 100 percent funding for these programs because, unlike the basic 
inspection program grant, projects under either of these programs 
cannot necessarily be planned to coincide with the state legislative 
budget cycles. We appreciate FMCSA's recognition of this problem.
Traffic Enforcement
    Flexibility for the states to use MCSAP officers for traffic 
enforcement that is not tied to an inspection (current policy), should 
only be allowed when funds are provided over and above the basic MCSAP 
core inspection grant. CVSA suggests use of High Priority Program funds 
for this purpose. Traffic enforcement efforts should not take resources 
away from the core program.
    Traffic enforcement against the passenger car around trucks is 
something that should be tested in a pilot program to ensure uniform 
collection of violation data and provide a way to measure its 
effectiveness. We suggest that this pilot program be undertaken in 
conjunction with the National Highway Traffic Safety Administration.
    This pilot should include the involvement of local law enforcement 
officers who already do traffic enforcement against the passenger car. 
There are close to 800,000 such officials throughout the country. These 
officers would be trained in basic ``rules of the road'' for trucks and 
security awareness as well. The training would help make them more 
comfortable in doing traffic enforcement around trucks multiplying the 
impact on safety.
    Finally, the pilot program would be a way to test education/
outreach strategies especially on the car/truck interaction issue.
New Entrants
    We support this program which was a provision of the Motor Carrier 
Safety Improvement Act of 1999. It is important to do safety audits on 
the approximately 50,000 new carriers entering the trucking business 
each year. Studies show that new entrants are more crash prone in their 
early stages of operation.
    This is a resource intensive program since in most cases, it 
requires a face to face meeting with the new entrant on site at the 
place of business. A survey of CVSA member jurisdictions indicates that 
the cost to fully implement a new entrant program would be $30,000,000 
a year. The good news is that FMCSA's overall cost estimate agrees with 
our survey.
    But a problem arises when it comes to finding the dollars to fund 
this program. FMCSA directed the implementation of this rule to begin 
in January 2003. Yet there is no line item in FMCSA's 2003 budget that 
would fund the program with the result that states are ``scrambling'' 
to try and comply and in most cases are having to pull their 
enforcement personnel away from targeting known bad carriers to do the 
new entrant safety audits. We do not believe that Congress intended 
this to happen.
    In this past week, we have been hearing from members who are now 
working on their MCSAP commercial vehicle safety plan for Fiscal Year 
2004 that starts in October and are uncertain about what to expect in 
2004. They are asking whether there will be enough money in FMCSA's 
2004 budget to help them with this program? Will the reauthorization 
bill pass providing enough funding?
    When looking at FMCSA's reauthorization proposal we find that the 
$17,000,000 allocated for the states for this program is not enough. 
But we have learned that in public testimony before the Congress, FMCSA 
indicates that it is reserving another $16,000,000 within its 
Administrative budget to monitor and administer the program. This 
expenditure is to cover the cost of their hiring 32 new staff members 
and recruiting and training 67 private contractors to do safety audits 
in those states who are unable to implement a new entrant program on 
their own.
    While on this issue of private contractors, we ask FMCSA what kind 
of certification and quality control program will be established to 
assure the quality of these private contractors? And why should states 
be precluded from using properly certified private contractors? 
Shouldn't this be an option for the states as well? We suggest everyone 
take a close look at what the Province of Manitoba is doing with 
respect to private contractors. They are implementing a uniform third 
party training, testing and accreditation program for use by all 
Canadian Provinces.
    CVSA believes there appear to be two possible solutions to this 
problem. The optimum solution would be to delay the implementation of 
this program until all jurisdictions are able to implement it and a 
pilot program has been undertaken that would establish the best way to 
carry out the program, including the use of private contractors, 
without encroaching on current state enforcement efforts such as 
roadside inspections and compliance reviews. MCSIA'99 contains a 
provision providing for a staging or phasing in of the program 
precisely to avoid siphoning resources from inspections and compliance 
reviews. If reauthorization legislation does not pass Congress by 
September of this year, then this may be the only option because an 
extension of 2003 funding levels will not leave FMCSA with any dollars 
at all to fund the program for 2004.
    The other option, assuming reauthorization passes, is to direct 
that not less than $13,000,000 of the $16,000,000 FMCSA is reserving 
for its own efforts to administer and monitor the program go directly 
to the states. The $13,000,000 when added to the $17,000,000 reserved 
for the states reaches the $30,000,000 total that CVSA has determined 
is necessary for the states and obviates the need to cut into the state 
core inspection grant to fund the new entrant program. We believe that 
the remaining $3,000,000 should be adequate for FMCSA to exercise 
program oversight.
Border Enforcement Grant Program
    Funding under this program should not be limited to just the border 
states. It is very possible that any state in the country could be 
affected by the opening of the Southern border. A clear example is the 
necessity for roadside officers to enforce vehicle registrations which 
is a provision in another part of this bill.
    Also, although it is not specifically detailed in the bill, FMCSA 
has otherwise stated in recent testimony that $9,000,000 of this grant 
program would be used to conduct 200,000 HM inspections at the Northern 
border. We ask how this money will be allocated to each of the Northern 
Border states? Will it be allocated as part of their annual MCSAP 
grant?
CDL Program
    CVSA is pleased at the funding levels provided for a new CDL grant 
program that range from $22,000,000 in the first year to $25,000,000 in 
the last year of the bill. We have long advocated the creation of a 
separate CDL grant program with funding at these levels.
    But the purpose and conditions for CDL grants to the states are not 
clearly defined in the proposed Act. Additional statements on this 
issue by FMCSA at recent hearings still do not define clearly the 
purpose of the program and do not stress the importance of remedying 
the many of the documented deficiencies that now exist in the CDL 
program. Man drivers are not being sanctioned and are causing crashes 
and fatalities.
    CVSA recommends that the initial purpose of the grant program 
should be to encourage all states to undertake a comprehensive self-
assessment of their CDL programs as has been done under CVSA (FMCSA 
funded) pilot program with the states of Massachusetts and West 
Virginia. The second part of the pilot program would be to specifically 
identify and implement those steps needed to correct the deficiencies.
    CVSA recommends that this new grant program:

  <bullet> be modeled after the MCSAP in terms of oversight and 
        procedures, but with a 50/50 match since state licensing 
        agencies have substantial resources through their fee 
        structures

  <bullet> provide accurate and timely driver information to roadside 
        enforcement

  <bullet> establish specific conditions under which grants will be 
        awarded such as the creation of a state interagency task force 
        including all state agencies responsible for administration and 
        enforcement of CDL rules such as the state lead MCSAP agency 
        and judiciary, and the preparation of an annual work plan

  <bullet> require each state to undertake a CDL ``Self-Assessment'' 
        program modeled after the CVSA pilot program funded by FMCSA 
        under TEA-21.

    A major goal of this program must be for all states to participate 
in the grant program because many of the problems must be addressed 
nationwide to have the maximum impact.
    CVSA questions the designation of up to 25 percent of the CDL 
program for emerging issues without a clear definition of what they 
are. We believe the comprehensive self-assessment approach we recommend 
would certainly uncover any emerging issues that need to be addressed.
ITS-CVO--Commercial Vehicle Information Systems and Networks Deployment 
        (CVISN)
    CVISN ties together all of the vehicle, driver and carrier 
information that roadside inspectors need accurately and in real time. 
It is a necessary and companion system to make available to the 
inspector at the roadside, the critical driver information we have 
discussed with respect to our proposed CDL grant program.
    Under TEA-21, $184,000,000 was authorized over the life of that 
bill for the states to deploy CVISN. However, only $40,000,000 actually 
reached the states with the result that as of today, only 9 states are 
at a point of being able to deploy CVISN Level I capabilities. 
Significant resources, $144,000,000 are needed to catch up.
    We support Section 1704 in the Administration's bill which is a 
clear step in the right direction to make up for lost time. By 
transferring the program to Title I of the Federal-aid-highway program, 
the funding for CVISN will be ``fire-walled'' and more protected from 
the earmarking process which was a major reason that the money 
authorized for CVISN in TEA-21 did not reach the states.
    However, the funding levels in Section 1704 are not fully adequate 
for the states to catch up in deploying CVISN. The allowance of $2.5 
million per state falls short of the $144 million needed. Just as 
important is that the program remains a 50/50 matching program which is 
not consistent with the 80/20 matching provisions applicable to MCSAP. 
While the states are allowed to use other Federal dollars as a part of 
the match up to 80 percent, they may not always be able to take 
advantage of this exemption from a practice that is otherwise precluded 
in most grant programs. As we have pointed out earlier in our 
testimony, in these difficult times, states are having a problem in 
general in meeting the matching requirements.
Enforcement of Commercial Vehicle Registration Requirements
    The requirement for roadside officers to enforce vehicle 
registration should not be achieved through an out-of-service 
declaration, but rather through a ``suspend operations declaration'', 
or something similar. The use of an ``out-of-service'' declaration 
would have the effect of adding an item which is not ``imminent'' 
hazard to the CVSA Out-of-Service criteria.
Use of MCSAP Funds for Local Government or Other Persons
    In several provisions of Sec. 4002 (a), the Motor Carrier Safety 
Assistance Program, the Secretary of Transportation is provided the 
authority to make grants to a State agency, local government, or other 
person.
    To preserve the uniformity and integrity of all of programs that 
are funded under the MCSAP program, it is absolutely essential that in 
those instances where local governments or other persons may be the 
applicants, funding must first pass through, and be coordinated by, the 
state lead MCSAP agency.
    The hallmark of the CVSA inspection program is uniformity among all 
states, provinces and territories. To maintain this at the state and 
provincial level requires constant vigilance on our part. The need for 
this is just as great, or perhaps even greater, at the local level. The 
industry deserves this and, in our view, it is the only way to achieve 
the safety goals that we all support.
Uniform Carrier Registration Plan
    It appears to us that Section 4008, Financial Responsibility for 
Private Motor Carriers, is the appropriate section to again direct the 
establishment of the Uniform Carrier Registration (UCR) program, which 
was first required in the ICC Termination Act.
    CVSA supports the legislation developed by an industry task force 
that would establish a new UCR program to supercede the existing Single 
State Registration System (SSRS) which now applies only to for-hire 
carriers in 38 states. In addition, and of great importance to CVSA, is 
that this industry proposal would guarantee that states would be 
reimbursed for those SSRS proceeds currently being used for motor 
carrier safety enforcement.
Interstate Operations of Interstate Motor Carriers
    CVSA supports Section 4011 in the FMCSA proposal that would allow 
capture of intra-state violation data on a carrier that also operates 
in interstate commerce. In addition, we support the measure that would 
apply an out of service order on an interstate carrier to its intra-
state operations as well.
FMCSA Authority to Stop Commercial Vehicles
    CVSA recommends that this grant of authority to FMCSA in Section 
4012 should be confined to border situations. We do not believe the 
Administration or Congress is interested in creating a new police 
force. This provision could be interpreted as an intention of FMCSA to 
assume control of all, or part of, the existing state inspection 
program and we recommend additional language in this section that would 
confine the prescribed FMCSA authority ``in the vicinity of an 
inspection site at the border.''
    We also believe that Section 4012 would be an appropriate Section 
in the DOT proposal to more clearly reflect the process by which the 
North American Standard Inspection and Out of Service Criteria are 
developed and implemented by CVSA.
    Section 31102(b)(1)(J) Title 49, United States Code, should be 
amended by adding the following language: ``This North American 
Standard Inspection and North American Standard Out of Service Criteria 
and decal program are developed by the Commercial Vehicle Safety 
Alliance and are identified in Parts 350, 385, and 390 of the Federal 
Motor Carrier Safety Regulations.''
    We believe there is precedent for our recommendation in the NAFTA 
border safety provisions of the 2001 Transportation Appropriations bill 
passed by the Congress.
International Cooperation
    We fully support the intent of Section 4015. Given the fact that 
hopefully our Southern border will soon be open to Mexican truck and 
bus traffic and our longstanding seamless operations at the Northern 
border with Canada and its Provinces, we need to foster greater 
participation and cooperation in international activities that would 
that enhance highway safety through exchange of information, conducting 
research, and examining needs, best practices, and new technology.
    One reason for our support is that this best describes what CVSA 
does as an alliance.
    We would make one very important recommendation that we believe 
supports the intent of this section. It is that data from Canadian and 
Mexican inspections of U.S. commercial vehicles should be allowed to be 
used by FMCSA for purposes of carrier ratings and possible enforcement 
actions. Also, financial consideration should be given to Canada and 
Mexico for their inspection and enforcement efforts in this regard.
Truck Rest Areas
    We do not believe that the proposal in Section 1306, Title I of the 
Federal-aid Highway Act adequately address the overall problem of the 
shortage of adequate rest areas for truck drivers. We do not need any 
more studies or pilot projects in this regard.
    But we do believe that the proposal adopted by the American 
Trucking Associations and the National Truck Stop Operators will 
address the problem. It would establish a public-private partnership 
through the creation of a Parking Assistance Resource Corporation 
(PARC) to do the following:

  <bullet> identify the locations of truck parking shortages and the 
        reasons for them

  <bullet> develop best practices and recommended minimum design, 
        security and lighting requirements

  <bullet> review and prioritize applications from private enterprise 
        aimed at alleviating the shortage at specific locations and 
        make corresponding recommendations to the DOT Secretary

  <bullet> identify specific NHS corridors where regional and multi-
        state strategies would be effective in solving the problem

    PARC would be funded with a grant from the Federal Highway 
Administration and be governed by a Board of Directors comprised of 
representatives from FMCSA, ATA, TCA, NATSO, AAA, and CVSA.
Training Passenger Car Drivers to Drive in the Vicinity of Commercial 
        Vehicles
    CVSA supports the provision in Section 4002 under MCSAP that would 
require the states to revise their driver training manuals for 
passenger car drivers to include information and best practices for 
driving in the vicinity of commercial vehicles.
    However, we suggest that any administrative costs be funded by the 
state licensing agency that has jurisdiction over passenger car 
drivers. We believe that when appropriate, other state agencies must 
share the responsibility for highway safety.
Motor Carrier Advisory Committee
    A Motor Carrier Safety Advisory Committee should be established by 
FMCSA. Section 105 of the Motor Carrier Safety Improvement Act of 1999 
authorized the Secretary of Transportation to establish a commercial 
motor vehicle safety advisory committee to provide advice and 
recommendations on a wide range of motor carrier safety issues. The 
advisory committee was to remain in effect until September 30,2003. 
This never happened and CVSA believes the need to establish such a 
committee still exists.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Sununu. Thank you very much, Mr. Sullivan.
    Mr. Harrison?

STATEMENT OF JOSEPH M. HARRISON, PRESIDENT, AMERICAN MOVING AND 
                   STORAGE ASSOCIATION (AMSA)

    Mr. Harrison. Good morning. I am Joe Harrison, President of 
the American Moving and Storage Association headquartered in 
Alexandria, Virginia. AMSA is the national trade association of 
the moving and storage industry, representing 3,500 movers 
worldwide, 2,000 of which are interstate motor carriers 
regulated by the Federal Motor Carrier Safety Administration 
and the Service Transportation Board.
    My complete statement to this Committee provides a detailed 
explanation of my industry's position on a number of issues 
related to Federal regulation of the interstate moving industry 
and, in particular, the need to address the problems created by 
rogue movers.
    However, at the outset, I will address the primary purpose 
of this hearing, reauthorization of the Safety Administration's 
programs and responsibilities. The moving industry supports the 
administration's effort to improve highway safety. We operate 
an estimated 70,000 vehicles, and we are responsible for the 
operations of 30,000 drivers that are on our Nation's highways. 
We commend the administration for the sensible approach it 
developed in the formulation of its recently announced hours-
of-service regulations. We will continue to provide input to 
the administration on important truck safety issues that it 
must address.
    Turning to its regulation of the moving industry, we also 
support the Administration's request for an additional $1 
million in funding to bolster its enforcement capabilities. We 
are disappointed that more money is not available for this 
important effort, since we are convinced, as was the General 
Accounting Office in its 2001 report to Congress, that 
effective regulation of the interstate moving industry requires 
strong Federal oversight and, in fact, is not conducive to 
regulation by 50 different states.
    Despite this, we are aware that serious consideration is 
being given to expanding regulation of interstate movers by 
authorizing the states to enforce the existing Federal statutes 
and regulations affecting my industry's daily operations. While 
we firmly believe strict enforcement of the consumer protection 
regulations by the Federal Government is the most effective way 
to rein in illegal operators, and not state enforcement, rest 
assured that we welcome the opportunity to work with this 
Committee and your staff to fashion a legislative proposal that 
will address enforcement without impeding the operations of 
legitimate movers.
    As we move forward with this effort, Congress must not lose 
sight of the fact that the moving industry handles roughly 1.3 
million interstate moves each year, the overwhelming majority 
of which are accomplished to the satisfaction of the moving 
public.
    I urge your Committee to bear this in mind and reject 
overzealous demands to exponentially increase my industry's 
liability for loss or damage to goods. We are strongly opposed 
to any proposal that would expand our liability by making us 
also liable for damages arising from application of the state's 
deceptive practices acts. The moving industry, just like any 
other segment of our Nation's transportation industry--
railroads, freight motor carriers, and freight forwarders--
cannot withstand the economic uncertainties of loss-and-damage 
litigation that presents the potential for awards of punitive 
and other forms of consequential damages that are not related 
to the value of lost or damaged goods.
    On the rogue-mover issue, my association has discussed a 
number of legislative measures with your staff and their 
counterparts in the House, which we believe would disrupt the 
rogues' ability to defraud consumers. Rogue movers exist solely 
to defraud the public. In its effort to deal with this problem, 
Congress must also not lose sight of the fact that only 
legitimate movers, those that are not at the heart of the 
problem, will comply with any new legislative measures that are 
enacted. The rogue movers will not. They will continue to 
ignore the law. Certainly, that was the case with the illegal 
operators that are being prosecuted in the recent Federal 
criminal indictments of 42 rogue movers and 74 individuals that 
were involved in their operations. They were ignoring the law, 
and if they were allowed to continue to operate, they would 
ignore the existing law, as well as any other new enactments. 
Once again, the solution to the problem they have created is 
strict Federal enforcement and incarceration, if warranted.
    AMSA's approach to dealing with rogue movers is grounded on 
our knowledge of the industry and our understanding of the 
traps rogues set for consumers. We, therefore, believe that the 
following legislative steps would seriously impact the 
operations of illegal operators and hamper their ability to 
defraud consumers.
    Number one, authorize the states to proceed against movers 
that violate Federal licensing, pricing, and arbitration 
requirements, or hold customers' goods hostage. Two, establish 
civil and criminal penalties to combat unlawful hostage-freight 
practices. Three, require the regulation of Internet brokers of 
household goods. Number four, require that FMCSA establish 
meaningful registration requirements for authority to transport 
household goods. Number five, require that consumers receive 
written estimates of moving services, charges, and inventories 
of their goods. Number six, require that FMCSA increase its 
consumer-education activities. Number seven, establish a 
consumer complaint data center. And, finally, number eight, 
increase public access to mandatory loss-or-damage arbitration, 
and expand arbitration to include transportation payment 
disputes.
    AMSA believes these legislative proposals will help 
consumers avoid use of rogue movers and make it much more 
difficult for rogue movers to prey upon consumers. It should 
receive your serious consideration.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Harrison follows:]

         Prepared Statement of Joseph M. Harrison, President, 
             American Moving and Storage Association (AMSA)
    My name is Joseph M. Harrison. I am the President of the American 
Moving and Storage Association (AMSA) with offices at 1611 Duke Street, 
Alexandria, VA 22314.
    AMSA is the national trade association of the regulated moving and 
storage industry with 3,500 members worldwide representing the entire 
spectrum of the industry, including approximately 25 national van 
lines, 1,100 independent regulated carriers, 1,600 agents of van lines, 
1,000 of whom are also regulated carriers in their own right, and over 
500 international movers. These entities contract with 30,000 
independent owner-operators who own equipment and perform much of the 
physical transportation of household goods. The industry employs 
roughly 450,000 workers, operates 66,000 trailers, 32,000 tractors and 
18,000 straight trucks and generates revenues of $7 billion annually. 
We operate in every city, town, borough and hamlet in the United 
States. In addition to our interstate transportation service, we 
perform the intrastate and local moving and storage services that are 
required by consumers and industry. AMSA's functions include 
representation and promotion of the interests of the moving and storage 
industry before Federal and State legislative and regulatory bodies.
    This statement is submitted in response to the Committee's 
invitation to participate in its hearing on reauthorization of the 
Federal Motor Carrier Safety Administration (FMCSA) programs and 
responsibilities and the issue of fraud in the transportation of 
household goods.
Reauthorization
    The moving industry supports FMCSA efforts to improve highway 
safety. We commend the Administration for the sensible approach it 
developed in the formulation of its recently announced hours of service 
regulations. We will continue to provide input to the Administration on 
all important truck safety issues it must address.
    We also support the Administration's request for an additional $1 
million dollars in funding to bolster its moving industry enforcement 
capabilities. We are, however, disappointed that more money is not 
available for this important effort since we are convinced, as was the 
General Accounting Office in its 2001 Report to Congress, that 
effective regulation of the interstate moving industry requires strong 
Federal oversight and, in fact, is not conducive to regulation by the 
50 states.\1\
---------------------------------------------------------------------------
    \1\ GAO-01-318, Consumer Protection in the Moving Industry, p. 22.
---------------------------------------------------------------------------
    It has become an accepted fact that rogue movers are the root cause 
of the current effort to involve the states in regulation of the 
interstate moving industry. Just recently a major blow was dealt to 
many unscrupulous operators by the criminal investigation and 
prosecution by the DOT Inspector General and the F.B.I. of 42 Florida-
based rogue movers and 74 individuals that were involved in their 
operations. This is a prime example of the aggressive action that 
should be taken by the FMCSA to rid the industry of unlawful operators. 
Clearly, the solution to the problems created by rogue movers is more 
aggressive Federal enforcement of the existing Consumer Protection 
regulations and incarceration of the operators of these enterprises. 
This should be the main focus of FMCSA oversight of the moving 
industry. However limited their resources may be, the most effective 
use of those resources lies in action that is most beneficial to 
consumer shippers. This means vigorous prosecution of illegal 
operators.
    We also believe FMCSA must demonstrate a more concerted interest in 
and focus on regulatory issues and proceedings that are intended to 
assist consumer shippers of household goods. For example, an FMCSA 
proceeding that would completely revamp the existing household goods 
Consumer Protection regulations has been pending an inordinately long 5 
years.\2\
---------------------------------------------------------------------------
    \2\ Docket No. FMCSA 97-2979, Transportation of Household Goods; 
Consumer Protection Regulations, 63 Fed. Reg. 27126 (1998).
---------------------------------------------------------------------------
    In addition, on more than one occasion, AMSA has petitioned FMCSA 
requesting formal proceedings to address issues that directly impact 
the rights of consumers. Each request was rejected for reasons we would 
submit simply evidenced an unwillingness to regulate.
    Just recently (3 months ago) AMSA filed another petition with FMCSA 
requesting the adoption of regulations governing the relationship 
between brokers of household goods transportation services and 
consumers. A major regulatory void exists in this area and action is 
necessary to warn consumers of the unscrupulous practices of, most 
particularly, Internet brokers. AMSA drafted proposed regulations and, 
because of the urgency of this issue, recommended immediate FMCSA 
action. To date, no response has been received from FMCSA.
State Regulation of the Interstate Moving Industry
    AMSA has advised your staff and their House counterparts that the 
moving industry is not opposed to conferring authority on the states to 
prosecute movers that violate important Federal licensing, pricing or 
arbitration requirements, or engage in hostage freight practices. We 
believe such a measure would seriously impact the rogue movers' ability 
to defraud consumers.
    The Administration's proposed solution (proposed Section 14710 of 
title 49), on the other hand, goes much further. If enacted, this 
provision would vest in the state's authority to conduct investigations 
and institute civil actions related to all statutes, regulations, and 
orders administered by DOT and the Surface Transportation Board which 
now govern the entire licensed motor carrier and freight forwarder 
industries. (The language of proposed subsection (a)(1) is not limited 
to motor carriers and freight forwarders that are engaged solely in the 
transportation of household goods. Only subsection (a)(2), which is 
limited to foreign motor carriers, encompasses those that are engaged 
in the transportation of household goods).
    Approaching this issue from a broader perspective, to the extent 
Congressional precedent exists for the shifting of Federal enforcement 
authority to the states to prosecute entities that are engaged in 
interstate enterprises,\3\ we do not believe the circumstances 
underlying enactment of those statutes are analogous to the 
circumstances presented by regulation of the interstate moving 
industry.
---------------------------------------------------------------------------
    \3\ E.g., Telemarketing and Consumer Fraud and Abuse Prevention 
Act, 14 U.S.C. Sec. 6101, et seq., Fair Credit Reporting Act, 15 U.S.C. 
Sec. 1601, et seq., Fair Credit Billing Act, 15 U.S.C. Sec. 1666. et 
seq.
---------------------------------------------------------------------------
    Presently, Federal statutes and regulations preempt the entire 
field of regulation of the interstate moving industry. In addition to 
consumer protection regulations, interstate movers must comply with 
regulations governing registration, insurance and process service; 
binding estimates and guaranteed pickup and delivery service; extension 
of credit; van line/agent pooling and agent responsibility; owner-
operator equipment leasing; loss and damage claim and dispute 
settlement, to name a few. This regulatory regime requires a uniform 
Federal approach to oversight and enforcement and is not suited to 
enforcement by the various authorities contained in 50 States. In its 
March 2001 Report to Congress, the General Accounting Office 
essentially adopted this position noting that whatever benefits may 
result from enforcement by the states cannot be measured until it has 
been preceded by vigorous DOT enforcement.\4\
---------------------------------------------------------------------------
    \4\ See footnote 1.
---------------------------------------------------------------------------
    The Administration's proposed statutory language is nearly 
identical to Section 6103 of the Telemarketing Fraud Act (15 U.S.C. 
Sec. 6103). In our view, enforcement of that Act by the FTC and the 
states is not an appropriate model of Federal/State cooperation when 
considering expanded regulation of the interstate moving industry.
    The legislative history of the Telemarketing Act is quite clear in 
its description of the magnitude of the fraudulent schemes Congress 
addressed with its 1994 legislation. Congress found that consumers and 
others were estimated to be losing $40 billion annually to fraudulent 
telemarketers. Notwithstanding vigorous FTC efforts to curb those 
practices (90 cases in Federal courts halting fraud that was estimated 
to produce sales of over $1 billion), it was acknowledged that the FTC 
enforcement resources simply were not sufficient to adequately protect 
consumers. This was the case because, in part, telemarketers are not 
dependent upon fixed locations as points of sale, are very mobile, and 
move from state to state.\5\
---------------------------------------------------------------------------
    \5\ House Report 103-20.
---------------------------------------------------------------------------
    Although the operations of telemarketers are easily distinguished 
from those of moving and storage operations, there has been a mistaken 
tendency to compare the two simply because rogue movers may also cross 
state lines. Thus, while on the one hand Congress was prompted to act 
because of the highly mobile nature of the fraudulent telemarketers, on 
the other hand, it understood the importance of not interfering with or 
in any way hampering the operations of legitimate telemarketers as 
evidenced by the following expression of congressional intent:

        The Committee is not interested in further regulating the 
        legitimate telemarketing industry through this legislation. 
        Rather, the goal is to curtail any deceptive (including 
        fraudulent) and abusive practices by specific telemarketers.\6\
---------------------------------------------------------------------------
    \6\ Id., p. 4.

    In a similar vein, AMSA is anxious to curb the practices of 
unscrupulous movers thus accounting for its support of limited State 
enforcement authority. However, routine operational problems that arise 
in the course of moving often become the basis for consumer complaints 
even though the problems are unavoidable--loss or damage, delayed 
pickups or deliveries, etc.--situations that impact the operations of 
the most efficient and reputable movers. Nonetheless, unavoidable 
problems can become the catalyst for persistent consumer complaints. 
Legitimate, regulated movers should not be subjected to an additional 
layer of 50 State regulators and their city, town and village 
subordinates that may or may not understand the boundaries of 
appropriate Federal regulation. Unfortunately, there has been an 
unwarranted tendency on the part of certain State attorneys general to 
assume that persistent consumer complaints, whether justified or not, 
require action on their part.
    We must not loose sight of the fact that unscrupulous movers are 
nothing more than crooked operators. They only exist to defraud the 
public. In its effort to deal with this problem, Congress must also not 
loose sight of the fact that only legitimate movers--those that are not 
at the heart of the problem--will comply with any new legislative 
measures that are enacted. The rogue movers will not. They will 
continue to ignore the law. Certainly that was the case with the 
illegal operators that are the subjects of the previously referred to 
criminal indictments (42 rogue movers and 74 individuals). They ignored 
the law, and if they were allowed to continue to operate, they would 
ignore the existing law as well as any new enactments.
    Our experience indicates that many states are ill-suited to 
regulation of the interstate moving industry because they have elected 
to completely deregulate the transportation of household goods in their 
own intrastate commerce. While rogue movers engage in interstate 
commerce, the majority of their efforts are devoted to local and 
intrastate moves. Before undertaking Federal regulation, the states 
should forcefully deal with unscrupulous movers that operate within 
their jurisdictions.
    AMSA welcomes the opportunity to work with this Committee and your 
staff to fashion a legislative proposal that will address expanded 
enforcement without impeding the operations of legitimate movers.
Unlimited Carrier Liability Would Be Disastrous
    The members of AMSA remain unalterably opposed to any legislation 
that would authorize State officials or consumers to invoke or enforce 
State laws as an additional remedy to that provided by the Carmack 
Amendment.\7\ Any tinkering with Carmack to expose interstate movers to 
such expanded liability would likely have a severe disruptive economic 
effect on interstate commerce.
---------------------------------------------------------------------------
    \7\ 49 U.S.C. Sec. 14706
---------------------------------------------------------------------------
    The availability of State law claims to shippers and the states 
would obviously embrace both common law causes of action and those 
authorized by statute such as the various Deceptive Trade Practices 
Acts maintained by most states. The remedies available under such 
common law and statutory claims include injunctive relief, civil 
penalties, consequential economic damages, punitive damages, mental 
anguish and emotional distress damages, treble damages, and attorney's 
fees.
    The moving industry's concerns with the application of State laws 
is two-fold. First, carriers will be exposed to substantially increased 
liability. Unlike freight carriers, movers deal with the personal 
effects of individual consumers. As a result, virtually any claim for 
loss or damage to a shipment of household goods involves an emotional 
element, some more so than others. Allowing State laws to be invoked to 
permit recovery for mental anguish or emotional distress will 
undoubtedly convert every broken chair to a family heirloom having 
irreplaceable sentimental value. The potential increase in liability to 
carriers could well be devastating to the interstate moving industry.
    The second and more far reaching problem is the diverse nature of 
the various State laws. There is no uniformity among them. This, 
coupled with the potential for greater recovery under State law, would 
gut Carmack and effectively repeal it.
    The Carmack Amendment not only provides a uniform regime of carrier 
liability, it allows for complete compensation to shippers for their 
damages resulting directly from the loss, injury, or delay to their 
shipments. Carriers know and understand their liability exposure under 
this nationwide system. Expanding liability to include State laws will 
subject interstate movers to 50 different standards.
    To illustrate the point, consider the various Deceptive Trade 
Practices statutes maintained by most states. Although several states 
have adopted the Uniform Deceptive Trade Practices Act, or a variation 
thereof, the implementation or enforcement of the remedies under such 
statutes is anything but uniform. This is so because these statute 
require a subjective determination of what is deceptive or unfair. For 
example, Illinois has adopted the Uniform Deceptive Trade Practices 
Act.\8\ It defines a deceptive trade practice by listing 12 different 
categories of conduct, the last of which is a catchall for ``any other 
conduct which similarly creates a likelihood of confusion or 
misunderstanding.'' 815 ILCS, 510, Section 2 (a)(12). California's 
Consumers' Legal Remedies Act \9\ lists 23 different types of conduct 
deemed to be deceptive which differ from those in Illinois. Civil Code 
Section 1770 (a). In Texas, the Deceptive Trade Practices--Consumer 
Protection Act \10\categorizes 27 types of conduct which, not 
surprisingly differ from Illinois and California. Massachusetts' 
counterpart simply declares unlawful ``unfair or deceptive acts or 
practices in the conduct of any trade or commerce.'' \11\ And New York 
has a similar definition.\12\
---------------------------------------------------------------------------
    \8\ Illinois Compiled Statutes, 815 ILCS 510.
    \9\ California Civil Code, Sections 1750, et seq.
    \10\ Chapter 17, Business and Commerce, Subchapter E.
    \11\ General Laws of Massachusetts, Part I, Title XV, Chapt. 93A, 
Section 2.
    \12\ New York State Consolidated Laws, General Business Law, 
Article 22-A, Section 349.
---------------------------------------------------------------------------
    The uncertainty in these definitions is compounded by the 
enforcement authority granted to State officials and the basis for 
civil actions created for private litigants. In New York, the Attorney 
General may bring an action for injunctive relief, restitution, or 
civil penalty whenever he/she believes that a person, firm, 
corporation, association, or agent or employee thereof has engaged in 
or is about to engage in a deceptive practice. NYS, General Business 
Law, Art. 22-A, Section 349 (b). The same broad authorization is 
granted to the Massachusetts Attorney General. See General Laws of 
Mass., Part I, Art. XV, Chapt. 93A, Section 4. The same unbounded 
discretion is granted to the Texas Consumer Protection Division. See 
Chapt. 17, Texas Business and Commerce Code, Section 17.47.
    While it might be argued that a State official is duty-bound to act 
with restraint in enforcing these laws, the same cannot be said of 
private plaintiffs who have a significant self-interest in pursuing a 
deceptive practice remedy. Yet these statutes afford the same unbridled 
basis for instituting a civil action. Massachusetts authorizes a civil 
action, including a class action, for any person injured by another 
person's deceptive act or practice. Chapt. 93A, Section 9. In New York, 
any person who has been injured by a deceptive act or practice may 
institute a civil action for an injunction and money damages, which may 
be trebled, as well as attorney's fees. N.Y.S. General Bus. Laws, Art. 
22-A, Section 349.
    The remedies authorized by the Statutes also vary from state to 
state. Illinois authorizes a civil action for injunctive relief and 
attorney's fees . However, proof of monetary damage is not required. A 
person need only show that he is ``likely to be damaged.'' 815 ILCS 
510, Section 3. The Texas statute specifically authorizes recovery of 
economic damages and damages for mental anguish, as well as treble 
damages, and attorney's fees. Texas Business and Commerce Code, Section 
17.50. And California authorizes consumers to bring an action, 
including a class action, for injunctive relief, restitution, actual 
and punitive damages, as well as attorney's fees. Civil Code Section 
1780, 1781.
    The application of these State laws also presents significant 
procedural problems. Under the Carmack Amendment, a 2 year statute of 
limitation to bring a lawsuit for cargo loss or damage is imposed. This 
period commences from the time the shipper's claim is denied. 49 U.S.C. 
14706 (e). However, State laws often provide a different period. 
California has a 3 year limitation period and it starts to run from the 
date of commission of the deceptive practice. Civil Code Section 1783. 
In Texas, the period of limitation is 2 years, and it begins on the 
date the deceptive act or practice occurred or within 2 years after the 
consumer discovered it. Texas Business and Commerce Code Section 
17.565.
    Legislation that would permit states and individuals to resort to 
State laws would turn the standard for measuring carrier liability for 
loss or damage back 100 years. The same problems that existed prior to 
enactment of Carmack would be revisited on the moving industry. Those 
difficulties were clearly summarized in Schultz v. Auld, 848 F.Supp. 
1497 (D. Idaho, 1993):

        [I]f this Court were to adopt Plaintiff's position, the 
        uniformity and certainty of the national scheme would be 
        compromised. The position asserted by Plaintiff would enable 
        one moving from any state to the State of Idaho to proceed 
        under the Idaho Consumer Protection Act. Such a rule would 
        create an entirely new scheme of potential liability for a 
        carrier, as the right to assert additional causes of action 
        would fortuitously depend from where or to where the shipper 
        moved. It is not difficult to imagine that every suit brought 
        against a carrier of household goods would include allegations 
        of intentional conduct or fraud in an effort to avoid the 
        preemptive effect of the Carmack Amendment. Moreover, to 
        account for increased liabilities occasioned by the exception, 
        carriers would necessarily be required to increase their rates, 
        thus further defeating congressional policy to encourage 
        reasonable rates for transportation.

    Congress must not lose sight of the detrimental consequences of the 
current explosion of tort litigation throughout the Nation. When 
doctors are walking away in some states because of the cost of 
litigation, Congress should think twice before creating avenues for 
additional litigation. This is particularly so where, as here, there is 
in place a uniform Federal process that mandates full protection for 
aggrieved shippers.
Pro-Consumer Initiatives Should Be Enacted
    AMSA officials have discussed with your staff a number of possible 
legislative proposals that would assist consumers in their dealings 
with reputable movers and would also help them avoid the schemes 
employed by rogue movers. It is appropriate to review some of those 
measures.
Expanded Arbitration
    The Administration has also proposed that Section 14708 (a) of 
title 49 be amended by requiring that movers arbitrate with shippers 
all disputes involving claims of $5,000 or less and not, as now 
required, claims involving loss or damage to goods. AMSA is opposed to 
this proposal because its broad scope makes it difficult to reasonably 
predict its potential impact. It is clear, however, that, if enacted, 
this requirement will generate arbitration cases that arise from myriad 
complaints such as mere shipper dissatisfaction with a move apart from 
the fact that loss or damage to goods may not have occurred. Such an 
open-ended dispute settlement process is an invitation to shippers to 
pursue purely subjective disputes as trivial as the mover's personnel 
lacked ``professionalism'' or their appearance, language or demeanor 
was unacceptable. In addition, consumers will be encouraged to pursue 
damages they believe result from alleged inaccurate representations 
concerning a carrier's performance, emotional distress and physical 
inconvenience, all of which they would insist warrant some measure of 
damages, compounded possibly by requests for punitive damages. An 
obvious problem brought on by this scenario is the difficulty in 
determining how independent arbitrators will resolve disputes of this 
nature and what standards the moving industry must follow when 
addressing such claims.
    It is AMSA's position that consumers would be better served if the 
existing mandatory binding arbitration threshold for loss or damage 
claims was increased from $5,000 to $10,000. This will provide greater 
consumer access to inexpensive neutral binding arbitration, thus 
avoiding the expense of costly litigation. It is also appropriate that 
the subject matter of claims that are eligible for arbitration be 
expanded beyond loss or damage to goods to include disputes involving 
the payment of carrier charges, a legitimate point of controversy 
between consumers and carriers.
Hostage Freight
    The unlawful holding of consumers goods is a frequently employed 
tactic used by rogue movers to inflate charges and demand their payment 
in exchange for the consumer's goods. The rogues obviously ignore the 
existing Consumer Protection regulation. It requires that movers 
relinquish possession of shipments moving on non-binding estimates when 
the shipper requests delivery upon payment of 110 percent of the 
estimated charges and defer demand for payment of the balance for 30 
days from delivery.\13\
---------------------------------------------------------------------------
    \13\ 49 C.F.R. Sec. 375.3(d).
---------------------------------------------------------------------------
    Civil or criminal penalties should be imposed for blatant 
violations of the existing regulation.
Operating Authority Registration Requirements
    Under the current FMCSA registration requirements, essentially 
anyone that is willing to pay a $300 filing fee and provide evidence of 
certain insurance can obtain authority to operate as a motor carrier of 
household goods throughout the entire United States. Many rogue movers 
have been granted multiple operating authorities under this most 
liberal system. They use their multiple authorities to play ``bait and 
switch'' games with consumers and to disavow knowledge of conduct they 
want to disclaim.
    In the case of applicants for household goods authority, it is 
AMSA's position that all such applicants should, at the time of their 
application, be required to (1) specifically identify their loss and 
damage arbitration program, (2) identify their tariff and provide a 
sample of its notice of availability for inspection, (3) make certain 
disclosures related to the service they will perform on behalf of 
consumers, and (4) disclose all its affiliations and ownership ties 
with other movers.
    These are elementary requirements that can and should be met by all 
legitimate applicants for operating authority.
Written Estimates and Inventories
    Consumer shippers of household goods deserve the benefit of written 
estimates of carrier charges for transportation and all related 
services. Reputable movers routinely provide this information to 
consumers. Rogue movers try to avoid putting anything in writing before 
they take possession of goods or their shipping documents are 
deliberately vague on the important points.
    Likewise, consumers should also receive written inventories of the 
goods they tender in sufficient detail to assist them in resolving any 
disputes they may have with their movers.
Regulation of Brokers
    FMCSA should be required to establish regulations governing the 
relationship between consumers and brokers of household goods 
transportation services, but most particularly brokers that operate 
exclusively on the Internet. A regulatory void exists in this area and 
the phenomenal growth of consumer reliance on the Internet as a means 
of locating service providers has resulted in countless numbers of 
moving arrangements that have no basis in the existing Consumer 
Protection regulations. AMSA, as noted, submitted a proposal to FMCSA 
that would address this situation.
Expanded Advice To Consumers
    FMCSA should be directed to employ all available means to 
disseminate information to consumers concerning the moving process and 
their rights when dealing with movers. This would include the 
promulgation and dissemination of regulations through the FMCSA website 
and other means of communication customarily followed by Federal 
agencies. In this same connection, a consumer complaint data gathering 
system should be established by FMCSA.
Conclusion
    The regulated interstate moving industry as represented by AMSA 
transports roughly 1.3 million interstate shipments each year with a 
high degree of consumer satisfaction. While the rogue mover problem is 
the predicate for possible Congressional action, the search for 
solutions must not result in statutory requirements that overburden and 
impair the legitimate mover's ability to provide its essential service 
to the public.
    Since abolishment of the Interstate Commerce Commission in 1996, 
AMSA has been telling Congress, at every opportunity, that the solution 
to the problems created by unlawful and rogue movers is more effective 
enforcement by the Federal Government of the existing statutes and 
regulations governing the moving industry. This position has not 
waivered. AMSA is not, however, opposed to strengthening the existing 
Federal statutory enforcement scheme. We believe our recommendations to 
this Committee will effectively deal with rogue movers, bearing in mind 
that no body of law can completely deter a criminal element.
    We also firmly believe that conferring enforcement authority on the 
states, or exposing the moving industry to potentially unlimited 
liability for its interstate service, would cause many moving and 
storage operators to question the wisdom of their continued involvement 
in interstate transportation. The network of small businesses that 
make-up the moving and storage industry should not be overburdened with 
State efforts to uniformly interpret and enforce Federal regulations, a 
proposition that will be virtually impossible to achieve.
    The interstate transportation of household goods is a Federal 
endeavor which should be regulated by the Federal Government.

    Senator Sununu. Thank you very much to all of our 
panelists.
    Let us begin the questioning with Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman, and thank all the 
panel members.
    You talked about diabetic drivers. I think someone--Mr. 
Byrd may have mentioned the proposals on drivers who use 
insulin. And I really don't understand it, because it kind of 
says, well, if you have 3 years of commercial driving 
experience as a diabetic, then you have to have that in order 
to qualify to get a commercial driver's license. I mean, I 
don't see how you have it in the first place in order to have 
that experience as a commercial driver.
    Can anybody on the panel comment about the entire issue of 
diabetics being able to receive a commercial driver's license? 
I'm trying to figure out what is a fair way of determining 
their fitness for driving. Anybody want to comment on it? Mr. 
Byrd, you had mentioned it.
    Mr. Byrd. Yes, I'd like to comment. Well, as I understand 
the issue, currently our members--we have an aging work force, 
aging membership, and a lot of our members are transitioning. 
They may not currently have diabetes, but, you know, they may 
have hypoglycemic-related issues that may transition over into 
having diabetes. One of the problems we've encountered is that 
these drivers, as they--they're usually some high-seniority 
people. They are no longer able to drive, because they no 
longer qualify under the medical qualifications.
    But because we're not involved in intrastate commerce, and 
many states--as I understand it, FMCSA has reported that 
roughly 20 states either don't have a waiver program, or they 
have some very, very significant limitations as to how to get 
into their waiver program. Our folks never will have an 
opportunity to get the 3 years of experience of driving while 
using insulin.
    Senator Breaux. Do you have a recommendation on how we 
should handle this?
    Mr. Byrd. Yes. I think that the expert medical panel that 
FMCSA convened made recommendations. I think that the medical 
practice that's employed, in terms of treating diabetes now, 
has advanced to a stage, or to a state, to where, according to 
the Committee, as I recall--it's a month or two of evaluation 
to see how they tolerate using insulin, and then they'd be 
allowed to drive on an individual or a case-by-case basis.
    Senator Breaux. Ms. Claybrook--thank you--do you have any 
comment on how we should test or judge these drivers?
    Ms. Claybrook. It is a conundrum, Senator, and I know 
there's been a lot of controversy about this. We really don't 
have a proposal, but perhaps we could submit something for the 
record that might be helpful to you. I'd like to think about it 
a little bit more.
    Senator Breaux. Thank you.
    [Ms. Claybrook submitted the following:]

                      Advocates for Highway and Auto Safety
                                  Washington, DC, November 30, 2001
                           Summary of Comment
Diabetes Exemption Program--Federal Motor Carrier Safety Administration
    Current Federal regulation prohibits persons who require insulin 
injections to treat their diabetes from driving commercial motor 
vehicles (trucks and buses) in interstate commerce. The FMCSA has 
proposed establishing a program to grant certain drivers with insulin 
treated diabetes mellitus (ITDM) exemptions from the existing Federal 
medical safety standard. The agency already has a program under which 
exemptions are granted from the Federal vision standard to drivers who 
do not meet the existing vision requirements. Advocates presented a 
number of arguments against establishing the proposed program based on 
the scientific evidence and applicable legal standard.
    The comments reviewed all the important evidence cited by the 
agency and showed, in turn, how each failed to provide a convincing 
basis for the agency's conclusion that persons with ITDM can operate at 
an equal level of safety performance. Advocates pointed out that all of 
the research studies available to the public provided, at best, mixed 
results. Even those that indicated that, in general, diabetic drivers 
might be able to operate vehicles safely, insulin treated diabetics 
(those for whom the program is designed) had a greater risk of medical 
impairment. Other cited research results did not distinguish between 
type of diabetes or by commercial vehicle size. The most recent study 
relied on by FMCSA to support the program, a 1997 study conducted by 
the Federal Highway Administration (FHWA), has not been made public. 
The agency violated principles of due process and fairness by proposing 
a program predicated on unpublished research results that are not 
available for public review and comment. Advocates' comments also 
faulted the agency's reliance on the FHWA Diabetes Waiver Program, 
which only had 116 drivers when it was discontinued in 1994 after 
Advocates successful litigation against the FHWA Vision Waiver Program. 
Because of poor research methodology, lack of a comparison group, the 
small number of participants and the fact that the program was 
terminated before completion, the data and conclusions from the FHWA 
waiver programs cannot be extrapolated to apply to other research and 
different drivers.
    The comments also took issue with FMCSA's invocation of a Federal 
Aviation Administration (FAA) program that permits persons with ITDM to 
obtain third class pilots certificates. Reliance on the FAA program is 
misplaced because these certificates only permit the operation of 
private and personal aircraft. The FAA program prohibits, on safety 
grounds, anyone with ITDM from obtaining a second- or first-class 
certificates that would permit air freight or passenger aircraft 
operation. Thus, the FAA actually prohibits the very types of operation 
that are directly analogous to commercial truck and bus operations, 
which the FMCSA exemption program seeks to allow.
    Advocates presented a strong argument regarding the legal standard 
the FMCSA must apply in making safety determinations to grant 
exemptions. The comments stated that based on the evidence presented in 
this record the agency had not met its burden of proof or sustained the 
legal standard required by law to grant exemptions. The comments also 
countered the agency contention that the present legal standard for 
exemptions is more flexible, and affords the agency more discretion, 
than the previous legal standard for granting waivers from the Federal 
standards.

    Senator Breaux. On driver disqualifications, on September 
30, the--commercial motor vehicle drivers who are convicted of 
a traffic violation while operating a car, results in the 
cancellation or suspension or revocation of their car-driving 
privileges, are disqualified from getting a commercial motor 
vehicle license. Also disqualified are individuals convicted of 
committing drug- or alcohol-related offenses while driving a 
car. That restriction has now been in place, as I take it, for 
approximately 8 months. Can anybody tell me, has anybody been 
disqualified as a commercial driver as a result of that new 
regulation in the 8 months it's been in effect?
    Ms. Claybrook. I don't know that, Senator, but one of the 
things that we believe is that before a commercial driver's 
license is issued, that the car-driving record should be 
checked, and I think that that would be an improvement. This is 
if--once they have their license, their truck license, then if 
they have these convictions, then--or revocations--then it puts 
at risk their CDL. But we believe that it ought to be something 
that's checked initially, as a preventive measure. And I'm 
almost sure that, for pilots, that's correct.
    Senator Breaux. It is.
    Mr. Byrd, do you have a comment on this?
    Mr. Byrd. Yes, I receive probably about one call, possibly 
two calls per week concerning drivers who have received DWIs in 
their private cars. And now, pending, I guess, adjudication, 
they may be suspended.
    At this point, I don't know of any actual cases of a person 
losing their CDL as a result. But I do know that there are some 
court cases that are in the process.
    Senator Breaux. Mr. Duncan--thank you--what's the policy of 
the Trucker's Association with regard to hiring drivers who 
have previous convictions or revocations or lost their 
licenses?
    Mr. Duncan. Well, we do the background checks, and we will 
not hire those drivers. All right? And we do subsequent checks 
of the driver's license record so that we find violations that 
even the driver hasn't reported. So that's done on a subsequent 
basis. But, you know, as in the testimony, we would like access 
to more of the FMCSA's safety data, the roadside inspection 
data, and that type of thing, during the hiring process, so we 
would have more information about a driver that we are 
considering for hiring, more than just the driver's license 
information.
    Senator Breaux. Well, is the policy you just enunciated 
industry-wide, or each company has their own policy with regard 
to hiring someone, for commercial driving purposes, who had 
lost their driver's license as a--for driving a vehicle, a car?
    Mr. Byrd. I can't state categorically that every company 
does that. No.
    Senator Breaux. Ms. Claybrook, what should the policy be 
here? Should a person who has a previous conviction or a DWI, 
for instance, or had their license revocated, revoked, what 
have you, be able, in the future, to get a commercial driver's 
license at all?
    Ms. Claybrook. Well, I'm not sure that this should be a 
lifetime suspension from ever having the ability to get a CDL, 
but I do think that there ought to be criteria laid out so that 
they don't just automatically, you know, after a year or two, 
be able to come back and get a CDL. I think there ought to be a 
program for the training or for making sure that they're over 
the problem that they had, that they're no longer drinking or 
taking drugs, and that there ought to be a substantial period 
of time, because otherwise drivers would just come back.
    Senator Breaux. I take it that as of September 30 of last 
year, 2002, commercial motor vehicle drivers who are convicted 
of traffic violations, while operating a car, which resulted in 
the cancellation, suspension, revocation of the driver's 
license, are disqualified from operating a commercial motor 
vehicle. I'm not sure, but is that permanent, or is that for a 
period of time, for as long as the license is suspended?
    Ms. Claybrook. Suspended, right. It's until they get their 
driver's license back again, I believe.
    Lieutenant Sullivan. Senator?
    Senator Breaux. If they get their driver's license, they'd 
be eligible for a CDL?
    Ms. Claybrook. That's correct.
    Lieutenant Sullivan. Senator?
    Senator Breaux. Yes, Mr. Sullivan?
    Lieutenant Sullivan. I think you're going to find, sir, 
that the states are going to wait the 3-year period, as they--
they'll take this issue, particular issue, to their state 
legislatures. Even the states that have adopted the Federal 
regulations by rote will remove that and go to their 
legislature because of the importance of this issue.
    Senator Breaux. You think some states will not follow this, 
you say?
    Lieutenant Sullivan. No, I think everybody will follow it, 
but they'll use a different mechanism to get there. By 
adoption. Massachusetts adopts a Federal regulation by 
adoption, and any change in the Federal regulations is a change 
in Massachusetts law, but I do not believe, from my 
conversations I've had with the licensing authority, the 
registry of motor vehicles, in Massachusetts, they are willing 
to do that with this, because of the nature of it. It think 
what we're going to find is there's going to be a delay on it, 
and they're going to bring it to the state legislature to put 
it into our ``operating under the influence'' law, or move it 
over under the Massachusetts general law, rather than into a 
regulation.
    Senator Breaux. Well, my only comment would be, I don't 
think there's any question that someone who has lost their 
driver's license to drive a vehicle, a car, should not be able 
to have a commercial driver's license to drive a truck. It just 
seems like just common sense.
    Lieutenant Sullivan. I believe it is common sense, sir, and 
I--my understanding of the rule is that the penalty phase will 
continue on to the same finite period as it would in the other 
one, and the major concern now is, are our systems strong 
enough to hold the giant influx of convictions from passenger 
cars and histories of everybody? Is the CDL system going to 
hold that? Do we have enough faith in that system to say, 
``Well, we have the regulation in place, and are we going to be 
able to effectively manage it?''
    Senator Breaux. Well, thank you. Thank the panel members.
    Thank you.
    Senator Sununu. Thank you.
    Senator Lautenberg?
    Senator Lautenberg. Thank you, Mr. Chairman. And I want to 
thank the witnesses.
    I think, Mr. Chairman, for future reference--I'm going to 
alert Senator McCain to this, as well--I think that when we 
have six witnesses at the table, it's awfully hard to be able 
to communicate the way we'd like to.
    But we welcome all of you in the group. And there's so much 
ground that you've covered, with six people, all of whom 
present interesting testimony, that it's hard to connect the 
dots. But the Chairman has been patient. I appreciate that.
    Mr. Duncan, I hold here an ad, run by the ATA, May 23 of 
this year, and it says, ``Eighty-seven percent of America's 
goods move by truck. But some want Congress to enact a national 
roadblock.'' And it calls these roadblocks ``bad for the 
economy, bad for public policy.'' Would you mind describing 
what roadblocks you see Congress wanting to enact, please?
    Mr. Duncan. Well, I think you're referring to the SHIPA 
bill, which actually would extend legislation to more highway 
than--or just extend----
    Senator Lautenberg. What kind of legislation, Mr. Duncan?
    Mr. Duncan. The SHIPA bill? Is that what you're referring 
to?
    Senator Lautenberg. Yes. Well, for instance, would the ATA 
want to allow expanded use of triple-trailer trucks?
    Mr. Duncan. The ATA policy is that we believe the states 
are best suited to make those size and weight determinations. 
They best know which highway's infrastructure can serve them 
and which ones cannot serve them. There are obviously lots of 
places where there cannot be any expanded weight and size.
    Senator Lautenberg. So the Federal Government should not 
place standards on highways that the Federal Government 
contributes to?
    Mr. Duncan. It is the ATA policy that the states know best 
how to administer those regulations.
    Senator Lautenberg. So if you had your druthers, you'd 
rather see the states just get the money from the Federal 
Government without condition as to what kind of vehicles, what 
highway construction there ought to be, et cetera.
    Mr. Duncan. Well, I think you miss opportunities to enhance 
safety if you arbitrarily say that a certain state can't do 
certain things. So----
    Senator Lautenberg. I don't understand that. I'm sorry. You 
say we miss opportunities for safety. Let me ask you this 
question. You say that we have to expand truck use and that we 
ought not to inhibit--how about--should we have a separate 
speed limit for trucks, do you think, different than the cars, 
if the highways are questionable as to the safety, or--for a 
speeding truck?
    Mr. Duncan. Well, I think the safety experts would tell 
you, having vehicles moving at different speeds on the same 
highway creates a safety risk.
    Senator Lautenberg. Creates a safety problem.
    Mr. Duncan. Yes.
    Senator Lautenberg. And you said that larger vehicles will 
promote safety and ``no doubt that continuing to further 
restricting current Federal size and weight limit costs 
lives.'' I guess that confirms what you said. So you make them 
bigger, and you start saving lives. So if we make them big 
enough and often enough, then we won't lose anybody on the 
highway. Is that----
    Mr. Duncan. Well, Senator, we only operate larger 
combination vehicles on restricted highways in pretty remote 
areas. And by doing that, you can haul more freight with fewer 
drivers, more freight with fewer diesel engines, so there's 
both a safety benefit and an economic benefit, but only in very 
restricted parts of the country.
    Senator Lautenberg. Do you know whether triple trailers are 
involved in more accidents than just a regular double--or a 
regular long trailer?
    Mr. Duncan. Triple trailers, for both the ATA and our 
company specifically, have the best safety record of any 
combination of vehicles we operate. Now, that's not to say that 
they're inherently safer; it says that they're operated in very 
restrictive highways, they're operated in very restrictive 
weather conditions, only the most senior, well-trained drivers 
are put on those vehicles. So you put all those factors 
together, yes, the safety factor for those vehicles are the 
safest we have in our industry.
    Senator Lautenberg. Yes. But your testimony calls for more 
enforcement of speed laws, and so forth. But I don't see your 
ad here that warns us that all we want to do here is put 
roadblocks in the way of--does that hyperbole get you a little 
bit or----
    Mr. Duncan. Senator, I don't have that----
    Senator Lautenberg. OK.
    Mr. Duncan.--ad in front of me. We'll be glad to give you 
testimony to that----
    Senator Lautenberg. The type's pretty big. It says 
``Eighty-seven percent of America--goods move by truck, but 
some want Congress to enact a national roadblock.'' And the, 
you know----
    Mr. Duncan. Well, 87 percent is correct. I mean, fast-cycle 
distribution has become a way of life in commercial business 
here, and that is inherently supported by the trucking 
industry. Even if it's moved subsequently by rail, the final 
delivery is accomplished by a truck in more cases than not. So 
it's a very, very important part of our commerce. And all we're 
saying is, we don't want to promote any unsafe practices, but 
we don't want to overlook practices that benefit the economy 
and also help in the environmental and the safety regard.
    Senator Lautenberg. Ms. Claybrook, what do you have to say 
about the larger trucks and becoming safer? I must have some 
kind of an optical illusion. I've been driving a long time, as 
you can tell by the wrinkles and the color hair, but I always 
feel just a little bit more concerned about driving along a 
truck when he's outracing me and I'm going too fast in the 
first place.
    Ms. Claybrook. Well, first of all, the public hate these 
larger trucks, they fishtail and other things as they're going 
down windy highways. I have a map of 16 states where the 
longer--the triples are allowed, the longer combination 
vehicles. It is true that they're mostly in the western states. 
But, for example, my family lives in Oregon, and they're on the 
highways in Oregon, and they have to drive past them all the 
time. So it's not as though they're separated from cars.
    In terms of going a different speed, these trucks take a 
much longer time to stop than do cars, and so if they're going 
at the same speed as cars, then they're going to have trouble 
stopping in the same distance that cars do. And so I think that 
that, alone, argues for them to go at a slower speed.
    I'd also say that the argument of the industry has always 
been, ``Well, we don't drive in bad weather, and we only drive 
on certain highways, and we have the best drivers doing the 
pulling of these trucks.'' But the fact is that the pressures 
of the trucking industry for just-in-time delivery, where 
drivers drive all night, and the shippers want their product at 
a certain time, or there are types of products that are, you 
know, subject to disintegration over a period of time if 
they're not delivered quickly, there is just tremendous 
pressure. And if these trucks were allowed anyplace in the 
country, the trucking industry would do what it's done with 
size and weight rules in the past, which--and you can, sort of, 
see it from this map--this one poor white state in the middle 
here is probably under a lot of pressure if the law was changed 
right now. It's not, but it would be. And so they get as many 
states as they can, and then the last states, they put 
tremendous pressure on and say, ``Well, we're allowed to do it 
every other place.''
    If you have a triple that's allowed in one state or two 
states, and then they want to deliver something in the third 
state that doesn't allow triples, you know that there's going 
to be tremendous pressure to allow them, regardless of the 
condition of the highway.
    So we think that the freeze on longer combination vehicles 
is very appropriate, and we hope that this Congress will not 
listen to the trucking industry and try and change that.
    Senator Lautenberg. The U.S. DOT found, in its 2000 
Comprehensive Truck Size and Weight Study, that multi-trailer 
trucks could be expected to experience an 11 percent higher 
fatal crash rate than single-trailer trucks. Does that 11 
percent figure appear accurate to you?
    Ms. Claybrook. It does. I was going to use it. I should 
have, myself.
    Senator Lautenberg. Yes.
    Ms. Claybrook. We rely on the DOT to do Those kind of 
statistical analyses, and I think that it is correct. And any--
--
    Senator Lautenberg. Mr. Duncan, what----
    Ms. Claybrook.--anyone just has to drive beside one of 
those vehicles and realize--among other things, by the way, 
they have great trouble going on and off the highways, because 
the highways were designed many years before the advent of 
triple trailers, and so you often see them going on the edges 
of the exit ramps and sometimes over the exit ramps. They also, 
when they go around corners, if you're in the wrong position, 
your car can just be----
    Senator Lautenberg. Mr. Duncan, what do you think about 
that question, about the 11 percent higher in fatal crash than 
single-trailer trucks?
    Mr. Duncan. Well, the statistics we have do not support 
that. I've seen a number of statistics on highway crashes, both 
internally within our company, by the ATA, I've seen a recent 
study by the Ohio Turnpike, which showed that, over a 2 year 
period, I believe, that the triples combination had a 47-
percent better accident frequency than all other combinations 
involved over that study of the time period. We can certainly 
get you those studies.
    But time and time again--they are safe vehicles when used 
on proper conditions in proper highways and with the proper 
drivers.
    Senator Lautenberg. So you're saying limited highway 
access----
    Mr. Duncan. Absolutely.
    Senator Lautenberg. Yes. Make sure that they don't get onto 
other roads. We're going to try to do that, Mr. Duncan.
    And Lieutenant Sullivan, you say you've stopped thousands 
of trucks in your day. Is there a--I don't want to embarrass 
anybody in Massachusetts; I like the state very much, but----
    Lieutenant Sullivan. Thank you.
    Senator Lautenberg.--is there as much of a focus, do you 
think, that--your colleagues in law enforcement--on speeding 
trucks as there ought to be? Do you sense that you just don't 
have the hands--is it tough to stop a speeding truck that's got 
even a double behind it and moving along at a high rate of 
speed?
    Lieutenant Sullivan. No. It's not. You have to use 
discretion when you're going to stop a truck. You can't just 
pull it over like you're going to do a passenger car and stand 
on the side of the road and wave it in running radar. But you 
have to have a plan, and you have to follow it to completion.
    Senator Lautenberg. How about on a crowded highway? Is it--
--
    Lieutenant Sullivan. No.
    Senator Lautenberg. No?
    Lieutenant Sullivan. It doesn't. It doesn't present a 
problem on a crowded highway, either. The problem is, is that 
with the resources available, the complexity of the regulations 
we've kind of ignored all the local police officers and even 
state police officers that don't have the specialized training. 
We've kind of left them out in the lurch, and they're 
embarrassed to stop trucks, because they don't know anything 
about them. A speeding truck is a speeding truck, but--and when 
you lose control of the situation, police officers don't like 
to do that. And that's why we suggest--you know, we've got this 
knowledge gap. We've got to close it.
    Senator Lautenberg. Uh-huh. Speeding truck more dangerous 
than a speeding car?
    Lieutenant Sullivan. I don't believe so.
    Senator Lautenberg. You don't.
    Lieutenant Sullivan. No, I don't. No, I don't.
    Senator Lautenberg. OK. We're at odds on that, although 
with all due respect.
    Lieutenant Sullivan. Yes, sir.
    Senator Lautenberg. I'm not a police officer, but I've got 
a lot of mileage on this body, and I've been interested in 
safety questions for a long time. Everyone knows----
    Lieutenant Sullivan. I think that----
    Senator Lautenberg.--I mean, we've seen some horrible, 
horrible crashes in the State of New Jersey, where we are very, 
very crowded, because we're an entryway. As a matter of fact, 
as I listened to the group here, I think the production 
facilities ought to move closer to the market----
    Lieutenant Sullivan. Well, all I can----
    Senator Lautenberg.--down the highways----
    Lieutenant Sullivan.--all I can do is speak from experience 
and from our statistics. And when we get involved in the 
speeding car and the speeding truck, and 70 percent of 
accidents are caused by driver error, and more than 50 percent 
is caused by passenger car, then it becomes----
    Senator Lautenberg. Have you got a family----
    Lieutenant Sullivan.--then it becomes----
    Senator Lautenberg.--got a family, Lieutenant? Do you have 
a family?
    Lieutenant Sullivan. Yes, I do. Thank you.
    Senator Lautenberg. Would you rather see them not 
intimidated by large, speeding trucks or--I mean, the accidents 
that we've seen in our state--and I know that it's not unique 
to New Jersey--when a truck hits a car, you're looking at such 
incredible damage. I know that I worry about my family--my 
kids, my grandchildren--when they're out there in the highway 
mixing it up with trucks. In New Jersey, we have, on our 
turnpike, if you've ever seen it--a very, very busy road, we 
separate, as much as possible, the cars and trucks, but it's 
impossible, with the volume of trucks. And if Mr. Duncan is 
right, the only recourse is just to keep on expanding the 
facility--that we're going to present ourselves with a problem, 
I think. Look----
    Ms. Claybrook. Senator----
    Lieutenant Sullivan. I agree, Senator. And the perception 
is that the greater damage in--because they're so big, that 
they're going to be dangerous, and we support the systems that 
can take these people, whether they're passenger-car drivers or 
they're truck drivers, off the road, and aggressive traffic 
enforcement against both.
    Ms. Claybrook. Senator Lautenberg, can I just comment on 
one thing? Twenty-three percent of all passenger-vehicle 
occupants who die in multi-vehicle crashes are involved in a 
collision with a big truck, but big trucks are only 4 percent 
of all registered vehicles. So they do an enormous amount of 
damage to people. And one of the reasons that the statistics of 
70 percent is caused by the car driver is because when the 
police interview people after the crash, there's no car driver 
to interview, so the only person they interview is the truck 
driver, who says, ``Yes, it wasn't my fault. It was that guy 
over there.'' And there have been several studies that have 
evaluated that.
    I would like to submit for the record something that rebuts 
that number, because this is ``blame the car driver'' time.
    And while I think that--whether you're a car driver or a 
truck driver, you ought to be arrested if you're speeding. 
Nevertheless, I think that statistic is completely incorrect, 
and I would like to mention that.
    The other thing is, of course, when trucks are carrying 
hazardous materials, which many, many trucks are, and they're 
speeding and have a crash, they can close down, you know, an 
entire city or community for a day, as we have seen in this 
area in the not-too-distant past. And so when these trucks are 
speeding, they don't have the ability to stop in the same 
distance as cars. They're completely intermixed with cars. I 
think that they are more dangerous even than car drivers.
    Senator Lautenberg. Yes.
    Mr. Chairman, you've been more than patient. I appreciate 
it. Thank you very much.
    We know one thing, that there is a message out there that 
says we have to make sure the rules and regulations are there 
and that they are enforced, and we have to provide the 
resources to be able to do that.
    And, Mr. Duncan, I think that when the industry talks about 
that Congress wants to erect national roadblocks, I think you 
ought to be prepared to mention what those roadblocks are, so 
we can get after those in the Congress who are recalcitrant, 
and we ought to make sure that everyone knows that all they're 
doing is throwing up roadblocks.
    Senator Sununu. Thank you, Senator Lautenberg.
    I've been advised we have a vote in approximately 10 or 15 
minutes.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Mr. Chairman, when I was a young boy, I 
remember our family made a move and when we got to the 
destination where our goods were to be delivered, the phone 
rang, and the mover was on the other end of the line saying if 
we didn't pay X additional, that we wouldn't get our stuff. It 
was a searing experience as a young boy.
    And recently--I don't know why it is, but I've had several 
constituents come to me, who have moved to Oregon, and who have 
been held up, essentially bribed, by the people moving their 
goods. And I didn't know how big a problem this is until I 
started looking into it. And apparently, depending on the year, 
the number of complaints will go from 4,000 to 9,000 to 20,000. 
This is highway robbery, literally. And I would like this 
Committee to focus on this problem.
    And I want to announce that--apparently today, the 
Department of Transportation has issued a new ruling to enhance 
household goods consumer protection. And apparently that's 
really very much in need, and I would love to get the 
response--Mr. Harrison, maybe you can help me to understand 
what's going on here, because the case I--I remember, as a boy, 
my Dad saying to the mover, ``I will be calling the ICC as soon 
as we hang up here.'' But the ICC doesn't even exist anymore. 
And he got his stuff, because he was able to say, ``I'm taking 
you to the ICC unless I get my things.''
    But where do people go today? Where do they get redress? 
Where do they get justice on America's highways when families 
are put into this kind of trauma, where they've got a deadline, 
a job, a schedule, and somebody says, I'm keeping all your 
stuff?
    Mr. Harrison. Well, you're right, Senator, the Interstate 
Commerce Commission regulated the moving industry since 1935 or 
so. The Congress eliminated that agency in end of 1995 and 
transferred the household good regulations and responsibilities 
to the DOT. But first the Federal Highway Administration, and 
now the Federal Motor Carrier Safety Administration, have been 
somewhat indifferent about their responsibilities, relative to 
the enforcement of the consumer-protection rules, which have 
not changed; they've been on the books for a long time.
    Senator Smith. Sure.
    Mr. Harrison. And, as a consequence of that, since 1996, 
the so-called rogue movers have flourished and are ripping off 
consumers, mostly by holding shipments hostage and demanding 
four or five times more than what the original estimate called 
for, which is a violation of an existing Federal regulation.
    Senator Smith. Right.
    Mr. Harrison. But there hasn't been sufficient enforcement 
by the Federal Government up until just recently. There seems 
to be a renewed interest by the agency, in terms of 
enforcement, and they are asking Congress for more money to, in 
fact, increase their enforcement activities.
    Senator Smith. Well, I'm glad to hear that, and I'd like to 
suggest, Mr. Chairman, that this Committee make this the 
subject of a hearing, to turn up the heat and provide the 
resources, because the American people, in our mobile society, 
are getting ripped off. And I've had too many complaints--and 
it may just be a coincidence--that people come to me and say, I 
just had the worst experience moving to your State, by being 
ripped off by a moving van. And I just think if resources are 
needed, then this is a priority that ought to be put on the 
agenda of the U.S. Government, because this is interstate 
commerce, in a classic sense, and it is filled with corruption 
right now, and we've got to root it out.
    So, Mr. Chairman, thank you for allowing me to make these 
comments and making this point about a very crying need in 
American commerce.
    Thank you.
    Senator Sununu. Thank you, Senator Smith. And I would 
certainly highlight the fact that the Acting Administrator, Ms. 
Sandberg, addressed this issue briefly in her remarks. We 
wanted Mr. Harrison to be here, because we fully understood the 
degree to which complaints have increased and that this is an 
issue. And obviously the new rule that's been put out today by 
FMCSA is an indication that they believe this to be a priority, 
as well.
    Let me conclude with a few questions, beginning with the 
issue of safety. Ms. Claybrook, you suggested--I think you said 
in your testimony--that the 1991 Act, which, I believe, Mr. 
Lautenberg was largely responsible for--was very successful, 
correct?
    Ms. Claybrook. I did.
    Senator Sununu. I look at fatalities, and I'm not an expert 
on the law, and I'm sure it is a step in the right direction, 
but with regard to its efficacy, in the 5 years following its 
passage in 1991, fatal accidents involving large trucks seem to 
have increased from roughly 4,500 fatalities per year to maybe 
5,200, 5,300 per year. Why would that be?
    Ms. Claybrook. Well, I was talking about the longer 
combination vehicle freeze. And the numbers that you cited are 
all large trucks; they're not just the longer combination 
vehicles.
    And I will take a look, Senator, if we can find the data--
it's very hard to get this data--on the different types of 
trucks. It's one of our complaints, that the Federal Motor 
Carrier Safety Administration's data is not uniform; and, 
therefore, it's very difficult to evaluate, by type of truck, 
the fatalities.
    But what I meant by that was that--my statement was that it 
did stop the incursion of these longer combination vehicles--
that is, triples and longer doubles--into other states. And 
there had been huge fights over whether or not to allow them 
in, and there had been proposals to have them in the East Coast 
and some of the smaller states with smaller highways and so on. 
So that's essentially----
    Senator Sununu. Well, any additional data that you might be 
interested in providing would be welcome.
    This was a point that came up during Administrator 
Sandberg's testimony, that new regulations really should be 
based on evidence that indicates that those regulations will 
address concerns of safety. That's what we're all here for.
    Ms. Claybrook. Absolutely.
    Senator Sununu. I mean, regardless of whether we agree or 
disagree on every specific regulation, everyone is concerned 
about safety. So data is important, and I know Mr. Duncan 
offered to provide some information that might reflect a 
different perspective than the statistic given regarding the 11 
percent greater incidence of fatalities with certain large-
truck vehicles. Again, that would be welcome, because--and I 
would want to make sure, as a policymaker, that we're working 
with the best information possible.
    Ms. Claybrook, you suggested that--I think you said that 
the highways in New Hampshire were somehow not suited to trucks 
of a particular size. I'm not quite sure what you meant by 
that.
    Ms. Claybrook. Well, I meant that in the East Coast, the 
highways are--particularly the ability to get on and off in all 
these major highways. You come from smaller roads----
    Senator Sununu. Littler states, so we have littler roads?
    Ms. Claybrook. No, but you have many more single-lane 
roads, often in some of the older states. I didn't mean because 
it was a littler state; but in the East Coast states--and, in 
the East Coast, particularly, in the New England area. Not in 
Maine. Maine, it has huge highways, and I've been on them--I've 
been on them in New Hampshire, as well--but you have a lot----
    Senator Sununu. Do you think the per capita incidence of 
multi-lane roads in Maine is higher than the per capita 
incidence of multi-lane roads in New Hampshire? Is that what 
you're suggesting?
    Ms. Claybrook. I think it might be, actually, but I'm not 
positive. But I think it might be.
    Senator Sununu. Let's see. You had a map. And I think you 
talked about--experience of Oregon. I'm sorry Senator Smith 
left. But it would seem to me, as I understand the regulations, 
that Oregon is free to decide not to allow tandems if they so 
choose.
    Ms. Claybrook. That's correct.
    Senator Sununu. Are you suggesting that the people in 
Oregon are consciously making decisions that aren't in keeping 
with their safety interests?
    Ms. Claybrook. Well, it's the legislature that made the 
decision. But I think----
    Senator Sununu. It's the people that elected the 
legislators.
    Ms. Claybrook. That's right. That's correct. I think if you 
take a poll of the population in any state, you'll see that 
they don't like these trucks, whether it's Oregon or any other 
state. It just happens that I have some family in Oregon, who 
moved there, were unused to triple trailers, and are scared to 
death of driving on those highways because of the triple 
trailers.
    Senator Sununu. Being an elected official, I'm conscious of 
the importance of public opinion, but are you suggesting that 
that's how we should be promulgating new rules and regulations, 
is by taking polls?
    Ms. Claybrook. No, but I think that the public view ought 
to be taken into account, since they're the victims in truck 
crashes. They're the ones who are killed, and the public knows 
that. I think it's in--and I'll submit these polls for the 
record--that in the last 8 or 10 years, advocates for highway 
and auto safety have taken polls on a number of different 
trucks, safety and auto safety issues, and the most 
overwhelming support is in the regulation of trucks.
    Senator Sununu. But there would seem to be some 
contradiction, just using the hypothetical case of Oregon, or 
the real case of Oregon. If the polls are so overwhelming, why 
would the legislature there either not take them into 
consideration in passing new rules, or, if these regulations 
are really contrary to the public will, why aren't these 
legislators paying a political price?
    Ms. Claybrook. Well, it takes a lot of organization to make 
that happen, Senator, as you know.
    Senator Sununu. A public citizen knows a lot about 
organization.
    Ms. Claybrook. But the rules for triple trailers have been 
in Oregon for a long time. And I certainly would like to see 
that, actually. I don't know whether my family has the energy 
to get involved in doing something like that in Oregon. But I 
think that the legislators have felt the pressure of public 
opinion, but it's more than just public opinion that has to be 
taken into account. And, obviously, the support of the trucking 
industry is another major factor in the decisionmaking process, 
and they're probably much more potent, much more extensively, 
you know, involved in the legislative process than individual 
citizens.
    Senator Sununu. Speaking of the trucking industry, Mr. 
Duncan, is the ATA seeking to change the current size and 
weight restrictions?
    Mr. Duncan. No. The ATA policy is that we think, we 
believe, and it is our policy that the states should be 
allowed, but there is no effort underway to change that.
    Senator Sununu. OK. You don't see any contradiction there? 
That you don't seek any changes, but you want the states to be 
allowed to seek changes?
    Mr. Duncan. Well, we are a diverse industry, where our 
members have lots of different agendas. The one that we agree 
upon, however, is truck safety. All right? So on that matter, 
we--it's a matter of policy that we believe the states are best 
suited for that.
    But, you know, to comment briefly, I heard time and time 
again about the large, speeding truck. I would contend that the 
operative word there is ``speeding,'' and that's the behavior 
that needs to stop, whether it's a truck, whether it's a car, 
whether it's a bus, that that is the contributing factor.
    I would also say that we have limited funds to approach 
truck safety. There is a major study underway for truck 
causation among the DOT, and we are anxious to get that study 
completed, because I think the results of that will tell us 
where we can put the dollars to save the most lives.
    Ms. Claybrook. Senator----
    Senator Sununu. Ms. Claybrook, let me ask you a question, 
and you can comment on that.
    Ms. Claybrook. Right.
    Senator Sununu. Maybe we can find some agreement here. Do 
you believe that carriers should have access to information on 
drivers' history of logbook violations, DOT reportable crashes, 
and roadside inspections?
    Ms. Claybrook. By driver name--you mean by driver?
    Senator Sununu. Yes.
    Ms. Claybrook. Do you mean generically or statistically or 
by individual driver?
    Senator Sununu. By driver.
    Ms. Claybrook. By driver. I do think that there are privacy 
issues, and that there ought to be some communication with the 
driver before that occurs, but----
    Senator Sununu. Certainly, but--I mean, but barring that, 
some sort of a system for communication. I mean, don't you 
believe that the issues of safety here ought to drive us to 
want to share information about crash history and logbook 
violations?
    Ms. Claybrook. Yes, I do, Senator. And I think it has to be 
done very cautiously and carefully, because there is a 
possibility for some kind of misuse of that data, and I think 
that people's livelihoods depend on it, and so I just think--I 
would just say that it ought to be done very, very cautiously.
    I would like to comment on that truck causation study by 
the DOT. That has been roundly criticized and reviewed--is 
under review now by the Centers for Disease Control, and I 
think that the outcome of that study is going to be much in 
question.
    And I'd like to submit, for the record, a letter that the 
public interest groups wrote to the Centers for Disease 
Control, and another critique of that study.
    Senator Sununu. Please. I'd be very happy to take that for 
the record.
    [The information referred to follows:]

                      Advocates for Highway and Auto Safety
                                        Washington, DC, May 7, 2003
Suzanne Binder, M.D., Director,
National Center for Injury Prevention and Control,
Centers for Disease Control and Prevention,
Atlanta, GA.

Dear Dr. Binder:

    The supplemental appropriations legislation for Fiscal Year 2003, 
enacted February 13, 2003, contains a House and Senate conference 
agreement directing the Centers for Disease Control (CDC) National 
Center for Injury Prevention and Control to evaluate the adequacy of 
the Truck Crash Causation Study's (TCCS) research design, and to report 
findings to the House and the Senate Committees on Appropriations. 
Rept. 108-10, 108th Congress, 1st Sess. (February 13, 2003), p.1280. 
The TCCS is being conducted jointly by the National Highway Traffic 
Safety Administration (NHTSA) and the Federal Motor Carrier Safety 
Administration (FMCSA) in compliance with Section 224 of the Motor 
Carrier Safety Improvement Act of 1999 which directed the Secretary of 
the U.S. Department of Transportation ``to determine the causes of, and 
contributing factors to, crashes that involve commercial motor 
vehicles.''
    Highway and truck safety organizations strongly supported this 
language requiring the CDC National Center for Injury Prevention and 
Control to evaluate the study design of the TCCS because of your 
agency's sustained reputation as a leading institution in 
epidemiological research methods and outcomes. We are deeply concerned 
over the research approach used by NHTSA and FMCSA in this study to 
investigate the reasons for truck crashes. The two agencies decided 
three years ago to use a research protocol which only investigates a 
number of cases of crashes by tracing back a series of events and, 
through doing so, purportedly identifying the ``critical event'' and 
``critical reason'' for the subsequent crashes. The agencies regard 
this effort as sufficient to identify the ``causes'' of the crashes. 
There is no comparison group being used to construct hypotheses about 
the reasons for such crashes and to test whether the identification of 
the supposed ``critical event'' that the agencies claim as the 
``cause'' or reason for the ensuing crash is borne out.
    The authors of the Interim Report on the TCCS assert that the most 
important aspect of the study's data collection effort is the 
interviewing of crash participants and witnesses.\1\ This means that 
central reliance in the data entries and subsequent inferences about 
the chain of crash events is placed on characterizing narrative 
supplied by individuals who are on-scene during or soon after the 
crash. These problems of bias and subjectivity are fatal to the 
accuracy of the gathering of threshold data and information about how 
any of the investigated cases of crashes occurred.
---------------------------------------------------------------------------
    \1\ K. Thiriez, G. Radja, G. Toth, Large Truck Crash Causation 
Study--Interim Report, Report No. DOT HS 809 527, September 2002.
---------------------------------------------------------------------------
    Many of these criticisms have been repeated by the Transportation 
Research Board's special committee charged with overseeing the study in 
several meetings with the principal investigators in the two agencies, 
and in a letter to the former FMCSA Administration, Joseph Clapp, sent 
December 4, 2001 (copy attached).
    The TCCS relies on the lowest level of evidence and poorest 
research design identified by, among others, the National Institutes of 
Health U.S. Preventive Services Task Force.\2\ The safety community 
believes that the research design for the TCCS is deeply flawed and 
that conclusions drawn from the examination of truck crash cases cannot 
overcome bias and subjectivity. Unless corrective action is taken, we 
believe that the findings of the study will be misused, Congress will 
be seriously misled about the reasons for crashes, and misguided safety 
countermeasures will be enacted and funded for Federal agencies to 
carry out. Furthermore, NHTSA is asking Congress for funds to conduct a 
similar investigation over the next several years of passenger vehicle 
crash cases to determine the causes of car and light truck crashes. 
This new study is to be conducted using the same flawed study design as 
the TCCS.
---------------------------------------------------------------------------
    \2\ http://hstathim.niltgov/hq/Hquest/screen/TextBrowse/t/
1049397685410/s/40169.
---------------------------------------------------------------------------
    Preliminary 2002 data released last week by the U.S. Department of 
Transportation show that overall highway fatalities have increased, the 
highest number in over a decade. Properly understanding crash 
causation, for trucks and passenger cars, is critical to developing an 
action plan to bring down deaths and injuries in the next decade. 
Public policy initiatives to address this growing public health crisis 
will be ineffective without defensible studies on which to base our 
actions. For this important reason, we welcome the impartial, 
professional review by the CDC's National Center for Injury Prevention 
and Control of the quality of the research being conducted by NHTSA and 
FMCSA.
    We would be pleased to have an opportunity to discuss further our 
concerns about the quality and direction of the TCCS. Thank you for 
your assistance.
            Sincerely,
                                          Judith Lee Stone,
                                                         President.
    Joan Claybrook, President
    Public Citizen

    Clarence Ditlow, Executive Director
    Center for Auto Safety

    Stephen W. Hargarten, MD, MPH
    Medical College of Wisconsin, Emergency Medicine

    Jack Gillis, Director of Public Affairs
    Consumer Federation of America

    Daphne Izer, Founder and Board Member
    Parents Against Tired Truckers (P.A.T.T.)

    Randi Baun, Executive Director
    Truck Safety Coalition

    Andrew McGuire, Executive Director
    Trauma Foundation
                                 ______
                                 
                                                   December 4, 2001
Joseph A. Clapp,
Administrator,
Federal Motor Carrier Safety Administration,
Washington, DC.

Dear Mr. Clapp:

    The Committee for Review of the Federal Motor Carrier Safety 
Administration's Truck Crash Causation Study (TCCS) held its third 
meeting on August 20-21, 2001, at the National Research Council 
facilities in Washington, D.C. The enclosed meeting roster indicates 
the members, liaisons, guests, and TRB staff in attendance. On behalf 
of the Committee, I want to thank the staff members of the Federal 
Motor Carrier Safety Administration (FMCSA) and the National Highway 
Traffic Safety Administration (NHTSA) for their presentations and 
responses to committee questions. The committee believes the continuing 
exchange of views and ideas on this project is highly beneficial.
    The meeting provided the Committee with an opportunity to review a 
set of questions stemming from a task force review of several crash 
files and to discuss again the agency's study methodology.\1\ In 
addition, the Committee heard a presentation about the database being 
prepared for the study and discussed the extent to which this database 
will be made available to the public. There was further discussion 
about the need to collect as much measurable data as possible about the 
crash characteristics of the roadway and vehicles involved. Finally, 
several committee members again underscored the need for the agency to 
document its method for assessing the crash data files and to consider 
using other analysis methods as well.
---------------------------------------------------------------------------
    \1\ A task force comprising five committee members--John Billing, 
Michael Belzer, Anne McCartt, James McKnight, and Frank Wilson--visited 
Veridian Corporation, an FMSCA crash investigation contractor, in 
Buffalo, New York on July 9-10, 2001 to review crash case files.
---------------------------------------------------------------------------
    The committee then met in closed session to deliber to on its 
findings and begin the preparation of this report, which was completed 
through co espondence among the members. This report summarizes key 
points made during the Committee's iscussions and provides several 
recommendations to FMCSA. See Appendix A for a review of previous 
committee decisions that affect the Committee's discussion and 
recommendations.
Study Purpose and Agency Expectations
    The TCCS is a congressionally mandated study of the causes of 
truck-involved crashes leading to fatality or serious injury. The 
results of the study will be used to design and select cost-effective 
measures for reducing the number and severity of serious crashes 
involving large trucks. The study will consist of in-depth 
investigations of a nationally representative sample of 1000 large 
truck crashes, to be performed by teams of trained investigators from 
NHTSA's National Automotive Safety Sampling System (NASS) project and 
FMCSA-funded truck safety inspectors. The full study involves data 
collection at 24 data collection sites.
    FMCSA staff reviewed the study's aims for the Committee, 
emphasizing that the study is designed to enable the agency to draw 
inferences about circumstances and contributing factors associated with 
truck crashes, thus helping the agency meet its goals for reducing 
truck crash fatalities. The committee agrees with the agency that the 
primary objective of the study is to collect the most complete and 
accurate possible set of factual evidence for use by agency analysts as 
well as future researchers. However, the study's goals are complicated 
by the fact that in more than 40 percent of fatal truck crashes, the 
driver of the other vehicle is believed to be solely responsible for 
the crash.\2\ Thus the Committee remains concerned about whether the 
data being collected on the 1000 crash cases will yield sufficient 
causal information to identify the most effective truck-related 
countermeasures.
---------------------------------------------------------------------------
    \2\ Daniel Blower. Relative Contributions of Truck Drivers and 
Passenger Vehicle Drivers to Truck-Passenger Vehicle Traffic Crashes. 
UMTRI Report 98-25.
---------------------------------------------------------------------------
    The TCCS is important for other reasons as well. It involves the 
largest nationally representative sample of truck crashes to date and 
is the first large-scale, on-scene investigation of such crashes. This 
study is also the first to use a combination of trained crash 
investigators and truck safety inspectors for data collection. Finally, 
the truck crash database being developed will be made available to the 
public and outside researchers as well as FMCSA and NHTSA researchers.
    In funding the TCCS, Congress requested ``a comprehensive study to 
determine the causes of, and contributing factors to, crashes that 
involve commercial motor vehicles . . . [emphasis added]'' (Motor 
Carriers Safety Improvement Act of 1999, Section 224). Extracting 
causal information in complex events like crashes is quite difficult 
and depends on collecting reliable and valid data on each possible 
causal or contributing factor. FMCSA staff informed the Committee that 
the agency is focusing on the contributing factor(s) that increase the 
risk of crashes; the agency is not attempting to isolate individual or 
primary causes of crashes. According to the agency, the TCCS--based on 
the Perchonok method--will yield findings about critical precrash 
events, the critical reasons for these events, and relative risks in 
truck crashes. While these findings may help the agency improve the 
effectiveness of truck crash countermeasures, they may not meet the 
goals set by Congress. The agency recognizes these expectations and is 
addressing them as it prepares a crash data analysis plan based on the 
analysis methodology described by Blower in Appendix B, pp. 13-19. The 
committee supports this effort and urges the Committee to consider 
other analysis approaches as well. Several committee members also noted 
that some of the distinctions the agency is making--for example, 
between causation and contributing factors that increase the risk of a 
crash--may be lost to decision makers and the public. Thus, clarity in 
both analyses and report writing is critical.
Crash Event Assessment (Study Methodology)
    In its first letter report, dated November 15, 2000, the Committee 
noted that FMCSA has chosen a clinical or case analytic methodology for 
the study. The discussions at this meeting, however, indicated that 
both a clinical approach (on the part of NHTSA) and a statistical 
approach (on the part of FMCSA) are envisioned for the analysis. 
(Material provided to the Committee on these approaches is included in 
Appendix B, pp. 2-8.) While the Committee believes that both are 
rational approaches, it continues to be concerned about whether the 
methodology to be used in coding and analyzing the data will yield 
valid results.
    There was considerable discussion about how a critical event for 
each crash is identified in the Perchonok approach. (Appendix C 
contains background information on this approach provided previously by 
FMCSA.) The above-mentioned task force, which reviewed preliminary 
results from five crash investigations, disagreed with several critical 
events identified by agency analysts and also disagreed among 
themselves about appropriate critical events. The committee's concern 
is not whether universal agreement can be achieved on every critical 
event, but whether the Perchonok method leads analysts to identify a 
critical event that can be challenged in light of the data in the crash 
case files.
    For example, the traditional Perchonok method does not recognize 
that failure to take an appropriate or expected action can be a 
critical event. This point is illustrated by a crash case involving a 
passenger car that did not stop at a red light and was struck by a 
left-turning truck (Appendix B, p. 11). In this example, the passage of 
the nonstopping car into the intersection after the light had turned 
red was not coded initially as the critical event. Agency staff now 
recognizes this limitation and has adapted the method to accept a 
driver's failure to make an appropriate maneuver as a critical event. 
The risk, however, is that similar challenges, even on just a few 
cases, could lead to the judgment that the methodology is subjective or 
arbitrary, which would undermine the study's conclusions. The committee 
previously urged FMCSA to follow the procedures of the version of the 
Perchonok method that is recognized as being the most objective for 
identifying key crash factors--the version shown to have the least bias 
toward any pre-determined outcome. The agency must thoroughly document 
the method being used so that other researchers can review the crash 
cases and independently analyze the results using the agency's method.
    Previously the Committee urged FMCSA to conduct two independent 
assessments of each crash case and was informed that such assessments 
are planned for each of the TCCS's 1000 cases. At the meeting FMCSA 
reported that it has also established a review panel to make final 
determinations about critical events in cases where the results of the 
independent assessments differ and these differences cannot be 
resolved. This is commendable. Nevertheless, FMCSA should identify the 
members of the review panel and document the procedures used by the 
panel to make final determinations.
    The agency discussed its plans to examine likely crash causes on 
the basis of statistical association and relative risk in the aggregate 
data, as well as case-by-case assessments. (A relative risk calculation 
regarding brake violations and crashes based on truck crash data 
collected in Michigan is described in Appendix B, pp. 17-18.) The 
committee suggests that FMCSA prepare a detailed, theoretically-based 
analysis plan for testing hypotheses. This plan should include a list 
of likely causes to be examined using statistical methods; a detailed 
analysis scenario for each cause; and a description of analyses that 
will examine alternative explanations for the observed effect (e.g., 
the examination of other equipment problems in the brake analysis to 
disprove the poor driver/poor equipment alternative theory). Such a 
plan will help the agency determine whether additional data are needed 
to support these analyses. Agency staff indicated that a preliminary 
analysis plan would be available to the Committee early in the first 
quarter of 2002.
Crash Event Assessment (Alternative Analysis and Data Collection 
        Issues)
    The TCCS represents an important opportunity for causal analysis 
using methods other than those chosen by FMCSA. Moreover, the Committee 
previously suggested that the agency consider conducting such analyses 
(for example, the ``but for'' analysis discussed in its March 9, 2001, 
letter report). The potential for such alternative analyses is directly 
related to the depth of the investigation conducted--how far back in 
time the investigator pursues each possible causal chain of events for 
each vehicle involved in a crash. It was clear for some of the cases 
reviewed by the task force, as well as those presented at previous 
committee meetings, that such causal chains had been thoroughly 
pursued. (In one case, for example, the event chain went back in time 
from a rear-end crash to the failure of the driver to reduce speed at 
the top of a hill to an incomplete or unsuccessful brake repair which 
the driver was aware of.) The committee urges FMCSA and NHTSA to 
reinforce in their instructions to investigators the need to examine 
these event chains thoroughly for each vehicle and driver and to 
include this information in the database and in the narratives.
    In some cases reviewed by the task force, there appeared to be 
data--potentially useful for current FMCSA analysis and for future 
agency and independent efforts to reconstruct the crashes more 
completely--that could have been collected but were not. These data 
were related to vehicle components and vehicle dynamics of the crash 
and they included brake condition, measurements of skid marks, and 
objective estimates of precrash speeds based on physical evidence at 
the crash scene. Agency staff indicated that they would instruct their 
investigators on the need and methods for collecting such data and for 
analyzing the data when necessary to identify the most likely of 
several possible critical events.
    In addition to the data currently being collected and suggested for 
collection, the Committee believes future alternative causal analyses 
would be further enhanced by recording the crash investigator's 
assessment of whether a defensive avoidance maneuver or preventive 
action could reasonably have been taken by either the truck or nontruck 
driver to avoid the crash and what that maneuver or action might have 
been. This assessment could be based solely on the investigator's 
judgment in light of the crash data file and could be described in the 
narrative that is part of every crash case file. A reasonable maneuver 
is one that could be taken by an average driver given the roadway and 
roadside environment, traffic volume, and ambient weather conditions. 
Judgments about potential avoidance maneuvers, while subjective, 
provided important information in the Indiana Tri-Level study (see 
Appendix B); such maneuvers were judged to be possible in one-third of 
the cases examined. If a similar finding applied to truck crashes, it 
would be very important for identification and development of 
countermeasures, as well as for FMCSA's enforcement and licensing/
relicensing programs, especially because truck drivers can be required 
to undergo remedial training. In addition, the existing set of 
uncompleted cases should be reviewed by the investigators to determine 
whether avoidance maneuvers can be identified for them.
Crash Data Files
    As noted above, a committee task force recently reviewed five crash 
case files. While these files were not yet complete--some follow-up 
data and interview information can take several months to obtain--the 
review provided the task force with a unique opportunity to become more 
familiar with the data being collected and the analysts' 
interpretations of the contributing factors involved. The review led to 
a set of questions that was addressed by agency staff at the meeting. 
The discussion of these questions is reflected throughout this report. 
Some specific issues are addressed in the following paragraphs.
    Several committee members would like to review the five crash case 
files once they have been completed and entered in the database; they 
would also like to review additional completed files, time permitting. 
Agency staff pointed out that data continue to be added to the files, 
and data edits will take approximately 4-5 months to complete. 
According to agency staff, approximately 15-20 complete crash files 
should be available by March 15, 2002. The committee would like access 
to these crash files, as well as the interview forms, investigator 
notes, and other documents pertaining to the cases so they can be 
reviewed in detail. A review of completed cases will inform the 
Committee as to what final case files look like, give members another 
opportunity to review the data coding and critical event decisions, and 
allow them to check the usability of the public crash file structure. 
Agency staff assured the Committee that this review could be arranged.
    Information attesting to the truthfulness and accuracy of data is 
often as important as the data itself and must be included in the 
database. Task force members noted their concerns about data known or 
suspected by the crash investigators to be erroneous. When the crash 
investigators know or suspect a data item is false, they make written 
notations to that effect on the data forms. However, agency staff 
informed the Committee that these qualifying notes--sometimes called 
flags--are lost when the data are extracted from the database for 
release to the public. The committee strongly recommends that such 
qualifying information be included in the electronic database because, 
in its absence, future independent analysts will be unaware of such 
potentially false data items.
    The task force review of the crash files underscored the need for 
calculations based on physical measurements made at the crash site to 
verify data and information provided by drivers or others involved in 
or witnessing the crashes. Even basic calculations based on tire tracks 
or skid marks can help verify or disprove such subjective data. NHTSA 
staff indicated their intention to adopt simple speed-estimating 
procedures so that analytical methods will be used to the extent 
possible in future cases.
    Several committee members emphasized the need, in some cases, for 
accurate information on roadway geometry and related topics, including 
shoulder and lane widths, radius of curvature, superelevation, presence 
and dimensions of rumble strips, sight distance, sideslope grades, and 
final vehicle resting position. In certain cases it is also necessary 
to include information about the roadway upstream from the crash site, 
especially if there are questions about whether sight distance was 
adequate or stopping distance was a factor. Currently these items are 
noted only on a scaled sketch included in the crash case file. However, 
the Committee recommends that information on critical roadway geometry 
be tabulated for each case and included in the database. Doing so will 
facilitate future analyses by FHWA and other researchers interested in 
the relationships between highway design and safety.
    The committee inquired about the extent to which previous committee 
member suggestions for changes to the data forms have been adopted. 
Agency staff indicated that nearly every suggested change has been 
made. Several committee members, after a brief review of selected 
revised data forms, noted items that still could be improved. The 
committee's concern is that data items must be well defined on the 
forms to yield data useful for analyses. Agency staff agreed to send 
copies of all the data forms to each of the members. At the request of 
agency staff, individual committee members will continue to review the 
forms and provide comments. Finally, agency staff agreed to change some 
of the terminology in the crash event assessment form so that fault 
will not be inferred. For example, under driver-related factors, 
``decision errors'' should be termed ``decision factors'', and 
``performance errors'' should be termed ``performance factors.''
Public Access to Data
    An important aspect of the TCCS is that most of the data collected 
will be available to the public for analysis once the project is 
completed. However, data obtained in interviews conducted under 
nondisclosure agreements with interviewees may not be released. Two 
important issues emerged from the discussion about public access. 
First, the Committee understands the need to protect information that 
might lead to the identification of specific crashes and the 
individuals involved. While the agency standard and capability for 
protecting privacy appears to be high, it appears some information thus 
obtained, such as length of last sleep interval, will apparently be 
disclosed in an aggregated form. The rules regarding nondisclosure 
should be explicit and adhered to consistently or the agency risks 
losing the voluntary cooperation of crash-involved witnesses. 
Accordingly, the Committee urges FMCSA and NHTSA to review their 
nondisclosure rules and the way interviewers explain these rules to the 
interviewees to ensure that data sources are well protected. The 
agencies should also ensure that their field investigators comply with 
these rules and procedures.
    Second, while recognizing that privacy concerns are important, the 
Committee believes that information critical to successful analysis by 
others once the data have been made public should not be withheld 
unnecessarily. Of concern is interview information about driver hours 
of service, fatigue, work compensation, working conditions, and truck 
ownership. Agency staff stated that when such information can be 
obtained from secondary sources, it will become part of the public 
record. In addition, FMCSA plans to prepare analyses that aggregate 
much of this information, thereby disclosing it in a form that does not 
violate nondisclosure agreements. Nevertheless, the Committee urges 
FMCSA to find secondary sources for as many of such data items as 
possible; doing so will increase the amount of data released to the 
public and their usefulness. For example, it may be possible for FMCSA 
inspectors to collect information on work compensation, truck 
ownership, and related items from truck companies and owners, thereby 
reducing reliance on the driver and/or company interviews by NHTSA 
investigators. In many cases it will be necessary for investigators to 
check hours of service and sleep claims independently. The committee 
suggests that such independent checks be standard practice for all 
crash case investigations.
Study Sampling Plan
    FMCSA staff noted that data collection is now under way at all 24 
study sites, and while some sites are yielding crash cases at a rate 
within an expected range for these sites, others are falling short in 
this regard. Because the agency's sampling plan is critical to 
achieving a nationally representative sample of crashes, the Committee 
would like to know whether the data collection effort is yielding the 
desired representative sample of truck crashes. Specifically, the 
Committee would like to know how many crashes are expected each year 
from each site, and how these figures compare with the basic NASS 
sample for these sites. The committee would also like to know, from the 
beginning of the study and for each study site, how many truck crashes 
have occurred, how many crash cases are under investigation, and how 
many crash investigations have been completed. In addition, the 
Committee requests that the agency categorize the crashes under 
investigation by type (e.g., rollover, rear end). and location (e.g., 
freeway, rural two-lane road, intersection). This information will 
provide a preliminary indication of the nature of the sample thus far 
and allow the crash selection methodology to be reviewed and any 
expected bias identified and assessed. The committee would like to have 
this information by January 31, 2002.
Study Report Preparations
    There was considerable discussion about the potential study 
findings and how FMCSA plans to analyze and report them to Congress. To 
further ensure an adequate data collection and analysis plan, agency 
staff should begin preparing a strawman version of the report's 
expected key findings based on a coherent theoretical statement of what 
the possible, causal or contributing factors are and including 
suggested formats for tables of key data the agency expects to be able 
to summarize. Preparing a draft of the opening paragraphs of the 
executive summary for the study's final report would also be a useful 
exercise in this regard, since these paragraphs ultimately will provide 
the most important version of the study rationale and scope. Addressing 
these tasks now might reveal the need for additional data or analysis. 
As noted above, agency staff indicated that a draft analysis plan would 
be available for review and comment by January 31, 2002.
Future Meeting Plans
    If the Committee receives the completed crash case files by March 
15, 2002 it plans to meet on or around June 15, 2002. This schedule 
will give the Committee time to review the files and prepare questions 
for the agency. Final meeting plans will depend on when the crash case 
files are available.
            Sincerely,
                                           Forrest Council,
                                                          Chairman,
                     Committee for Review of the Federal Motor Carrier 
                    Safety Administration's Truck Crash Causation Study
    Enclosures

    Senator Sununu. Let me say thank you, again, to all the 
panelists. It's been extremely helpful. And I welcome your 
submission of additional data for the record, and I look 
forward to working with you all on these issues.
    This hearing is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                            A P P E N D I X

                                 Hours of Service Coalition
                                       Alexandria, VA, June 9, 2003
Hon. John McCain,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman McCain:

    In April 2000, after the Federal Motor Carrier Safety 
Administration (FMCSA) published the proposed ``Hours of Service of 
Drivers; Driver Rest and Sleep for Safe Operations,'' approximately 40 
trade associations and corporations formed the Hours of Service 
Coalition to present our collective response to the proposal. The Hours 
of Service Coalition represents those commercial vehicle fleets that 
are primarily ``short-haul'' as opposed to long-haul for-hire trucking. 
Our membership represents a diversity of industries such as utilities, 
contractors, parcel services, fuel suppliers, agricultural commodities 
and food delivery such as baking, snack, soft drink, beer and 
confections. The operators the coalition represents spend a large 
percentage of their workday in non-driving activities such as selling 
to or servicing customers, waiting for trucks to be loaded or unloaded, 
awaiting paperwork, etc.
    We strongly support the intention of FMCSA's Final Rule,'' 49 CFR 
Parts 385, 390, and 395 (Docket No. FMCSA-97-2350), which is to 
increase safety on our Nation's highways and reduce fatalities. It is 
designed to address driver fatigue problems with long-haul operation of 
tractor-trailers or tractor-semi-trailer combinations. Yet the cost 
burden of the new rules falls not on these high-risk operators, but on 
the short-haul carriers for whom no significant risk appears to have 
been identified. This discrepancy is so great that the agency could not 
cost-justify this rule for short-haul carriers. The question, then is: 
Why has the agency chosen to impose a rule wherein the entire burden, 
and none of the benefit, accrue to those least likely to be involved in 
fatigue-related accidents?
    We have brought this discrepancy to the attention of FMCSA through 
a petition for reconsideration of the final rule, and requested that 
FMCSA reopen this proceeding to reconsider how the 14-hour on-duty 
requirement would affect ``short-haul'' operators--those operators who 
spend large portions of their on-duty periods in non-driving 
activities. We requested that operators be allowed the choice of using 
14 hours of on duty time, of which 11 hours may be driving (Final 
Rule), or using 15 hours of on duty time, of which 10 hours may be 
driving (Current Rule).
    Our petition for reconsideration is attached, and we ask that it be 
inserted into the Committee record following the Tuesday, June 10, 
2003, hearing regarding reauthorization of the FMCSA.
    Thank you for your attention to this.
            Sincerely,
                                Hours of Service Coalition.
                                 ______
                                 
                                 Hours of Service Coalition
                                       Alexandria, VA, May 27, 2003
Ms. Annette M. Sandberg,
Acting Administrator,
Federal Motor Carrier Safety Administration,
U.S. Department of Transportation,
Washington, DC.

Dear Acting Administrator Sandberg:

    Pursuant to Part 389.35 of 49 CFR Ch. III, Rulemaking Procedures--
Federal Motor Carrier Safety Regulations, this letter (submitted in 
five copies) serves as our Petition for Reconsideration of the Final 
Rule published in the Federal Register on April 28, 2003 ``Hours of 
Service of Drivers; Driver Rest and Sleep for Safe Operations; Final 
Rule,'' 49 CFR Parts 385, 390, and 395 (Docket No. FMCSA-97-2350). We 
wish to state at the outset that our organizations strongly support the 
intention of the Final Rule, which is to increase safety on our 
Nation's highways and reduce fatalities.
    Our Associations represent businesses that employ operators for 
``short-haul'' operations in which drivers return to their reporting 
location at the end of each shift. Operators in our industry often make 
numerous stops during the course of their daily on-duty activities. 
They spend a large percentage of their workday in non-driving 
activities such as selling to or servicing customers, waiting for 
trucks to be loaded or unloaded, awaiting paperwork, etc. Operators 
employed in our industries cannot reasonably be classified as ``long-
haul truckers,'' and have the benefit of spending large portions of 
their on-duty time in non-driving capacities which minimizes driving-
related fatigue.
    A number of our member companies have raised concerns about the 
provisions of the Final Rule that reduces total on-duty time from a 
flexible 15 hour-period to an inflexible 14-hour period from the time 
an operator begins his workday. A number of companies have noted that 
this change will require them to alter delivery routes and is likely to 
significantly alter distribution systems. Most importantly, some 
companies have indicated that in order to comply with the new Rule it 
will be necessary to increase the number of trucks on the road by 15 
percent. Most of these new trucks will not be able to maximize their 
load capacity. We believe this could have the opposite affect of the 
intention of the Final Rule, which is to increase safety on our 
Nation's highways and reduce fatalities. Indeed, FMCSA's own analysis 
shows that the new daily on-duty time limitation has the ``unintended 
consequence of requiring a significant increase in new [short haul] 
drivers . . . these new drivers would increase both costs and 
crashes'', and ``the increase in the need for new short-haul drivers 
would more than offset the slight reduction in fatigue . . .'' 
Furthermore, the change will have a disproportionate impact on 
distribution in rural areas and on small businesses that rely on these 
operations to bring products to their businesses.
    We are requesting a very narrow reconsideration of the Final Rule. 
We request that you reopen this proceeding to reconsider how the 14-
hour on-duty requirement would affect ``short-haul'' operators, and we 
request that your agency consider allowing such drivers to retain the 
current 15-hour on-duty limit, if they spend large portions of their 
on-duty periods in non-driving activities. We request that operators be 
allowed the choice of using 14 hours of on duty time, of which 11 hours 
may be driving (Final Rule), or using 15 hours of on duty time, of 
which 10 hours may be driving (Current Rule).
    At the very least, this is an issue that merits more thorough 
consideration by FMCSA. During the rulemaking process, the Notice of 
Proposed Rulemaking contained such a radical departure from the current 
rule that it was difficult to focus on all aspects of the rulemaking. 
Our organizations spent the bulk of our review and our comments and 
presentations on the most egregious issues in the proposal--notably the 
limits on nighttime driving and mandatory two consecutive days off.
    In addition, the proposed rule's break down of five categories of 
operations was complex and confusing to most fleet owners. Many of our 
operators would have shifted from one category to another on a daily 
basis. Each of the proposed categories had differing sets of on-duty, 
driving, and rest times. Almost no attention was paid to the one-hour 
reduction in the amount of on-duty time.
    While the reduction in daily on-duty time will clearly be costly 
and disruptive to ``short-haul'' fleet operations, the FMCSA has failed 
to identify benefits that would justify these costs. FMCSA's own 
research associates driver fatigue problems with long-haul operation of 
tractor-trailers or tractor-semi-trailer combinations. Yet the cost 
burden of the new rules falls not on these high-risk operators, but on 
the short-haul carriers for whom no significant risk has been 
identified. It is unreasonable, and contrary to the public interest, to 
impose a rule wherein the entire burden, and little of the benefit, 
accrue to those least likely to be involved in fatigue-related 
accidents.
    In conclusion, we respectfully request that FMCSA reconsider the 
limit of on-duty time at 14 hours and provide operators the option of 
retaining the current rule's provision for 15 hours of on-duty time 
with driving time limited to the current 10 hours. We look forward to 
your consideration of our concerns and stand ready to discuss them with 
you.
            Sincerely,

Air Conditioning Contractors of America
American Bakers Association
American Frozen Food Institute
American Supply Association
Food Marketing Institute
Grocery Manufacturers of America
Independent Bakers Association
International Mass Retail Association
International Foodservice Distributors Association
International Warehouse Logistics Association
National Beer Wholesalers Association
National Confectioners Association
National Potato Council
National Propane Gas Association
National Roofing Contractors Association
National Soft Drink Association
National Turkey Federation
Plumbing-Heating-Cooling-Contractors-National Association
Snack Food Association
U.S. Chamber of Commerce

Cc:
Secretary Norman Y. Mineta
U.S. Department of Transportation

Senator Richard S. Shelby
Chair, Transportation Subcommittee
Senate Appropriations Committee

Congressman Lee Terry
(Nebraska-2nd)

John Graham, Administrator
Office of Information and Regulatory Affairs
Office of Management and Budget

Thomas M. Sullivan
Chief Counsel for Advocacy
U.S. Small Business Administration
                                 ______
                                 
         Written Questions Submitted by Hon. John B. Breaux to 
                        Hon. Annette M. Sandburg
CDL Medical Certification
    In the Motor Carrier Safety Improvement Act of 1999, Congress 
directed the Federal Motor Carrier Safety Administration (FMCSA) to 
initiate a rulemaking to provide for a Federal medical qualification 
certificate to be made part of commercial drivers' licensing process. 
In a letter Secretary Mineta sent to Senator John Breaux on September 
24, 2002, he said that the Department would publish the proposed rule 
in March, 2003. To date, this rulemaking has not yet been issued.

    Question 1. The Department has not been able to even propose 
regulations integrating medical qualification certification with the 
commercial drivers' licensing process in over three years. Yet the 
Mexican government already has this combined program in place. When 
will the Department issue the proposed rule to begin the process of 
establishing a procedure combining medical qualification with CDL 
qualification?

    Question 2. Will this rulemaking be issued as planned, or is the 
Administration waiting to see what action Congress takes on SAFETEA?

    Question 3. According to Secretary Mineta's letter, the proposed 
rule combining the medical certification process with the CDL issuance 
and renewal processes would ``reduce the incidence of medical examiners 
improperly certifying drivers who are not medically qualified to 
operate trucks and buses in interstate commerce.'' How will the 
combining of the certification processes change the behavior of medical 
examiners?
CDL Medical Examiners
    Under the Administration's proposed bill, SAFETEA, FMCSA would 
initiate another rulemaking to set standards for medical examiners to 
meet in order to be qualified to examine commercially licensed drivers. 
FMCSA would also establish a medical review board to provide advice to 
FMCSA and guidelines to medical examiners to use in examining CDL 
applicants.

    Question 1. It seems that we need some threshold health standards 
that commercial vehicle drivers must meet to qualify for a CDL. Yet, 
the Administration is proposing to establish standards for medical 
examiners to meet to be qualified to examine commercial drivers. How 
will the FMCSA determine that the medical examiners are qualified? Will 
the examiners be tested by FMCSA?

    Question 2. Qualified medical examiners will then have guidelines 
to follow in qualifying (or not) a prospective commercial vehicle 
driver. Guidelines are not mandatory, so it would follow that the 
medical examiners will have discretion in deciding who is qualified and 
who is not. Will this not lead to inconsistency among doctors? How will 
FMCSA ensure that the guidelines are uniformly applied?

    Question 3. How will CDL holders and applicants know which medical 
examiners are qualified under the FMCSA program?

    Question 4. Will the examiners have to be re-qualified, or will 
they obtain a lifetime qualification to perform the medical exams on 
CDL holders and applicants? Will the regulations include standards 
under which qualified medical examiners become disqualified? If so, 
will there be an appeals process for medical examiners who have been 
disqualified?

    Question 5. FMCSA has revised the certification form used by 
medical examiners to include more medical advisory guidance to assist 
examiners in making physical qualification determinations in order to 
``ensure that medical examiners are more knowledgeable of the physical 
qualification standards.'' How will this change ensure that medical 
examiners use the guidance in examining CDL holders and applicants?

    Question 6. Once medical examiners have evaluation standards and 
have been certified by FMCSA, will they be the ultimate authority 
granting a medical certificate or will the FMCSA withhold final 
approval during an evaluation period (i.e.. The FAA uses a 60 review 
window) and then grant final approval or reject the medical examiner's 
findings?
Diabetic Drivers
    In TEA-21, Congress directed FMCSA to study the feasibility of 
eliminating the current blanket ban on insulin-treated drivers and move 
to a case-by-case assessment. FMCSA's response was to propose the 
``three-year rule'' under which potential drivers must operate a 
commercial motor vehicle while using insulin for three years before 
they can even apply for a CDL. Since that would be illegal for 
interstate driving, insulin-treated drivers must find intrastate 
driving opportunities in those states that allow insulin-treated 
drivers to drive commercial motor vehicles at all.

    Question 1. FMCSA's own expert medical panel found the three-year 
requirement to be medically unnecessary and not supported by current 
treatment of diabetes. Why did FMCSA ignore its expert medical panel 
and support the three-year requirement?

    Question 2. Since about 20 states prohibit insulin-treated drivers 
from driving commercial vehicles, including Louisiana, what would FMCSA 
recommend commercial drivers do in those states to fulfill the three-
year requirement?

    Question 3. The three-year rule is still just a proposed rule, and 
the docket for the rulemaking shows strong public support of major 
changes to that rule. Would additional guidance from Congress on the 
proposed exemption program in TEA-21 reauthorization help speed the 
regulatory process?
CDL Disqualifications
    Secretary Mineta stated that as of September 30, 2002, commercial 
motor vehicle drivers convicted of traffic violations while operating a 
car, which resulted in the cancellation, suspension or revocation of 
their drivers' license, are disqualified from operating a commercial 
motor vehicle. Individuals convicted of committing drug-or alcohol-
related offenses while driving a car are also disqualified. That 
restriction has been in force now for almost eight months now.

    Question 1. How many CDL holders have been disqualified as a result 
of this prohibition?

    Question 2. What steps has FMCSA taken to ensure that states are 
following this new rule by revoking the CDLs of disqualified 
individuals or by reporting the individuals to FMCSA?
    Secretary Mineta's September 24 letter stated that a driver who 
causes a fatality through negligent or criminal operation of a 
commercial vehicle while driving with a canceled, suspended, or revoked 
CDL is disqualified from operating a commercial vehicle.

    Question 1. If a driver has a canceled or revoked CDL, isn't the 
driver already disqualified?

    Question 2. Shouldn't negligent or criminal operation of a 
commercial vehicle be grounds for disqualification, whether or not the 
behavior causes a fatality?

    Question 3. Is operating a commercial vehicle with a canceled, 
suspended or revoked CDL a prima facie case of negligent or criminal 
operation of a commercial vehicle?
Accident Investigation
    Question 1. Has FMCSA completed its investigation of the June 24, 
2002, motor coach accident in Garland, Texas which killed four 
Louisiana children?
New Entrants
    New motor carrier entrants and new drivers consistently have been 
shown to pose the greatest safety risk. Section 210 of MCSIA requires 
the FMCSA to conduct safety audits of new entrant motor carriers within 
18 months of receiving operating authority.

    Question 1. How many safety audits has FMCSA performed?

    Question 2. How many drivers have been disqualified after being 
subject to a safety audit by FMCSA?

    Question 3. What types of driver behavior most commonly lead to 
disqualification from a safety audit?
Household goods movers
    The protection of consumers involved in the movement of their 
household goods continues to be an issue for which action is needed. In 
recent years, there has been a growing number of complaints by people 
who have moved their household goods about movers engaging in illegal 
practices that leave the shippers with little or no recourse.

    Question 1. In March, a two-year investigation by DOT and the FBI 
led to the indictment of 16 interstate moving companies, as well as 74 
operators, owners, and employees of interstate moving companies, for 
violations of consumer protection laws for shippers of household goods. 
Is the investigation continuing? Are there other similar investigations 
ongoing? Are we likely to see additional indictments in the near 
future?

    Question 2. SAFETEA proposes to allow state attorneys general to 
bring civil action against a carrier in Federal court enforcing Federal 
law. Why wouldn't the Administration favor states bringing civil action 
under their own consumer protection laws?

    Question 3. What is a commercial zone in which laws governing 
interstate moves of household goods do not apply? What laws do apply?

    Question 4. The Carmack Amendment, in effect since 1906, limits the 
damages a consumer can seek against a household mover for negligence. 
The damages are limited to compensatory damages and do not allow for 
consumers to seek additional damages for mental anguish or emotional 
distress, even though losing all of your belongings in a move due to 
negligence by a household mover is extremely distressing. For example, 
how can a person be compensated for the loss of or irreparable damage 
to old family portraits or great-grandpa's roll-top desk? Should the 
Carmack Amendment be repealed or amended?

    Question 5. How would you define a ``rogue'' mover? How many rogue 
movers are estimated to be operating in the United States at this time?
                                 ______
                                 
       Written Questions Submitted by Hon. Ernest F. Hollings to 
                        Hon. Annette M. Sandberg
Hazardous Materials Background Checks
    On May 2, 2003, TSA, the FMCSA at DOT issued companion interim 
final rules which require background checks on commercial drivers 
certified to transport hazardous materials, conform the background 
check provisions with the Commercial Drivers License (CDL) program 
administered by the states, and define what hazardous materials should 
be covered. This new rule will affect approximately 3.5 million 
commercial drivers that possess, renew or apply for a hazardous 
materials (HAZMAT) endorsement on their CDL. These drivers will undergo 
a background records check that includes checks of criminal, 
immigration and FBI records. The rule does not apply to applicants for 
CDLs without a hazmat endorsement.
    Each applicant must pass the background check prior to being issued 
a license. There is also a provision for current CDL license holders, 
which allows for the voluntary surrender of their license if they know 
they do not meet the new background check requirements. Within the next 
six months, the TSA will be conducting background checks of all 
existing license holders with hazmat endorsements. After eight months, 
the TSA will start background checks on new applicants for CDLs with 
hazardous materials endorsements.

    Question 1. What safeguards will be put into place to make sure 
that employers will not receive ``private'' employee information to 
specific findings of the employee's background check except for a 
``pass'' or ``fail'' answer?

    Question 2. How will employers guarantee that all commercial 
licensed drivers that they employ are not subjected to a hazardous 
materials endorsement background check for the sake of finding out the 
employee's employability to transport non-hazardous materials freight?
Funding for MCSAP to the States
    The Administration's SAFETEA proposal decreases the amount of 
funding from previous years going to the states and increases the 
administrative funding of the motor carrier program.

    Question 1. Why is there more money going into the administration 
of the Federal motor carrier safety program now then there has been in 
previous years and less to the states that carryout the program? What 
additional resources are necessary to facilitate the management of the 
Federal motor carrier program?
                                 ______
                                 
         Written Questions Submitted by Hon. John B. Breaux to
  Douglas G. Duncan, LaMont Byrd, Joan B. Claybrook, Peter Hurst and 
                           Joseph M. Harrison
Diabetic Drivers
    FMCSA has issued a proposed rule that requires insulin-treated 
drivers to have three years of commercial driving experience while 
using insulin in order to qualify for a diabetes exemption in obtaining 
a CDL. This scheme would require an insulin-treated driver to drive a 
commercial vehicle illegally for three years in order to qualify for 
the exemption. In effect, the three-year rule makes it impossible for 
almost anyone with diabetes to qualify for the program and a CDL.

    Question 1. Do you believe this is a fair method of qualifying 
insulin-treated drivers, especially given the fact that 20 states do 
not offer an intrastate waiver program so that drivers from those 
states would not have a chance to obtain a CDL under FMCSA's diabetes 
exemption program?

    Question 2. How would you suggest that the licensing of diabetic 
drivers for interstate driving be accomplished?
CDL Medical Qualifications
    Question 1. Should there be minimum medical qualifications for 
holders of commercial drivers licenses?
Driver Disqualification
    As of September 30, 2002, commercial motor vehicle drivers 
convicted of traffic violations while operating a car, which resulted 
in the cancellation, suspension or revocation of the drivers' license, 
are disqualified from operating a commercial motor vehicle. Individuals 
convicted of committing drug-or alcohol-related offenses while driving 
a car are also disqualified. This restriction has been in force now for 
almost eight months now.

    Question 1. Are you aware of any CDL holders that have been 
disqualified as a result of this prohibition?

    Question 2. How good are states in following this new rule by 
revoking the CDLs of disqualified individuals or by reporting the 
individuals to FMCSA?
Household goods movers
    In recent years, there has been a growing number of complaints by 
people household goods about movers engaging in illegal practices that 
leave the or no recourse. The problem has grown with the increased 
popularity of t which shippers often enter into contracts with carriers 
because the prices o cheap. Complaints involve carriers who move goods 
for a stated price an the goods back to the shipper until the shipper 
pays additional charges. Ot goods that have been lost or damaged in a 
move performed by a carrier th found, leaving the shipper with no 
recourse.

    Question 1. There are several proposed ways to address this growing 
problem. One proposal would allow states to pursue consumer complaints 
about interstate moves in their own state courts enforcing state laws. 
Another proposal would allow states to pursue the complaints, but in 
Federal court enforcing Federal law. Still another proposal would allow 
states to pursue complaints under Federal law, but only against so-
called ``rogue'' movers. What do you think is the best way to offer the 
most protection to people who are hiring commercial movers to transport 
their household goods?

    Question 2. The Carmack Amendment limits the damages a consumer can 
seek against a household mover for negligence. If a mover loses or 
irreparably damages a shipper's goods, the shipper can seek only to 
have the mover pay for the actual loss. There are no damages allowed 
for mental anguish or emotional distress, even though losing all of 
your belongings in a move due to negligence by a household mover is 
exteremely distressing. Should the Carmack Amendment be repealed or 
amended?

                                  <all>

</pre></body></html>
